                       U.S. Department of Agriculture

                          Office of Inspector General
                                 Great Plains Region




             Audit Report

Animal and Plant Health Inspection Service
 Bovine Spongiform Encephalopathy (BSE)
      Surveillance Program – Phase II
                    and
    Food Safety and Inspection Service
Controls Over BSE Sampling, Specified Risk
  Materials, and Advanced Meat Recovery
             Products - Phase III




                             Report No. 50601-10-KC
                                       January 2006
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250


January 25, 2006

REPLY TO
ATTN OF:       50601-10-KC

TO:            W. Ron DeHaven
               Administrator
               Animal and Plant Health Inspection Service

               Barbara Masters
               Administrator
               Food Safety and Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator
               Marketing Regulatory Program Business Services

               William C. Smith
               Assistant Administrator
               Office of Program Evaluation, Enforcement, and Review

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Animal and Plant Health Inspection Service - Bovine Spongiform
               Encephalopathy (BSE) Surveillance Program - Phase II and Food Safety
               and Inspection Service - Controls Over BSE Sampling, Specified Risk
               Materials, and Advanced Meat Recovery Products - Phase III

This report presents the results of our audit of the enhanced BSE surveillance program
and controls over specified risk materials and advanced meat recovery products. Your
written response to the official draft report, dated January 20, 2006, is included as exhibit
G with excerpts of the response and the Office of Inspector General’s (OIG) position
incorporated into the Findings and Recommendations section of the report, where
applicable.

We accept the management decisions for all recommendations. Please follow your
agency’s internal procedures in forwarding documentation for final action to the Office of
the Chief Financial Officer (OCFO). We are providing a separate memorandum to the
agencies and OCFO that provides specific information on the actions to be completed to
achieve final action.
We appreciate your timely response and the cooperation and assistance provided to our
staff during the audit
Executive Summary
Animal and Plant Health Inspection Service - Bovine Spongiform Encephalopathy
(BSE) Surveillance Program - Phase II and Food Safety and Inspection
Service - Controls Over BSE Sampling, Specified Risk Materials, and Advanced Meat
Recovery Products - Phase III

Results in Brief   This report evaluates elements of the interlocking safeguards in place to
                   protect United States (U.S.) beef from Bovine Spongiform Encephalopathy,
                   widely known as BSE or “mad cow disease.” Since 1990, the U.S.
                   Department of Agriculture (USDA), Animal and Plant Health Inspection
                   Service (APHIS), has led a multi-agency effort to monitor and prevent BSE
                   from entering the food supply. After discovering a BSE-positive cow in
                   December 2003, APHIS expanded its BSE surveillance program. To further
                   protect the food supply, USDA banned materials identified as being at risk of
                   carrying BSE (specified risk materials (SRM)), such as central nervous
                   system tissue. As part of this effort, USDA’s Food Safety and Inspection
                   Service (FSIS) required beef slaughter and processing facilities to incorporate
                   controls for handling such materials into their operational plans. Onsite FSIS
                   inspectors also inspect cattle for clinical signs in order to prevent diseased
                   animals from being slaughtered for human consumption. To evaluate the
                   effectiveness of the safeguards, we assessed APHIS’ implementation of the
                   expanded surveillance program, as well as FSIS’ controls to prevent banned
                   SRMs from entering the food supply.

                   In June 2004, APHIS implemented its expanded surveillance program;
                   participation by industry in this surveillance program is voluntary. As of
                   May 2005, over 350,000 animals were sampled and tested for BSE. To date,
                   two animals tested positive for BSE; one tested positive after implementation
                   of the expanded surveillance program.

                   USDA made significant efforts to implement the expanded BSE surveillance
                   program. Much needed to be done in a short period of time to establish the
                   necessary processes, controls, infrastructure, and networks to assist in this
                   effort. In addition, extensive outreach and coordination was undertaken with
                   other Federal, State, and local entities, private industry, and laboratory and
                   veterinary networks. This report provides an assessment as to the progress
                   USDA made in expanding its surveillance effort and the effectiveness of its
                   controls and processes. This report also discusses the limitations of its
                   program and data in assessing the prevalence of BSE in the U.S. herd.




USDA/OIG-A/50601-10-KC/                                                                    Page i
                              Surveillance Goals and Objectives

                              In March 2004, USDA published its plan to expand the BSE surveillance
                              program. The plan’s goal was to collect samples from as many adult 1 cattle
                              from the high-risk population as possible in 12-18 months while ensuring that
                              there was statistically appropriate geographical representation of the adult
                              cattle population in the United States. Overall, USDA designed the program
                              to define whether BSE was actually present in the U.S. cattle population and
                              if so, to what level.

                              When USDA published its plan, Office of Inspector General (OIG) was
                              examining the pre-expansion program. In anticipation of the coming
                              changes, we reviewed the plan in order to determine if its design would allow
                              the Department to reach statistically valid conclusions about the presence and
                              level of BSE. Since the implementation plan had not been finalized, we
                              provided recommendations for USDA to consider as they moved forward
                              with implementing an expanded surveillance program. In August 2004, we
                              released our report, Animal and Plant Health Inspection Service and Food
                              Safety and Inspection Service, Bovine Spongiform Encephalopathy (BSE)
                              Surveillance Program – Phase I (Report No. 50601-9-KC), which discussed
                              our observations of the challenges USDA faced in meeting its stated goals
                              and made 19 recommendations for USDA to consider as it moved forward
                              with implementation. Our prior report primarily focused on (1) the potential
                              for unwarranted statistical conclusions to be drawn from the data USDA
                              planned to collect, and (2) the challenges in identifying and testing high-risk
                              cattle. In response to our report, APHIS agreed to disclose the limitations of
                              the data and the assumptions made and its impact on any statistical
                              representations regarding the prevalence of BSE in order to obviate
                              misinterpretation.

                              We reviewed the specific corrective actions APHIS and FSIS agreed to take
                              in response to prior audit recommendations during this audit. In this report,
                              we discuss the specific areas where corrective actions were not fully effective
                              in addressing our concerns in the following areas: obtaining representative
                              samples, identifying and obtaining samples from the high-risk surveillance
                              streams, and completeness and accuracy of program data.

                              APHIS has provided OIG unpublished drafts of its preliminary analysis,
                              which included various statistical approaches to determining the prevalence
                              of BSE. In general, each approach mitigates some, but not all of the
                              limitations associated with its data and underlying assumptions in the design
                              and implementation of its surveillance program. Some of the approaches also
1
  FSIS considers bulls and cows to be mature cattle with cows ordinarily having given birth to one or more calves. FSIS
defines SRMs to be present in cattle 30 months of age or older, while APHIS defines its target population for BSE sampling
to be over 30 months of age. Dentition is used to estimate the age ranges of cattle. Dentition is the development of teeth
and their arrangement in the mouth.
USDA/OIG-A/50601-10-KC/                                                                                          Page ii
                   introduce new challenges because any conclusions are extremely sensitive to
                   the accuracy of the underlying data. The accuracy of the underlying data is
                   also critical to the development of a future maintenance surveillance
                   program. We cannot fully assess any of the approaches being considered by
                   APHIS since it has not finalized its analysis. In Finding 1, however, we do
                   offer several observations for APHIS to consider as it develops its
                   conclusions about the prevalence of BSE in the U.S. cattle population.

                   Inherent Limitations in Identifying and Testing High-Risk Cattle

                   APHIS obtained significantly more samples for testing than they originally
                   anticipated would be needed to achieve its stated level of confidence in
                   estimating the prevalence of BSE in the U.S. herd. Because of the voluntary
                   nature of its program, however, we could not determine how successful
                   APHIS was in obtaining a representative proportion of high-risk cattle for
                   testing. Our prior report recognized the significant challenges for APHIS to
                   obtain samples from the high-risk population because of the inherent
                   problems with obtaining voluntary compliance and transporting carcasses for
                   testing. APHIS took steps to obtain facilitated pathways, by entering into
                   over 100 agreements, to collect and test brain samples for BSE. However,
                   using USDA published data that estimates the distribution of the cattle
                   population, as well as those that died or became nonambulatory, we could not
                   determine whether APHIS achieved either geographical representation or
                   representation of the desired surveillance stream (clinical suspects, fallen
                   stock, casualty slaughter fallen stock, and routine slaughter). Findings 1 and
                   2 present the conditions noted that impact this evaluation.

                   USDA Testing Protocols and Quality Assurance Procedures

                   In November 2004, USDA announced that its rapid screening test produced
                   an inconclusive BSE test result. A contract laboratory ran its rapid screening
                   test on a brain sample collected for testing and produced three high positive
                   reactive results. As required, the contract laboratory forwarded the
                   inconclusive sample to APHIS’ National Veterinary Services Laboratories
                   (NVSL) for confirmation. NVSL repeated the rapid screening test, which
                   again produced three high positive reactive results. Following established
                   protocol, NVSL ran its confirmatory test, an immunohistochemistry (IHC)
                   test, which was interpreted as negative for BSE.

                   Faced with conflicting results between the rapid screening and IHC tests,
                   NVSL scientists recommended additional testing to resolve the discrepancy
                   but APHIS headquarters officials concluded that no further testing was
                   necessary since testing protocols were followed and the confirmatory test was
                   negative. In our discussions with APHIS officials, they justified their
                   decision to not do additional testing because the IHC test is internationally
                   recognized as the “gold standard” of testing. Also, they believed that
USDA/OIG-A/50601-10-KC/                                                                  Page iii
                   conducting additional tests would undermine confidence in USDA’s testing
                   protocols.

                   OIG obtained evidence that indicated additional testing was prudent. We
                   came to this conclusion because the rapid screening tests produced six high
                   positive reactive results, the IHC tests conflicted, and various standard
                   operating procedures were not followed. Also, our review of the relevant
                   scientific literature, other countries’ protocols, and discussions with experts
                   led us to conclude that additional confirmatory testing should be considered
                   in the event of conflicting test results.

                   To maintain objectivity and independence, we requested that USDA’s
                   Agricultural Research Service (ARS) perform the Office International des
                   Epizooties (OIE) Scrapie-Associated Fibrils (SAF) immunoblot test. The
                   additional testing produced positive results. To confirm, the Secretary of
                   Agriculture requested that an internationally recognized BSE laboratory in
                   Weybridge, England (Weybridge) perform additional testing. Weybridge
                   conducted various tests, including their own IHC tests and three Western blot
                   tests. The tests confirmed that the cow was infected with BSE. The
                   Secretary immediately directed USDA scientists to work with international
                   experts to develop new protocols that include performing dual confirmatory
                   tests in the event of an inconclusive BSE screening test.

                   We attribute the failure to identify the BSE positive sample to rigid protocols,
                   as well as the lack of adequate quality assurance controls over its testing
                   program. Details of our concerns are discussed in Findings 3 and 4.

                   Controls (Firewalls) to Prevent BSE in the Food Supply

                   USDA instituted proactive procedures to prevent tissues and products that
                   could possibly contain the infective agent for BSE from entering the food
                   supply. FSIS performs inspections on cattle before slaughter (ante mortem)
                   to observe clinical signs that may indicate a central nervous system disorder
                   or other signs that may be associated with BSE. Such animals are
                   condemned and prohibited from slaughter for human consumption. FSIS also
                   identified high-risk beef tissue and products as SRMs, and banned them from
                   the food supply.       FSIS inspects slaughter processes to verify that
                   slaughterhouses have incorporated controls for handling SRMs into their
                   operational plans; adequate procedures must be in place for removing,
                   segregating, and disposing of SRMs.

                   OIG reviewed the SRM plans of several establishments, observed FSIS
                   inspection procedures, and evaluated the effectiveness of controls during the
                   slaughter process. We did not identify SRMs entering the food supply.
                   However, due to the lack of adequate records, we could not determine
                   whether SRM procedures were followed and/or were adequate in 9 of
USDA/OIG-A/50601-10-KC/                                                                    Page iv
                              12 establishments visited during the audit. There is no requirement in the
                              United States for the age of animals to be recorded, therefore, APHIS and
                              FSIS rely on meat establishments to determine the age of cattle slaughtered
                              using documentation or dentition. SRM restrictions apply predominantly to
                              cattle 30 months of age or older. FSIS periodically checks the accuracy of
                              age determinations through dentition; however, we could not determine how
                              often these checks are made. We found that improvements can be made in
                              the following areas.

                              •   FSIS approved an alternate ante mortem inspection procedure that limited
                                  the number of cattle subject to inspection. FSIS discontinued this
                                  procedure during the audit.
                              •   FSIS does not have an information system capable of readily identifying
                                  the scope of, and trends in, noncompliance violations relating to SRMs.
                              •   Most of the establishments reviewed did not have adequate SRM plans,
                                  and FSIS did not always identify these deficiencies.
                              •   Several of the establishments did not comply with their SRM plans and/or
                                  maintain records to support that they follow their plans.

                              FSIS has addressed the specific cases of noncompliance identified during the
                              audit. Findings 5 through 9 discuss our assessment of the effectiveness of
                              USDA’s firewalls.

                              Other Program Administration Issues

                              FSIS and APHIS did not maintain current and comprehensive listings of
                              renderers 2 and related businesses. These entities are required to register with
                              FSIS as a condition of engaging in business. 3 As a result, should serious
                              animal diseases be detected in the United States, USDA’s ability to quickly
                              determine and trace the source of infections to prevent the spread of the
                              disease could be impaired. Also, APHIS could not use the registrations to
                              identify potential sources to mitigate geographical gaps in BSE testing. We
                              discuss the details of this issue in Finding 11.

                              We also determined that an APHIS area office paid costs for sampling and
                              carcass transportation, storage, and disposal that exceeded national cost
                              recovery guidelines and/or that were ineligible for reimbursement. The area
                              office entered into 10 reimbursable agreements before national office cost
                              recovery guidelines had been issued but did not adjust the agreements
                              afterwards although instructed to do so by the national office. Instead, the
                              area office included the questionable costs in amounts proposed (by

2
  For purposes of this report, the term renderers also includes pet food manufacturers and plants that handle dead, dying,
disabled, or diseased livestock.
3
  9 CFR 320.5, states that every person that engages in business in or for commerce, as a meat broker, renderer, or animal
food manufacturer … shall register with the Administrator [of FSIS].
USDA/OIG-A/50601-10-KC/                                                                                           Page v
                   third parties) in other allowable cost categories. The area office official
                   stated he changed supporting records because he believed he should honor
                   the prior negotiated costs. As a result, at least $1.2 million of about
                   $11.2 million paid were unsupported program costs. Finding 12 more fully
                   examines the unsupported costs and why they went undiscovered.

                   The expanded stage of USDA’s BSE surveillance program is nearing its end.
                   Accordingly, it is vital that the conditions summarized above be considered
                   as USDA uses the data gathered to design an effective BSE surveillance
                   maintenance program and to report its assessment of the prevalence of BSE
                   in the U.S. herd. In particular, APHIS must develop testing protocols which
                   are grounded in science and flexible enough to adapt to changing
                   circumstances. For its part, FSIS must ensure that it effectively monitors
                   SRM handling practices to ensure they comply with Federal regulations.
                   Implemented, these management controls will help USDA continue to
                   effectively safeguard the U.S. beef supply for consumers.

Recommendations
In Brief           We are recommending that APHIS:
                      • Ensure the transparency of published information so that stakeholders
                          are fully advised of the assumptions and procedures used, limitations
                          of data, and the basis of conclusions reached as a result of the BSE
                          surveillance program;
                      • Continually re-evaluate and adjust testing protocols based on
                          emerging science; and
                      • Perform additional outreach to emphasize the age of the target
                          animals and to ensure laboratory personnel understand procedures for
                          submitting the desired samples; and followup with laboratories that
                          appear to be providing an insufficient number of samples.

                   We are also recommending that FSIS:
                     • Implement a review and evaluation program to be conducted by FSIS’
                          Office of Program Evaluation, Enforcement, and Review to verify the
                          adequacy of SRM control programs at all beef slaughter and
                          processing establishments; and
                     • Verify compliance with its SRM control procedures through its
                          Performance Based Inspection System, which should also be modified
                          to allow for timely analysis of violation trends and tracking corrective
                          action.

                   Last, we are recommending that USDA:
                      • Determine whether FSIS and/or APHIS need additional authorities to
                          perform inspection and BSE sampling activities in pre-screening areas
                          immediately adjacent, or contiguous to, official slaughter
                          establishments.

USDA/OIG-A/50601-10-KC/                                                                   Page vi
Agency
Response           In their January 20, 2006, written response to the official draft report, APHIS
                   and FSIS were in general agreement with the findings and recommendations
                   presented therein. The response provided specific actions the agencies have
                   taken, or plan to take as well as timeframes for implementing proposed
                   actions. The APHIS and FSIS joint response is included in its entirety as
                   exhibit G.

OIG
Position           We concur with APHIS’ and FSIS’ proposed corrective actions and have
                   accepted management decisions for all recommendations.            We have
                   incorporated applicable portions of the written response to the draft report
                   along with our position in the Findings and Recommendations section of this
                   report.




USDA/OIG-A/50601-10-KC/                                                                  Page vii
Abbreviations Used in This Report

AMR                 Advanced Meat Recovery
AMS                 Agricultural Marketing Service
APHIS               Animal and Plant Health Inspection Service
ARS                 Agricultural Research Service
AVIC                Area Veterinarian-in-Charge
BSE                 Bovine Spongiform Encephalopathy
CFR                 Code of Federal Regulations
CNS                 Central Nervous System
CVB                 Center for Veterinary Biologics
DRG                 Dorsal Root Ganglia
EED                 Evaluation and Enforcement Division
ELISA               Enzyme Linked Immunosorbent Assay
FDA                 Food and Drug Administration
FSIS                Food Safety and Inspection Service
FY                  Fiscal Year
GAO                 Government Accountability Office
HACCP               Hazard Analysis and Critical Control Point
IEC                 International Electrotechnical Commission
IHC                 Immunohistochemistry
IPPS                In-Plant Performance System
ISO                 International Organization for Standardization
NASS                National Agricultural Statistics Service
NR                  Noncompliance Record
NVSL                National Veterinary Services Laboratories
OCFO                Office of the Chief Financial Officer
OD                  Optical Density
OFO                 Office of Field Operations
OIE                 Office International des Epizooties
OIG                 Office of Inspector General
OPEER               Office of Program Evaluation, Enforcement, and Review
OPPED               Office of Policy, Program and Employee Development
PBIS                Performance Based Inspection System
PHV                 Public Health Veterinarian
PR                  Pathogen Reduction
RAMS                Registration Activity Management System
SAF                 Scrapie-Associated Fibrils
SOP                 Standard Operating Procedure
SSOP                Sanitation Standard Operating Procedure
SRM                 Specified Risk Materials
TAHC                Terrestrial Animal Health Code
TSE                 Transmissible Spongiform Encephalopathy
U.K.                United Kingdom
U.S.                United States
USDA                U.S. Department of Agriculture
VMO                 Veterinary Medical Officer
Weybridge           International Reference Laboratory, Weybridge, England
USDA/OIG-A/50601-10-KC/                                                      Page viii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................viii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1. From Surveillance to Maintenance ................................................................................ 6

        Finding 1             BSE Surveillance Efforts – Stated Versus Achieved Objectives ............................ 7
                                  Recommendation 1 ........................................................................................ 16
                                  Recommendation 2 ........................................................................................ 18
        Finding 2             Inherent Challenges in Identifying and Testing High-Risk Cattle Still
                              Remain .................................................................................................................. 19
                                  Recommendation 3 ........................................................................................ 27
                                  Recommendation 4 ........................................................................................ 29

    Section 2. Testing Protocols and Quality Assurance Controls.................................................... 31

        Finding 3             Rigid Protocols Reduced the Likelihood BSE Could be Detected ....................... 32
                                  Recommendation 5 ........................................................................................ 36
                                  Recommendation 6 ........................................................................................ 36
        Finding 4             Laboratory Proficiency and Quality Assurance Procedures Should be
                              Reviewed and Strengthened .................................................................................. 37
                                  Recommendation 7 ........................................................................................ 45
                                  Recommendation 8 ........................................................................................ 45
                                  Recommendation 9 ........................................................................................ 46
                                  Recommendation 10 ...................................................................................... 46

    Section 3. Controls (Firewalls) to Prevent BSE in the Food Supply .......................................... 48

        Finding 5             FSIS’ Alternative Ante Mortem Inspection Procedures Reduced the
                              Likelihood of Detecting Targeted Animals........................................................... 49
        Finding 6             Effectiveness of SRM Slaughter Controls and FSIS Oversight Could Not
                              Always be Determined .......................................................................................... 52
                                  Recommendation 11 ...................................................................................... 55
                                  Recommendation 12 ...................................................................................... 56
                                  Recommendation 13 ...................................................................................... 57
        Finding 7             FSIS Management Information System Could Not Readily Identify Trends
                              in SRM Violations................................................................................................. 59
                                  Recommendation 14 ...................................................................................... 62

USDA/OIG-A/50601-10-KC/                                                                                                                       Page ix
        Finding 8             Lack of Physical Pre-Operation Inspections by FSIS ........................................... 64
                                  Recommendation 15 ...................................................................................... 66
        Finding 9             Inconsistent Application of Procedures for Slaughter of Nonambulatory
                              Cattle (Downers) ................................................................................................... 67
                                  Recommendation 16 ...................................................................................... 69

    Section 4. Advanced Meat Recovery Systems............................................................................... 71

        Finding 10            AMR Has Processing and Process Verification Vulnerabilities ........................... 71
                                Recommendation 17 ...................................................................................... 77
                                Recommendation 18 ...................................................................................... 77
                                Recommendation 19 ...................................................................................... 78

    Section 5. Program Management and Administration................................................................ 79

        Finding 11            Meat Industry Registration Requirement Was Not Adequately Implemented...... 79
                                 Recommendation 20 ...................................................................................... 82
        Finding 12            BSE Program Costs Inconsistently Determined and Reported ............................. 83
                                 Recommendation 21 ...................................................................................... 85
                                 Recommendation 22 ...................................................................................... 86

Scope and Methodology........................................................................................................................ 87

Exhibit A – Summary of Monetary Results ....................................................................................... 91
Exhibit B – Sites Visited ....................................................................................................................... 92
Exhibit C – Implementation of the Expanded Surveillance Program and Food Safety
             Measures .......................................................................................................................... 94
Exhibit D – Point-Based Evaluation Methods.................................................................................... 96
Exhibit E – Geographic Distribution of Samples............................................................................... 98
Exhibit F – Location (by County) of Sampling Sites with Agreements in the Expanded BSE
             Surveillance Program .................................................................................................. 100
Exhibit G – Agency Response to the Draft Report .......................................................................... 101




USDA/OIG-A/50601-10-KC/                                                                                                                    Page x
Background and Objectives
Background                    Bovine Spongiform Encephalopathy (BSE), widely known as “mad cow
                              disease,” is a chronic, degenerative disease affecting the central nervous
                              system (CNS) of cattle. Worldwide there have been more than 180,000 cases
                              in cattle since the disease was first diagnosed in 1986 in Great Britain;
                              however, over 90 percent of these cases were found before 1998. BSE
                              belongs to the family of diseases known as transmissible spongiform
                              encephalopathy (TSE), the causes of which are not fully known. TSE
                              diseases have a prolonged incubation period of months or years and result in
                              a progressive, debilitating neurological illness, which is always fatal. BSE
                              affected animals may display changes in temperament, such as nervousness
                              or aggression, abnormal posture, decreased milk production, or loss of body
                              weight despite continued appetite. There is no approved test to detect BSE in
                              a live animal.

                              The Animal and Plant Health Inspection Service (APHIS) leads an
                              interagency effort to monitor BSE and has had an active surveillance program
                              for BSE in place since May 1990. There are two other agencies involved in
                              the surveillance program: the Food Safety and Inspection Service (FSIS) and
                              the Food and Drug Administration (FDA). 4

                              As a result of the discovery of a BSE positive cow in Washington State in
                              December 2003, the U.S. Department of Agriculture (USDA) expanded its
                              surveillance effort for BSE in the United States. The primary focus of the
                              enhanced surveillance effort was to test as many cattle as possible in the
                              target population 5 over a period of 12 to 18 months beginning June 1, 2004.
                              APHIS defined high-risk cattle at its web site as follows: 6

                                       •  Nonambulatory cattle;
                                       •  Cattle exhibiting signs of a central nervous system
                                          disorder;
                                       • Cattle exhibiting other signs that may be associated with
                                          BSE, such as emaciation or injury; and
                                       • Dead cattle.
                                       USDA personnel will also sample all cattle condemned on ante
                                       mortem inspection by USDA’s Food Safety and Inspection Service.

4
  The Food and Drug Administration of the Department of Health and Human Services, is primarily responsible for
preventing BSE’s introduction and spread through animal feed.
5
  Unless otherwise designated, samples were to be obtained from animals over 30 months as evidenced by the eruption of at
least one of the second set of permanent incisors. APHIS defined high-risk animals as downer/nonambulatory cattle; cattle
with CNS signs and/or rabies negative; cattle exhibiting other signs that may be associated with BSE; cattle that were
condemned or euthanized or that died as a result of a moribund condition, tetanus, emaciation, injuries, or nonambulatory
conditions; and dead cattle with clinical signs prior to death, if known, that do not preclude it from the target population.
6
  http://www.aphis.usda.gov/lpa/issues/bse_testing/faq.html#highrisk.
USDA/OIG-A/50601-10-KC                                                                                              Page 1
                               APHIS also planned to sample about 20,000 apparently normal, healthy
                               animals from 40 federally inspected plants that handle about 86 percent of the
                               6.2 million 7 adult cattle slaughtered each year. APHIS completed testing of
                               the additional sample of 21,216 cattle on November 21, 2005.

                               USDA implemented a number of regulatory changes to reduce the likelihood
                               that high-risk tissues would enter the human food supply. FSIS declared
                               certain beef tissues and products to be specified risk materials (SRM) and
                               banned these products from the human food supply. 8 Prior to the Federal
                               Register notice, the banned materials had been permitted in certain products
                               and processes, such as meat from advanced meat recovery (AMR) systems 9
                               and tripe. The brain, skull, eyes, trigeminal ganglia, spinal cord, vertebral
                               column (excluding the vertebrae of the tail, the transverse processes of the
                               thoracic and lumbar vertebrae, and the wings of the sacrum), and dorsal root
                               ganglia (DRG) of cattle 30 months of age and older were listed as SRMs. In
                               addition, the tonsils and distal ileum of the small intestine of all cattle,
                               regardless of age, were declared SRMs. 10

                               Since most of the materials FSIS banned come from cattle 30 months of age
                               or older, FSIS prescribed the method inspectors were to use to verify the age
                               of slaughtered cattle. The guidance 11 provided that inspectors would accept
                               documentation of the age of cattle provided the records appeared reliable. In
                               the absence of acceptable documentation of the cattle’s age, inspectors were
                               required to perform a dental examination. In establishments that only process
                               carcasses or parts of carcasses, the establishments were required to present
                               acceptable documentation of the age of the cattle from which the carcasses or
                               parts were derived. If the establishment cannot prove the cattle’s age through
                               documentation, the carcasses and parts must be treated as if they were
                               derived from cattle 30 months of age or older.


7
  In the BSE Surveillance Plan, dated March 15, 2004, APHIS approximates this 6.2 million based on National Agricultural
Statistics Service (NASS) data. It is consistent with the 6,256,000 slaughtered under Federal inspection in 2002 per Table
7-17 of NASS publication Agricultural Statistics 2003 (equals 2,607,000 dairy cows plus 3,051,000 other cows plus
598,000 bulls and stags).
8
  9 Code of Federal Regulations (CFR) 310.22 and FSIS Notices: 4-04, dated January 9, 2004, 7-04, dated
January 14, 2004, and 9-04, dated January 23, 2004.
9
  AMR systems are designed to remove attached skeletal muscle tissue from livestock bones by separating meat by
scraping, shaving, or pulling muscle from the bones. Unlike traditional mechanical separation, this machinery cannot
break, grind, or pulverize bones to recover muscle tissue.
10
   The distal ileum was declared to be an SRM; however, FSIS initially determined that the entire small intestine should be
banned from the human food supply. Federal Register, Vol. 70, No. 172, (Docket No. 03-0251FA), dated
September 7, 2005, provides that FSIS is amending the SRM interim final rule to permit for use as human food beef small
intestine, excluding the distal ileum, derived from cattle slaughtered in official U.S. establishments or in certified foreign
establishments in countries listed by FSIS in 9 CFR 327.2(b) as eligible to export meat products to the United States.
11
   FSIS Notice 5-04, IV and Attachment, dated January 12, 2004, and Docket Number 03-025IF (Prohibition of the Use of
Specified Risk Materials for Human Food and Requirements for the Disposition of Nonambulatory Disabled Cattle),
Interim final rule and request for comments, Verification of the Age of Cattle, dated January 12, 2004.
USDA/OIG-A/50601-10-KC                                                                                               Page 2
                           Establishments are also required to control or prevent SRMs from entering
                           the slaughter process. Plants that process both cattle under 30 months of age
                           and cattle 30 months of age or older must segregate banned materials derived
                           from animals 30 months old or older from acceptable materials from younger
                           cattle. The banned materials must be controlled and prevented from being
                           processed on the slaughter line. The banned materials may be processed as
                           inedible rendering or otherwise destroyed. The plants must also ensure that
                           the slaughter line is properly cleaned after animals 30 months old or older are
                           processed.

                           Some products containing SRMs can be processed and shipped provided that
                           proper controls are established to ensure SRMs are removed by downstream
                           processors. These products, generally carcasses and carcass parts that still
                           contain the vertebral column and DRG, may be shipped to processors
                           provided they are labeled to show they contain SRMs and the plant ensures
                           that the processor removes the banned materials prior to sale at the retail
                           level. The processors generally use the carcasses and carcass parts to
                           fabricate products, such as steaks (T-bone steaks and porterhouse steaks
                           cannot be made from cattle 30 months old or older).

                           Under the new rules, skulls and vertebrae from cattle 30 months old or older
                           are not allowed to be processed in AMR systems although these materials
                           from younger animals can be used in AMR. AMR is a technology that uses
                           special equipment to remove muscle tissue from bones in a manner that is
                           considered similar to hand trimming in that the bones remain basically intact.
                           AMR product is considered meat and is labeled as meat. That is, it is to be
                           comparable in texture and composition to meat trimmings so it does not
                           require special labeling. However, the product is not allowed to contain
                           spinal cord or other CNS tissue because these tissues fall outside the
                           definition of meat. Since the use of skulls and spinal column bones in AMR
                           systems carries the risk of incorporating CNS tissue with the AMR meat,
                           FSIS has established a monitoring program to sample and test AMR meat.
                           Any AMR product containing CNS tissue will be recalled because it is
                           considered misbranded, i.e., CNS tissue is not considered “meat.”

                           In addition to the restrictions on SRMs and AMR products, effective
                           June 1, 2004, FSIS began to collect brain tissue samples for BSE testing from
                           all cattle condemned on ante mortem inspection at slaughter plants.
                           Alternatively, slaughter plants could elect to have the samples collected
                           offsite at a rendering facility, pet food manufacturer, 3D/4D processor (dead,
                           dying, disabled, and diseased), etc. The offsite sampling facilities, while not
                           federally inspected plants, should be registered with FSIS as meat and poultry
                           program handlers under new regulations 12 adopted as a BSE control measure.

12
  9 CFR 320.1 and 320.5 and FSIS Notices: 28-04, dated May 20, 2004, 29-04, dated May 27, 2004, and 33-04, dated
June 14, 2004.
USDA/OIG-A/50601-10-KC                                                                                  Page 3
                              In the case of offsite sampling, the ante mortem condemned cattle must be
                              euthanized at the slaughter plant under FSIS supervision. The carcasses of
                              the condemned cattle must also be denatured13 prior to shipment to the offsite
                              sample collection facility. Proper controls are supposed to be in place to
                              ensure the condemned cattle arrive at the offsite facility and SRMs are
                              properly controlled and disposed of at the remote location.

                              BSE testing is conducted at USDA’s laboratory, the National Veterinary
                              Services Laboratories (NVSL), in Ames, Iowa, and a network of seven
                              contract laboratories 14 around the country. Samples are collected and
                              submitted to the laboratories by authorized State and Federal animal health or
                              public health personnel, accredited veterinarians, and trained contractors.

                              In August 2004, the USDA Office of Inspector General (OIG) issued a report
                              on its evaluation of USDA’s BSE surveillance program. 15 This evaluation
                              included the program in place prior to the discovery of the BSE positive cow
                              in December 2003, as well as USDA’s plan for an expanded surveillance
                              effort. The report identified several limitations inherent in APHIS’ proposed
                              surveillance plan and made numerous proactive recommendations for APHIS
                              to consider as it moved forward in implementation. Most critical was the
                              need for APHIS to establish and implement a strong management control
                              structure to provide assurance that the BSE surveillance program was
                              effectively implemented and operated as represented to the public, industry,
                              and United States (U.S.) trading partners.

                              There are about 3,400 establishments that slaughter and/or process beef with
                              SRMs; 2,500 are federally inspected. 16 About 60 plants are considered large
                              plants that slaughter and/or process over 24.7 million cattle annually. 17 In
                              2003, 30 establishments processed beef vertebrae in AMR systems; in 2004,
                              there were 19 plants operating AMR systems. This number declined to about
                              14 by the conclusion of our fieldwork. In fiscal year (FY) 2003, FSIS
                              condemned approximately 43,000 cattle; in FY 2004, about 27,720 cattle
                              were condemned.




13
   9 CFR 314.3 provides that condemned carcasses or carcass parts that are not destroyed by incineration or processed into
inedible rendering must be denatured. Denaturing is accomplished by the use of crude carbolic acid, or cresylic
disinfectant, specified formula, or any other proprietary material approved by the Administrator.
14
   The seven laboratories are in California, Colorado, Georgia, New York, Texas, Washington, and Wisconsin. An
additional five laboratories are approved, but have not participated in the BSE surveillance program.
15
   Audit Report No. 50601-9-KC, APHIS and FSIS BSE Surveillance Program – Phase I.
16
   About 870 federally inspected plants slaughter over 32 million cattle; 280 slaughter older cattle (approximately
5.8 million head of cows and bulls) and about 590 slaughter fat cattle.
17
   FSIS considers large establishments to have 500 or more employees, small plants to have 10 or more employees but less
than 500, and very small plants to have fewer than 10 employees.
USDA/OIG-A/50601-10-KC                                                                                            Page 4
Objectives         Our overall objective was to evaluate whether the newly expanded BSE
                   surveillance program was accomplishing its intended objectives and had been
                   effectively implemented and administered. An additional objective was to
                   evaluate whether the USDA enforcement of the ban on SRMs in meat
                   products and administration of its testing program and controls to prevent
                   CNS tissue in AMR meat had been effectively implemented.




USDA/OIG-A/50601-10-KC                                                                 Page 5
Findings and Recommendations
Section 1. From Surveillance to Maintenance

                    In August 2004, the USDA OIG issued a report on our evaluation of USDA’s
                    BSE surveillance activities, which USDA expanded because of the discovery
                    of a BSE positive cow in December 2003. USDA published an enhanced
                    surveillance plan on March 15, 2004, to “help to define whether BSE is
                    actually present in the population and if so, at what level.” The plan’s
                    primary objective was “to collect samples from as many adult cattle from the
                    high-risk population as possible in 12-18 months while ensuring that there is
                    statistically appropriate geographical representation of the adult cattle
                    population in the United States.” Also, the plan discusses “the incorporation
                    of random sampling of clinically normal aged animals at slaughter in addition
                    to the defined targeted surveillance goal.”

                    We reviewed USDA’s March 2004 plan to determine if it was designed to
                    enable USDA to achieve the statistical conclusions stated as its desired goals.
                    Because implementation plans had not yet been finalized, we offered
                    observations based on its current surveillance efforts at that time. We
                    recognized that there were many challenges that the Department needed to
                    address in implementing an effective and supportable BSE surveillance
                    program. Some of the challenges were inherent to industry practice, as well
                    as current legal authorities. Therefore, our August 2004 report provided an
                    assessment of USDA’s proposed surveillance program and our observations
                    of the challenges USDA faced in meeting its stated goals. The report made
                    19 recommendations for USDA to consider as it moved forward with
                    implementation.

                    USDA made significant efforts to implement this expanded surveillance
                    effort. Much needed to be done in a short period to establish the processes,
                    controls, infrastructure, and networks to assist in this effort. In addition,
                    extensive outreach and coordination was required with other Federal, State,
                    and local entities, private industry, and laboratory and veterinary networks.
                    A description of those efforts is provided, where appropriate, throughout this
                    report, as well as in exhibit C to this report.




USDA/OIG-A/50601-10-KC                                                                      Page 6
Finding 1                     BSE Surveillance Efforts – Stated Versus Achieved Objectives

                              In our prior audit report, we expressed concerns regarding the statistical
                              inferences that could be made due to unstated limitations associated with
                              critical assumptions in the March 2004 BSE surveillance plan. We
                              recommended, and APHIS agreed, to fully disclose the impact of these
                              assumptions on any statistical representations regarding the prevalence of
                              BSE in U.S. cattle so that these representations will not be misinterpreted by
                              the public, industry, or U.S. trading partners. The validity of those statistical
                              statements depended on the following assumptions, some disclosed, but
                              others only implied in the March 15, 2004, plan.
                              1. All BSE positive cattle are in the target subpopulation; i.e., no BSE
                                 positive cattle are in the apparently healthy subpopulation.
                              2. Confidence levels apply only to detectable BSE, not total BSE (i.e., there
                                 are no false negative BSE test results).
                              3. There are 446,000 cattle in the target subpopulation.
                              4. Cattle are selected randomly from their corresponding subpopulations and
                                 thus, the cattle tested for BSE are representative of their subpopulation. 18

                              On September 9, 2004, APHIS published a clarification of its surveillance
                              goals and objectives on its web site; this publication discusses related
                              limitations and factors that might mitigate them. APHIS also disclosed the
                              possibility of using alternative statistical evaluation methods, including
                              approaches recommended by Cohen and Grey of the Harvard Center for Risk
                              Analysis, and the much more sophisticated method incorporated into
                              BSurvE, 19 a tool specifically designed for the complexities associated with
                              interpreting aggregated BSE test results. BSurvE, as well as the less
                              complex, but related system recently incorporated by the Office International
                              des Epizooties (OIE) into the Terrestrial Animal Health Code (TAHC), 20
                              assign “point values” to each sample based on the animal’s age and its
                              surveillance stream (clinical suspects, casualty slaughter, fallen stock, and
                              routine slaughter); points are assigned based on the likelihood of testing
                              positive for the disease. Points may be accumulated over a period of a

18
   To understand how the March 15, 2004, plan’s statistical statements depend on these conditions, assume five of
446,000 in a target (higher-risk) population are diseased and the rest are not. If 268,500 are randomly selected from the
446,000, there is a 99 percent chance that at least one of the 268,500 will be one of the five diseased, per the
hypergeometric distribution. Assuming further that none of the 268,500 tests on target cattle produce false negative results,
and that no apparently healthy (lower-risk) adult cattle are diseased, this implies a 99 percent chance of detecting at least
one of the five diseased animals in an adult cattle population of about 45 million; i.e., the prevalence rate is five in
45 million, or less than one in 10 million.
19
   Development of a Method for Evaluation of National Surveillance Data and Optimization of National Surveillance
Strategies for Bovine Spongiform Encephalopathy. A Project Conducted by the European Union TSE Community
Reference Laboratory, Veterinary Laboratories Agency Weybridge, U.K., by Wilesmith, John, Roger Morris, Mark
Stevenson, Rob Cannon, Deb Prattley and Helen Benard (March 12, 2004), hereafter referred to as Wilesmith et al. (2004).
20
   2005 OIE Terrestrial Animal Health Code (TAHC), Appendix 3.8.4.
USDA/OIG-A/50601-10-KC                                                                                              Page 7
                              maximum of 7 years per the 2005 OIE TAHC system (Article 3.8.4.4.2). 21
                              These accumulated points can then be used to estimate a maximum BSE
                              prevalence rate at a desired confidence level and help determine the extent of
                              surveillance needed in the future to maintain that confidence level.

                              At the time of this report, APHIS had not decided which statistical evaluation
                              method it will use. During August 2005, APHIS provided OIG unpublished
                              drafts of its preliminary analysis, which included several statistical
                              approaches to estimating the BSE prevalence in U.S. adult cattle, including
                              the 2005 OIE TAHC system and several based on BSurvE. All approaches
                              used in this preliminary analysis mitigate some, but not all of the limitations
                              associated with the four previously mentioned assumptions; each method’s
                              reliability depends on how well the cattle tested represent their corresponding
                              surveillance stream. Also, most of these evaluation approaches introduce
                              new challenges because of the sensitivity of the underlying logic to the
                              accuracy of the data (see exhibit D) used to:

                              a. stratify U.S. cattle tested by age,
                              b. classify U.S. cattle tested by surveillance stream,
                              c. estimate the herd’s age distribution, which also estimates the probability
                                 that non-infected cattle annually leave the herd at each age, and
                              d. for each age group in (c), estimate the probability of leaving the herd via
                                 each surveillance stream.

                              Significant aspects of these evaluation methods depend on European data and
                              experience. 22 USDA needs to determine its validity and comparability in
                              estimating conditions in the United States. The European Union has had a
                              mandatory surveillance program since 2001. The U.S. program is voluntary
                              and sampling is not random. The success of the program depends on the
                              cooperation of industry and a variety of other conditions, including some that
                              differ across geographical areas and other demographic attributes of the U.S.
                              herd. Therefore, compared to the Europeans, USDA exerts less control over
                              which animals can be tested for BSE, and is generally less able to assure that
                              those tested represent the herd, their surveillance stream, or their age group
                              within each surveillance stream.

                              Each evaluation method has its own merits and limitations. However, in any
                              assessments made, APHIS must fully disclose the critical limitations inherent

21
   In contrast, the authors of BSurvE (Wilesmith et al. 2004, p.15) state that accumulated “surveillance points” gradually
become out of date and propose that they expire at an annual rate that steadily reduces them during “the maximum time
over which a cow is likely to live…if there are concerns about the exposure history of a particular country then points
would be made to expire somewhat faster.”
22
   For example, the authors of BSurvE state, “The distribution for age at which BSE becomes detectable would generally be
country-specific, but is based on research data concerning incubation periods in the British cattle population.” Also, the
authors of BSurvE state that the “probabilities of culling of non-infected animals would be country-specific” (Wilesmith et
al., 2004, p. 25).
USDA/OIG-A/50601-10-KC                                                                                            Page 8
                     in its data and analysis of its surveillance program. This analysis is critical to
                     the effectiveness of any future maintenance surveillance program.

                     OIG has provided comments to APHIS on its draft preliminary analysis.
                     Until APHIS finalizes this document, we cannot issue our final conclusions.
                     However, OIG has identified the following issues that APHIS needs to
                     consider before publishing its final assessment of the effectiveness of its
                     surveillance program and its estimation of the level (prevalence) of BSE in
                     the U.S. herd.

                     In its preliminary analysis, APHIS excluded the BSE positive cow detected in
2003 BSE
                     December 2003 in Washington State because it was imported from Canada.
Positive Cow
                     That is, instead of assuming two cases of BSE had been detected, APHIS
Excluded From
                     assumed there was only one case, the November 2004 BSE positive cow in
Surveillance
                     Texas. By excluding the Canadian cow from its statistical analysis, APHIS
Data
                     lowered the number of BSurvE points needed to achieve its desired
                     95 percent confidence level by about 33 percent. For example, the minimum
                     BSurvE points required for 95 percent confidence that there are no more than
                     one in a million adult cattle with BSE when two positive cases are detected is
                     6,295,800 compared to the 4,743,870 points required when only one positive
                     case is detected.

                     APHIS officials believe its approach is supportable because Canadian cattle
                     were prohibited from importation since May 20, 2003; they believe that there
                     are an extremely low proportion of cattle from Canada in the current U.S.
                     cattle inventory. APHIS concluded that this would result in an overly
                     conservative estimate of the prevalence of BSE in the current U.S. herd.

                     One of the goals of the program, however, is to estimate the BSE prevalence
                     in the population, and some of this population includes adult cattle imported
                     from other countries. OIG has concluded that the BSE-positive cow detected
                     in December of 2003 should be included when statistically projecting BSE
                     prevalence for a variety of reasons, including the following.

                     •     USDA considers imported cattle raised in U.S. feed lots, slaughtered,
                           and/or prepared in the United States as domestic livestock; imported
                           cattle were not identified and excluded from the population tested.
                     •     Many 2005 OIE Terrestrial Animal Health Code (TAHC) and BSurvE
                           surveillance points are based on the results of tests conducted prior to
                           May 20, 2003. (For example, at least half of the 2005 OIE TAHC points
                           estimated through June 30, 2005, were accumulated from
                           October 1, 1998, through May 20, 2003.)
                     •     The average estimated time between infection and detection of BSE
                           appears to exceed 5 years; any surviving imported cattle infected before
                           May 20, 2003, may not yet be detectable, even though they currently

  USDA/OIG-A/50601-10-KC                                                                       Page 9
                                       have the disease and may live long enough to eventually manifest its
                                       clinical signs.

                                  The effective target population is significantly larger than that estimated by
 Estimate of the                  APHIS in its March 2004 enhanced surveillance plan. APHIS accepted for
 Target Population                testing any and all cattle from the subpopulation of fallen stock (dead) –
                                  regardless of the cause of death, or if unknown, regardless of whether the
                                  sample collector attempted to determine the cause of death. This resulted in
                                  an effective target population of about one million per year (1.5 million over
                                  an 18-month period), 23 rather than the original target of 446,000. 24 OIG does
                                  not question the merit of testing all fallen stock; this is consistent with the
                                  definition used in the point-based surveillance evaluation models. However,
                                  care should be exercised by APHIS in discussing the success of its
                                  surveillance effort in relation to its original population estimate of 446,000,
                                  and the related minimum sample size of 268,500. This is important to avoid
                                  the conclusion that virtually all of the original target population has been
                                  tested for BSE (see discussion on geographical representation). Also,
                                  underestimating the size of a population can distort statistical projections.

                                  Because of the voluntary nature of the program, APHIS did not successfully
Clinical Signs                    determine the clinical signs or history of the cattle sampled. Of the
Necessary for                     356,195 targeted animals sampled through May 2005, 308,237 (87 percent)
BSE Analysis Not                  had “dead-unknown cause” recorded as the only clinical sign and
Obtained                          100 samples had no clinical signs recorded. This occurred because more than
                                  half of the samples tested were collected at renderers; sampling agreements
                                  did not require sample collectors to make a determination of the cause of
                                  death. APHIS made no effort to determine the clinical history of the animals
                                  due to the resources that would be necessary to trace back the animal to its
                                  owner. Therefore, any conclusion regarding those animals most likely to
                                  have BSE and, ultimately, those to be targeted in a reduced (maintenance)
                                  surveillance effort may not be reliable. The December 2003 BSE positive
                                  cow had reported clinical signs of downer. The November 2004 BSE
                                  positive cow was reported in APHIS’ data as dead-unknown cause; although
                                  various sources have reported this animal as a downer. The importance of
                                  obtaining representative samples within each surveillance stream is
                                  emphasized by the OIE and the authors of BSurvE. OIE emphasizes that to

    23
       APHIS estimated 4.8 percent of dairy cows and 1.5 percent of adult beef breeding cattle annually die on farms, per
    ’97 Beef & Dairy 2002, respectively. National Agricultural Statistics Service (NASS) January 1, 2005, inventory of about
    9.005 million dairy cows, 33.055 million beef cows, and 2.219 million bulls, suggests the number of adult cattle that would
    die during the 12 months ended May 31, 2005, would be about 961,350 (= .048 × 9,005,000 + .015 × [33,055,000 +
    2,219,000]). About 1 million cattle over a year period would project to 1.5 million over an 18-month period.
    24
       APHIS originally estimated 446,000 by summing its estimate of the following three target subpopulations of primarily
    adult cattle:
    Foreign animal disease investigations                                                                  129
    FSIS slaughter with condemnation codes consistent with BSE                                         194,225
    Dead on farms with clinical signs that are unknown or consistent with BSE                          251,532
                                                                                                       445,886
    USDA/OIG-A/50601-10-KC                                                                                           Page 10
                                  efficiently implement a maintenance surveillance program, good quality data
                                  are needed. Also, according to Wilesmith et al. (2004, p. 10), data must be
                                  genuinely representative of the particular surveillance stream from which it is
                                  drawn, and if this is not true, then findings will be biased by such errors.

                                  In our prior report, we raised concerns as to whether APHIS could achieve its
Geographical                      stated objective of collecting as many samples as possible from the high-risk
Representation                    population in 12-18 months “…while ensuring there is a statistically
                                  appropriate geographical representation of the adult cattle population in the
                                  United States.” Originally, APHIS established goals for each State based on
                                  the cattle population derived from the USDA National Agricultural Statistics
                                  Service (NASS) data and weighted for some assumed differences in death
                                  losses between dairy and beef cattle populations. We recommended, and
                                  APHIS agreed, to work with industry and State personnel to obtain samples
                                  necessary to obtain adequate representation from all parts of the country.
                                  APHIS also agreed to monitor the data throughout the program and where the
                                  data fell short, additional outreach would be performed.

                                  For the first 12 months of the enhanced surveillance program—June 1, 2004,
                                  through May 31, 2005,—APHIS had already tested significantly more cattle
                                  than originally anticipated would be necessary to meet its overall sample
                                  goals. Specifically, during this period APHIS tested the obex 25 of about
                                  356,200 target cattle. Although sampling goals had originally been
                                  established for each State based on an estimate of its cattle population,
                                  APHIS began reporting the distribution of samples by six regional
                                  boundaries. According to APHIS officials, State goals were established
                                  primarily for administrative purposes and APHIS was not trying to meet
                                  particular levels in particular States. 26

                                  Statistical projections based on the “adjusted target population” method
                                  described in the APHIS (2005) preliminary analysis, like those stated in the
                                  March 15, 2004, enhanced surveillance plan, require all items in the target
                                  population subject to sampling to have equal selection probabilities. Even
                                  statistical projections using point-based systems like BSurvE require sample
                                  selections to be representative of their respective surveillance subpopulations.
                                  By reporting the samples obtained by regional boundaries, it is not readily
                                  apparent that adequate testing may not have been achieved in some large
                                  geographical areas of the country (see exhibit E). Achieving proportional
                                  goals is important if APHIS intends to use the total number of tests in
                                  statistical projections. This should include adjusting geographic goals when
                                  the number of actual tests substantially exceeds the number of tests originally
                                  planned (i.e., the goal for the northwest region would be revised from 36,319
                                  to 48,181 based on an increase in the national sampling to 356,000).
    25
       Research has shown that BSE prion proteins accumulate primarily in the brainstem of cattle, and the obex is the specific
    area of the brainstem where they begin to accumulate first.
    26
       As of December 1, 2005, information on State goal allocations was published on the APHIS web site.
    USDA/OIG-A/50601-10-KC                                                                                           Page 11
                              In our prior report, we pointed out the challenges in obtaining a geographical
                              distribution of cattle from States that frequently ship across regional
                              boundaries for slaughter or rendering in other States; as an example, States in
                              the Northwest Region. This challenge was not fully addressed in the
                              expanded program; however, this conclusion is based on incomplete data
                              since the origin (owner) of cattle had not always been identified in APHIS’
                              sample data. We identified 102,600 samples (27 percent) 27 in the database
                              where the owner field was blank and 8,231 where the owner was identified as
                              a slaughter facility, collection site, or sale barn.

                              According to APHIS officials, their focus has been on achieving meaningful
                              traceback capability; they are not concerned with incomplete data if it will
                              not be used for scientific analysis. Collection sites are required to adequately
                              identify the origin 28 of all cattle sampled for BSE and to maintain
                              information necessary to trace sampled animals and to make that information
                              available to APHIS upon request. We would argue, however, that the origin
                              of the animal is necessary for analysis since any assessment of the
                              surveillance effort would need to consider geographical representation of the
                              U.S. herd. We also question whether timely and efficient traceback can be
                              achieved if APHIS must visit each collector to review additional records for
                              traceback.

                              The accuracy of projections based on the 2005 OIE TAHC evaluation method
                              and those based on BSurvE depend on how well the cattle tested represent
                              their respective surveillance streams. Therefore, we attempted to determine
                              whether a representative sample was obtained from nonambulatory cattle,
                              since these comprise a large portion of the “casualty slaughter” surveillance
                              subpopulation. Further, APHIS suggested in September 2004 that data on the
                              “distribution of portions of the target population … could be used to assess
                              the potential for bias in the target population surveillance,” 29 and as an
                              example, referred to a NASS study, Nonambulatory Cattle and Calves,
                              published on May 5, 2005. In its report, NASS estimates how many cattle
                              became nonambulatory during 2003 and 2004, what proportion of these
                              eventually died, and how these annual totals are distributed across three
                              geographic regions. Specifically, NASS estimates that 270,000 cattle
                              weighing over 500 pounds “became unable to stand or walk” during
                              2004 (155,000 from dairy operations, 85,000 from beef operations, and
                              30,000 others). Of these 270,000, only 59,700 were culled or recovered,
                              while the rest died, as shown by region in Table 1.

27
   The percentage is based on 381,120 total samples in the BSE database, including non-targeted samples, from
June 1, 2004, – May 31, 2005.
28
   Appendix G of the Procedure Manual for BSE Surveillance, dated October 2004, contains instructions for completing
the submission forms. The instructions state, “Enter the National Premises identification for the premises on which the
sampled animal was last held or resided, if available. Otherwise, enter as much of the requested information as is known.”
29
   USDA BSE Surveillance Plan: Background on Assumptions and Statistical Inferences, (September 9, 2004, p. 9).
USDA/OIG-A/50601-10-KC                                                                                          Page 12
                                                          TABLE 1
                         NONAMBULATORY CATTLE DURING 2004 (at least 500 pounds)
                              Source: “Nonambulatory Cattle and Calves,” NASS, May 5, 2005

                                                                        Culled or
                            NASS Region                   Total         recovered           Died
                    Mountain & Western                   95,000          15,200          79,800
                    Midwestern                           90,000          20,700          69,300
                    Southern & Eastern                   85,000          23,800          61,200
                         Total                          270,000          59,700         210,300


                   To compare these estimates of the population of nonambulatory cattle and
                   their geographic distribution to those tested by APHIS, Table 2 displays the
                   number of nonambulatory cattle sampled for BSE for the 12 months ended
                   May 31, 2005, categorized consistent with how APHIS reports them, and for
                   tests of obex, partitioned into the geographic regions defined in the NASS
                   report summarized above.


                                                              TABLE 2
                                      NONAMBULATORY CATTLE SAMPLED FOR BSE
                                          (with collection dates June 1, 2004, - May 31, 2005)
                                                                                  Condemned
                                                                                 Ante Mortem at
                                 Cattle sampled:                 On farms        FSIS slaughter    Total
                      Targeted                                       26,354               4,151      30,505
                      Other                                             573                 464       1,037
                          Total tests of obex                        26,927               4,615      31,542
                      Tested but not obex                               241                  83            324
                      Not tested                                         44                  49             93
                          Total sampled                              27,212               4,747      31,959


                    Total tests of obex by region:
                      Mountain & Western                              4,912               1,979       6,891
                      Midwestern                                     14,868               1,267      16,135
                      Southern & Eastern                              7,147               1,369       8,516
                                                                     26,927               4,615      31,542




USDA/OIG-A/50601-10-KC                                                                              Page 13
                    Since the NASS data in Table 1 represents all cattle weighing at least
                    500 pounds, it may not be exactly comparable to the nonambulatory cattle
                    tested for BSE reported in Table 2. In particular, while all cattle weighing at
                    least 400 pounds condemned at FSIS slaughter facilities were tested for BSE,
                    generally only adult cattle that became nonambulatory on farms were
                    targeted (unless they exhibited signs of CNS or were rabies negative).
                    However, given these caveats, the proportions of tested cattle condemned at
                    FSIS slaughter across these three geographic regions appears roughly similar
                    to the NASS estimates, while the geographic proportions of those sampled on
                    farms do not. Specifically, Table 2 suggests that adult cattle that became
                    nonambulatory on farms in the Midwestern region were tested for BSE in
                    greater numbers than those that became nonambulatory on farms in the other
                    two regions.

                    As exhibit E indicates, proximity to percent allocation sample goals vary
                    greatly by region. The multi-State regional comparisons in the exhibit
                    indicate that differences between the actual and goal in some States are often
                    offset by opposing differences in other States of the same region. This
                    suggests that the greater the size of the region, the more likely State-level
                    deviations from goals will not be obvious.

                    OIG recognizes that APHIS tested far more cattle for BSE than it originally
                    estimated were necessary to meet its surveillance objectives. However, if
                    APHIS chooses to compare a demographic (e.g., geographic) distribution of
                    the cattle tested to that of its original sample goals, APHIS needs to enhance
                    the comparability of these distributions. The comparability can be enhanced
                    by adjusting the original sample goals upward to reflect the actual total that
                    exceeds the original goal.

                    For BSE surveillance purposes, accurate determination of the specific age of
Age of Cattle       the cattle tested is critical to its assessment of the prevalence of BSE. The
Tested Was          age of cattle tested was not recorded for about half of the samples collected
Incomplete or       prior to June 1, 2004. APHIS estimated the distribution of all unknown ages
Estimated           by setting them equal to the distribution of ages that were known; this
                    assumption is valid only to the degree of the similarity of these distributions.
                    Improvements were made, however, throughout the expanded surveillance
                    program. Between June and October 2004, missing ages in the database
                    decreased to about 14 percent of the samples collected; and to less than 1
                    percent after October 2004.

                    Prior to October 25, 2004, sample collectors were to record the age of the
                    cattle tested in ranges, instead of years or months. APHIS then converted the
                    age ranges as follows:




 USDA/OIG-A/50601-10-KC                                                                    Page 14
                                       •    From “less than 20 months” to 19 months;
                                       •    From “20-30 months” to 20 months;
                                       •    From “31-36 months” to 31 months;
                                       •    From “4 years” to 4 years; and 30
                                       •    From “5 years or more” to 5 years.

                                  The conversion of range “5 years or more” to 5 years, resulted in all cattle
                                  6 years or older to be classified as 5 years old. Since surveillance points per
                                  animal are highest for those that are 5 years old, surveillance points will be
                                  overstated. We determined that for the clinical suspect surveillance stream,
                                  the net effect of these conversion issues would overestimate surveillance
                                  points by over 300,000. The points are used to estimate the prevalence of
                                  BSE – in other words, this incorrect aging would underestimate the
                                  prevalence rate at the 95 percent confidence level.

                                  The dentition field was blank for over 31,000 samples recorded as 2 or 3 year
                                  olds out of 352,842 samples tested for reasons other than CNS, rabies, or ante
                                  mortem condemned. These 31,000 samples would be considered part of the
                                  target population if the dentition field indicated the second incisor had
                                  erupted. This field was added to the database after October 2004 to validate
                                  that targeted animals were tested.

                                  In our prior report, we concluded that APHIS needed to establish and
Integrity of                      implement a strong management control structure to ensure the accuracy and
Surveillance Data                 integrity of its BSE test data. APHIS took action to develop an information
                                  system to track and report its test results. Also, APHIS established sample
                                  collection and data review procedures to ensure the accuracy, consistency,
                                  and reliability of its data. Among the controls put in place were periodic
                                  reviews and reconciliations of data forms to the BSE database, as well as
                                  quality assurance compliance reviews conducted by the Agricultural
                                  Marketing Service (AMS).

                                  As discussed in this finding, APHIS was not always successful in using these
                                  reviews to ensure the completeness and accuracy of its data. Standard
                                  Operating Procedures (SOP) 31 called for weekly data quality assurance
                                  reviews, but only three such reviews were done because they were resource
                                  intensive. Over 1,000 deficiencies were noted during the three reviews.
                                  AMS conducted two reviews; one in August 2004 and one in March 2005.
                                  The March 2005 report noted “…data entry deviations continue to cause

    30
       Also, prior to October 25, 2004, the aging of cattle 37 to 47 months old may have been distorted by early sample forms
    offering the following two adjacent options: “31-36 months” next to “4 years.” That is, all cattle 37 to 47 months old
    would needed to be classified as “4 years,” whereas the software program classifies as 4 years old all with recorded ages of
    4 years or 48-59 months.
    31
       BSE Submission Data Reconciliation SOP, dated August 4, 2004, states that routine quality assurance processes will be
    put in place to assure that information which is collected, is being entered, reported, and properly maintained.
    Reconciliation is to be conducted weekly to review data integrity and analytical evaluations.
    USDA/OIG-A/50601-10-KC                                                                                            Page 15
                         concern among personnel that have to match up sample analysis to the
                         animals sampled.” AMS reported that owner information was missing and
                         that data were not always input in the same format. APHIS attempted to
                         address these deficiencies by sending data management reports to field units
                         and reissuing instructions on how to complete sample forms.

                         Also, during its recent analysis of its data, APHIS attempted to make mass
                         corrections of incomplete and inconsistent information. While some of the
                         assumptions they made for these mass corrections appeared reasonable, the
                         accuracy of the data was not confirmed.

                         APHIS circulated its Plan for Sampling 20,000 Apparently Healthy Adult
Apparently Healthy
                         Cattle at Slaughter on September 12, 2005, indicating, “sampling will not be
Cattle Not Selected
                         randomized. The distribution of the number of samples collected will be
Randomly and
                         based on plants rather than regions.” This differs from the March 15, 2004,
Focus is Not on
                         plan, which discusses the “random sampling of clinically normal aged
Older Adults
                         animals at slaughter.” These 20,000 tests represent one of the four
                         “surveillance streams” or subpopulations in point-based systems like the
                         2005 OIE TAHC and BSurvE, and thus, these 20,000 tests will contribute,
                         albeit in only a very small way, to the total “surveillance points” used for
                         statistical projections regarding the prevalence of BSE.

                         European experience clearly indicates that BSE is rarely detected in cattle
                         that are 3 years old or younger, and that the average age of cattle with
                         detectable BSE in Europe exceeds 5 years. However, APHIS intends to
                         measure the minimum age eligible for testing of these 20,000 by noting the
                         eruption of one of the second incisors, which occurs in the 24-30 month age
                         range.

      Conclusion         In conclusion, the various evaluation models under consideration by APHIS
                         provide supportable analytic tools to estimate the prevalence of BSE and
                         provide a basis for the establishment of a future maintenance surveillance
                         program. However, APHIS must ensure accuracy and completeness of its
                         data and clearly discuss the limitations of its program and data in any
                         published assessment of its surveillance effort. This would minimize the
                         potential that stakeholders misinterpret its conclusions.

      Recommendation 1

                         Ensure transparency of published information so that stakeholders are fully
                         advised of the assumptions and procedures used, limitations of data, and the
                         basis of conclusions reached as a result of the BSE surveillance program.




      USDA/OIG-A/50601-10-KC                                                                 Page 16
                   Agency Response.

                   APHIS concurs with this recommendation. We will complete the final
                   analysis on the BSE enhanced surveillance effort by February 28, 2006, and
                   will ensure transparency of the published information as recommended. The
                   initial assignment of regional goals was based on the pre-determined sample
                   estimate of 268,500, which was primarily done to facilitate management of
                   enhanced surveillance program resources. APHIS' intent is to report the
                   actual number of samples tested in each of the six regions alongside the
                   pre-determined goals in the final report. We agree that it is important to
                   clarify the target population estimates used for surveillance planning prior to
                   implementation of the enhanced surveillance program (and the concomitant
                   statistical inferences to be made from those estimates) and how the expansion
                   of the target population occurred resulting in a larger effective target
                   population. This clarification will be supplied in the final analysis document.

                   A detailed discussion of the potential biases incurred with over sampling in
                   one region as compared to another and the effects these biases may have on
                   the overall enhanced surveillance program will also be included in the final
                   analysis report.

                   APHIS also expressed concern with OIG’s presentation on State goal
                   allocations; it implies that APHIS had State goal allocations, which were
                   subsequently not met, and that those State goals were posted on APHIS’
                   website. APHIS believes its website is clear that evaluation of its data will be
                   done at a national level. APHIS had regional collection goals, which have
                   been exceeded. There was never an attempt to meet specific State goal
                   numbers. Therefore, APHIS feels that page one of exhibit E is misleading, as
                   there were no specific State targets set by APHIS (see exhibit G for APHIS’
                   response in its entirety).

                   OIG Position.

                   APHIS agreed to ensure transparency of published information presented in
                   their final analysis of the BSE enhanced surveillance effort. They also agreed
                   that it is important to clarify the target population estimates and provide a
                   detailed discussion of the potential biases incurred from over sampling in
                   geographical regions. Therefore, we accept management decision.

                   However, APHIS was concerned that our presentation on samples collected
                   by State was misleading since no specific State targets were set by APHIS.
                   OIG agrees that the published Examples of Geographic Distributions of
                   Sample Collections clarify that APHIS did not intend for the data to be
                   evaluated individually at the State or regional level. Our concern is whether
                   the data evaluated at a national level will reflect the U.S. cattle population.
                   More specifically, OIG questions how APHIS intends to determine whether it
USDA/OIG-A/50601-10-KC                                                                    Page 17
                            met the following objective stated in its March 15, 2004 plan: “to collect
                            samples from as many adult cattle from the high-risk population as possible
                            in 12-18 months while ensuring that there is statistically appropriate
                            geographical representation of the adult cattle population in the United
                            States” (emphasis added).

                            The importance of obtaining samples that represent the national herd is
                            emphasized in the 2005 OIE TAHC (Article 3.8.4.3.1): “A country should
                            design its surveillance strategy to ensure that samples are representative of
                            the herd of the country, zone, or compartment, and include consideration of
                            demographic factors such as production type and geographic location …”

                            More specifically, the importance of obtaining representative samples within
                            each surveillance stream is emphasized by the authors of BSurvE 32 who state
                            that their “analytical approach relies on the surveillance data reported being
                            genuinely representative of the particular surveillance stream from which it is
                            drawn, and if this is not true then the findings will be biased by such errors.”
                            As examples of potential problems, they include “low and geographically
                            variable success in sampling fallen stock.”

                            APHIS has agreed to provide a detailed discussion of the potential biases and
                            limitations of the data in its final analysis of its surveillance effort, therefore,
                            OIG’s concerns should be addressed.

Recommendation 2

                            In future surveillance programs, enforce management controls over the
                            integrity of surveillance testing data.

                            Agency Response.

                            APHIS concurs with the need to maintain the integrity of surveillance testing
                            data. The National Surveillance Unit is currently developing data standards
                            to be used in all surveillance programs. The projected time period for the
                            completion of the initial data standards is March 31, 2006. Future
                            surveillance programs will utilize those data standards, and will have
                            safeguards to prevent data errors.

                            OIG Position.

                            We accept management decision.



32
 Wilesmith, John, Roger Morris, Mark Stevenson, Rob Cannon, Deb Prattley, and Helen Benard. Development of a
Method for Evaluation of National Surveillance Data and Optimization of National Surveillance Strategies for Bovine
Spongiform Encephalopathy; page 10 (March 12, 2004).
USDA/OIG-A/50601-10-KC                                                                                    Page 18
   Finding 2             Inherent Challenges in Identifying and Testing High-Risk Cattle
                         Still Remain

                         Our prior report identified a number of inherent problems in identifying and
                         testing high-risk cattle. We reported that the challenges in identifying the
                         universe of high-risk cattle, as well as the need to design procedures to obtain
                         an appropriate representation of samples, was critical to the success of the
                         BSE surveillance program. The surveillance program was designed to target
                         nonambulatory cattle, cattle showing signs of CNS disease (including cattle
                         testing negative for rabies), cattle showing signs not inconsistent with BSE,
                         and dead cattle. Although APHIS designed procedures to ensure FSIS
                         condemned cattle were sampled and made a concerted effort for outreach to
                         obtain targeted samples, industry practices not considered in the design of the
                         surveillance program reduced assurance that targeted animals were tested for
                         BSE.

Rabies Negative          In our prior report, we recommended that APHIS work with public health and
Samples                  State diagnostic laboratories to develop and test rabies-negative samples for
                         BSE. This target group is important for determining the prevalence of BSE
                         in the United States because rabies cases exhibit clinical signs not
                         inconsistent with BSE; a negative rabies test means the cause of the clinical
                         signs has not been diagnosed.

                         APHIS agreed with our recommendation and initiated an outreach program
                         with the American Association of Veterinary Laboratory Diagnosticians, as
                         well as State laboratories. APHIS also agreed to do ongoing monitoring to
                         ensure samples were obtained from this target population.

                         Although APHIS increased the samples tested from this target group as
                         compared to prior years, we found that conflicting APHIS instructions on the
                         ages of cattle to test resulted in inconsistencies in what samples were
                         submitted for BSE testing. Therefore, some laboratories did not refer their
                         rabies negative samples to APHIS in order to maximize the number tested for
                         this critical target population. In addition, APHIS did not monitor the
                         number of submissions of rabies negative samples for BSE testing from
                         specific laboratories.

                         According to the Procedure Manual for BSE Surveillance, dated
                         October 2004, the target population includes:

                          Central nervous system (CNS) signs and/or rabies negative - sample
                          animals of any age (emphasis added):
                          a. Diagnostic laboratories –samples submitted due to evidence of CNS
                             clinical signs.
   USDA/OIG-A/50601-10-KC                                                               Page 19
                         b. Public health laboratories – rabies negative cases.
                         c. Slaughter facilities – CNS ante mortem condemned at slaughter,
                            sampled by FSIS.
                         d. On-the-farm – CNS cattle that do not meet the criteria for a foreign
                            animal disease investigation.

                   For FYs 2002, 2003, and 2004 (through February 2004), NVSL received
                   170, 133, and 45 rabies-negative samples, respectively.          Between
                   June 1, 2004, and May 29, 2005, the number of samples received for testing
                   increased to 226 rabies suspect samples. The collection sites submitting
                   these samples follow.

                                                            Number of Rabies
                                  Collection Site           Suspect Submissions *
                                Slaughter Plant               0
                                Renderer                      2
                                On-Farm                      11
                                Public Health Lab           94
                                Diagnostic Lab               81
                                3D-4D                         8
                                Other                         4
                                Total                       200

                   * 26 were tested but not counted by APHIS towards meeting the target goals because the
                   obex was not submitted.

                   We obtained a copy of a memorandum, dated July 13, 2004, that APHIS sent
                   to diagnostic and public health laboratories providing them instructions on
                   submitting samples for cattle showing signs of CNS diseases, but testing
                   negative for rabies. The letter was sent to about 170 State veterinary
                   diagnostic and public health laboratories and discussed the need to submit
                   specimens to NVSL of all adult cattle (emphasis added) that showed signs
                   of CNS diseases, but tested negative for rabies. This directive did not specify
                   the age of the cattle. The Procedure Manual for BSE Surveillance, dated
                   October 2004, specified samples of cattle of any age should be submitted.

                   We contacted laboratories in six States to determine if it was standard
                   procedure to submit all negative rabies samples to NVSL. We found that,
                   because of the lack of specificity in the APHIS letter and inadequate
                   followup by APHIS, there were inconsistencies in the age of cattle samples
                   submitted for BSE testing. For those States contacted, the following samples
                   were submitted versus tested as negative for rabies.




USDA/OIG-A/50601-10-KC                                                                          Page 20
                   Rabies Negative Tests Not Sent for BSE Testing Since June 1, 2004
                                                        Sent for
                                         Negative        BSE       Not Sent for
                           State       Rabies Tests     Testing    BSE Testing
                     Pennsylvania a/              33           15             18
                     Kansas b/                    85           69             16
                     Wisconsin c/                 12            1             11
                     South Dakota d/               7            0              7
                     Arizona e/                    5            5              0
                     Mississippi e/                4            4              0
                     Total                      146            94             52

                         a/ A Pennsylvania laboratory official said only rabies negative cattle over
                         20 months of age were submitted for BSE testing. The laboratory did
                         not submit 18 samples for BSE testing because the animals were less
                         than 20 months of age.

                         b/ Kansas laboratory officials said early in the expanded surveillance
                         program, there was confusion as to the cattle ages that should be
                         submitted for BSE testing. They did not know if cattle should be
                         submitted that were above 20 months or 30 months of age. Of the
                         16 animals not submitted for BSE testing, 14 were under 20 months of
                         age from early in the expanded surveillance program. The other two
                         animals were not tested due to internal laboratory issues. The Kansas
                         and Nebraska area office officials contacted the laboratory and told the
                         officials to submit rabies negative cattle of any age for BSE testing. The
                         laboratory now submits all rabies negative cattle for BSE testing.

                         c/ A Wisconsin laboratory official said only rabies negative cattle
                         samples 30 months of age or older are submitted for BSE testing. Of the
                         11 animals not submitted for BSE testing, 8 were less than 30 months of
                         age. Wisconsin laboratory officials were not certain why the other three
                         samples were not submitted.

                         d/ Laboratory officials from South Dakota said they did not receive
                         notification from APHIS regarding the submission of rabies negative
                         cases for BSE testing. The section supervisor and laboratory director
                         were not aware of any letter sent to the laboratory. The section
                         supervisor said most bovine rabies tests at the laboratory are performed
                         on calves. We confirmed the laboratory’s address matched the address
                         on APHIS’ letter distribution list. However, there was no evidence that
                         the South Dakota area office contacted the laboratory. The laboratory
                         was not listed on the documentation from the APHIS regional office
                         detailing the area office contacts with laboratory personnel. We
                         contacted the South Dakota area office and were advised that while some
                         contact had been made with the laboratory, the contact may have
                         involved Brucellosis rather than BSE. On May 4, 2005, the area office

USDA/OIG-A/50601-10-KC                                                                     Page 21
                                     advised us they recently contacted the laboratory regarding the
                                     submission of rabies negative samples for BSE testing.

                                     e/ Arizona and Mississippi laboratory officials said they submitted all
                                     rabies negative samples for BSE testing regardless of the age of the
                                     animal.

                                An NVSL official stated that APHIS is not concerned with rabies negatives
                                samples from cattle less than 30 months of age. This position, however, is
                                contrary to APHIS’ published target population.

                                Our prior audit recognized the significant challenge for APHIS to obtain
Downers and                     samples from some high-risk populations because of the inherent problems
Cattle that Died                with obtaining voluntary compliance and transporting the carcasses for
on the Farm                     testing. USDA issued rules to prohibit nonambulatory animals (downers)
                                from entering the food supply at inspected slaughterhouses.               OIG
                                recommended, and the International Review Subcommittee 33 emphasized,
                                that USDA should take additional steps to assure that facilitated pathways
                                exist for dead and nonambulatory cattle to allow for the collection of samples
                                and proper disposal of carcasses. Between June 1, 2004, and May 31, 2005,
                                the APHIS database documents 27,617 samples were collected showing a
                                reason for submission of nonambulatory and 325,225 samples were collected
                                with reason of submission showing “dead.”

                                APHIS made extensive outreach efforts to notify producers and private
                                veterinarians of the need to submit and have tested animals from these target
                                groups. They also entered into financial arrangements with 123 renderers
                                and other collection sites to reimburse them for costs associated with storing,
                                transporting, and collecting samples. However, as shown in exhibit F,
                                APHIS was not always successful in establishing agreements with
                                non-slaughter collection sites in some States. APHIS stated that agreements
                                do not necessarily reflect the entire universe of collection sites and that the
                                presentation in exhibit F was incomplete because there were many collection
                                sites without a payment involved or without a formal agreement. We note
                                that over 90 percent of the samples collected were obtained from the
                                123 collection sites with agreements and; therefore, we believe agreements
                                offer the best source to increase targeted samples in underrepresented areas.

                                We found that APHIS did not consider industry practices in the design of its
                                surveillance effort to provide reasonable assurance that cattle exhibiting
                                possible clinical signs consistent with BSE were tested. Slaughter facilities
                                do not always accept all cattle arriving for slaughter because of their business
                                requirements. We found that, in one State visited, slaughter facilities
                                pre-screened and rejected cattle (sick/down/dead/others not meeting business

 33
      Report from the Secretary’s Advisory Committee on Foreign Animal and Poultry Diseases, February 13, 2004.
 USDA/OIG-A/50601-10-KC                                                                                           Page 22
                              standards) before presentation for slaughter in areas immediately adjacent or
                              contiguous to the official slaughter establishment. These animals were not
                              inspected and/or observed by either FSIS or APHIS officials located at the
                              slaughter facilities.

                              FSIS procedures state that they have no authority to inspect cattle not
                              presented for slaughter. Further, APHIS officials stated they did not believe
                              that they had the authority to go into these sorting and/or screening areas and
                              require that the rejected animals be provided to APHIS for BSE sampling.
                              Neither APHIS nor FSIS had any process to assure that animals left on
                              transport vehicles and/or rejected for slaughter arrived at a collection site for
                              BSE testing. FSIS allows slaughter facilities to designate the area of their
                              establishment where federal inspection is performed; this is designated as the
                              official slaughter establishment. 34

                              We observed animals that were down or dead in pens outside the official
                              premises that were to be picked up by renderers. Animals that were rejected
                              by plant personnel were transported off the premises on the same vehicles
                              that brought them to the plant. 35

                              A policy statement 36 regarding BSE sampling of condemned cattle at
                              slaughter plants provided that effective June 1, 2004, FSIS would collect BSE
                              samples for testing: 1) from all cattle regardless of age condemned by FSIS
                              upon ante mortem inspection for CNS impairment, and 2) from all cattle,
                              with the exception of veal calves, condemned by FSIS upon ante mortem
                              inspection for any other reason.

                              FSIS Notice 28-04, dated May 20, 2004, informed FSIS personnel that,
                              “FSIS will be collecting brain samples from cattle at federally-inspected
                              establishments for the purpose of BSE testing.” The notice further states that,
                              “Cattle off-loaded from the transport vehicle onto the premises of the
                              federally-inspected establishment (emphasis added), whether dead or alive,
                              will be sampled by the FSIS Public Health Veterinarian (PHV) for BSE after
                              the cattle have been condemned during ante mortem inspection. In addition,
                              cattle passing ante mortem inspection but later found dead prior to slaughter
                              will be condemned and be sampled by the FSIS PHV.”




34
   FSIS regulations do not specifically address the designation of an establishment’s “official” boundaries; however, FSIS
Notices 29-04 (dated May 27, 2004) and 40-04 (dated July 29, 2004) make it clear that FSIS inspection staff are not
responsible for sampling dead cattle that are not part of the “official” premises.
35
   APHIS’ area office personnel stated that it was their understanding that some establishments in the State were not
presenting cattle that died or were down on the transport vehicle to FSIS for ante mortem inspection. The dead and down
cattle were left in the vehicle, if possible. In rare circumstances, dead cattle may be removed from the trailer by plant
personnel to facilitate the unloading of other animals.
36
   A May 20, 2004, Memorandum between the Administrators of APHIS and FSIS.
USDA/OIG-A/50601-10-KC                                                                                          Page 23
                                APHIS has the responsibility for sampling dead cattle off-loaded onto
                                plant-owned property that is adjoining to, but not considered part of, the
                                “official premises. 37 FSIS procedures 38 provide that “Dead cattle that are
                                off-loaded to facilitate the off-loading of live animals, but that will be
                                re-loaded onto the transport vehicle, are not subject to sampling by FSIS.

                                While performing our review in one State, we reviewed the circumstances at
                                two slaughter facilities in the State that inspected and rejected unsuitable
                                cattle before the animals entered the official receiving areas of the plants.
                                This pre-screening activity was conducted in areas not designated by the
                                facility as official premises of the establishment and not under the review or
                                supervision of FSIS inspectors. The plant rejected all nonambulatory and
                                dead/dying/sick animals delivered to the establishment. Plant personnel
                                refused to offload any dead or downer animals to facilitate the offloading of
                                ambulatory animals. Plant personnel said that the driver was responsible for
                                ensuring nonambulatory animals were humanely euthanized and disposing of
                                the carcasses of the dead animals. Plant personnel informed us that they did
                                not want to jeopardize contracts with business partners by allowing
                                unsuitable animals on their slaughter premises.

                                In the second case, one family member owned a slaughter facility while
                                another operated a livestock sale barn adjacent to the slaughter facility. The
                                slaughter facility was under FSIS’ supervision while the sale barn was not.
                                Cattle sometimes arrived at the sale barn that were sick/down/dead or would
                                die or go down while at the sale barn. According to personnel at the sale
                                barn, these animals were left for the renderer to collect. The healthy
                                ambulatory animals that remained were marketed to many buyers including
                                the adjacent slaughter facility. When the slaughter facility was ready to
                                accept the ambulatory animals for processing, the cattle would be moved
                                from the sale barn to the slaughter facility where they were subject to FSIS’
                                inspection.

                                We requested the slaughter facilities to estimate the number of cattle rejected
                                on a daily basis (there were no records to confirm the estimates). We visited
                                a renderer in the area and found that the renderer had a contract with APHIS
                                to collect samples for BSE testing. In this case, although we could not obtain
                                assurance that all rejected cattle were sampled, the renderer processed a
                                significant number of animals, as compared to the slaughter plants’ estimates
                                of those rejected. Due to the close proximity (less than 5 miles) of the
                                renderer to the slaughter facilities, and the premium it paid for dead cattle
                                that were in good condition, there was a financial incentive for transport
                                drivers to dispose of their dead animals at this renderer.


37
     FSIS Notice 40-04, dated July 29, 2004.
38
     FSIS Notice 29-04, dated May 27, 2004.
USDA/OIG-A/50601-10-KC                                                                                Page 24
                   In our discussions with APHIS officials in Wisconsin and Iowa, they
                   confirmed that there were plants in their States that also used pre-screening
                   practices. On May 27, 2005, we requested APHIS and FSIS to provide a list
                   of all slaughter facilities that pre-screened cattle for slaughter in locations
                   away from the area designated as the official slaughter facility. Along with
                   this request, we asked for information to demonstrate that either APHIS or
                   FSIS confirmed there was a high likelihood that high-risk animals were
                   sampled at other collection sites.

                   In response to our request, the APHIS BSE Program Manager stated that
                   APHIS did not have information on slaughter plants that pre-screen or screen
                   their animals for slaughter suitability off their official plant premises. To
                   their knowledge, every company or producer that submits animals for
                   slaughter pre-sorts or screens them for suitability at various locations away
                   from the slaughter facility. For this reason, USDA focused its BSE sample
                   collection efforts at other types of facilities such as renderers, pet food
                   companies, landfills, and dead stock haulers. Further, in a letter to OIG on
                   June 14, 2005, the administrators of APHIS and FSIS noted the following:

                         “…we believe that no specific actions are necessary or appropriate to
                         obtain reasonable assurance that animals not presented for slaughter
                         are being tested for BSE. There are several reasons for our position.
                         First, we do not believe that the practice is in fact causing us to not test a
                         significant enough number of animals in our enhanced surveillance
                         program to invalidate the overall results. Second, OIG has concluded
                         that because of the geographical proximity and business relationships of
                         the various entities involved in the case investigated, there is reasonable
                         assurance that a majority of the rejected cattle had been sampled. Third,
                         it is also important to remember that the goal of the enhanced
                         surveillance program is to test a sufficient number of animals to allow us
                         to draw conclusions about the level of BSE (if any) in the American
                         herd…We believe that the number we may be not testing because of the
                         “pre-sorting” practice does not rise to a significant level. The number
                         of animals tested to date has far exceeded expectations, so it is
                         reasonable to infer that there are few of the animals in question, or that
                         we are testing them at some other point in the process…APHIS
                         estimated…there were approximately 446,000 high risk cattle…[and
                         APHIS has]…tested over 375,000 animals in less than 1 year. This
                         indicated that we are missing few animals in the high-risk population,
                         including those that might be pre-sorted before entering a slaughter
                         facility’s property.”

                   We obtained 123 APHIS sampling agreements and contracts with firms and
                   plotted their locations within the United States (see exhibit F). We also
                   analyzed the samples tested to the BSE sampling goals allocated to each State
                   under the prior surveillance program. This analysis showed that there are
USDA/OIG-A/50601-10-KC                                                                        Page 25
                              sampling gaps in two large areas of the United States where APHIS did not
                              have contracts with collection sites. These two areas are shown in the
                              following chart (Montana, South Dakota, North Dakota and Wyoming –
                              Group 1 and Louisiana, Oklahoma, Arkansas, and Tennessee – Group 2):

                                                     Original Sampling     Samples                   No. of BSE
                                                     Goal Based on         collected                 Sampling
                                                     (268,500 sampling     as of May                 Agreements/
                                 State               goal)                 31, 2005   Deficit        Contracts 39
                                 MT                              5,076            182     4,894          2
                                 SD                              6,938          2,792     4,146          1
                                 ND                              3,616            174     3,442          0
                                 WY                              2,513             61     2,452          0
                                 AREA TOTAL                                             14,934
                                 OK                                7,792        2,407     5,385           1
                                 AR                                3,672          353     3,319           0
                                 TN                                4,938        3,050     1,888           1
                                 LA                                2,312          452     1,860           1
                                 AREA TOTAL                                             12,452

                              APHIS notes that for the current surveillance program, it had established
                              regional goals and APHIS was not trying to meet particular sampling levels
                              in particular States. However, we believe that it would be advantageous for
                              APHIS to monitor collection data and increase outreach when large
                              geographical areas such as the above States do not provide samples in
                              proportion to the numbers and types of cattle in the population.

                              We also disagree with APHIS/FSIS’ contention that because they have tested
                              over 375,000 of their 446,000 estimate of high risk cattle, few in the high-risk
                              population are being missed, including those that might be pre-screened
                              before entering a slaughter facility’s property. In our prior audit, we reported
                              that APHIS underestimated the high-risk population; we found that this
                              estimate should have been closer to 1 million animals (see Finding 1). We
                              recognize that BSE samples are provided on a voluntary basis; however,
                              APHIS should consider industry practice in any further maintenance
                              surveillance effort. Animals unsuitable for slaughter exhibiting symptoms
                              not inconsistent with BSE should be sampled and their clinical signs
                              recorded. However, this cited industry practice results in rejected animals not
                              being made available to either APHIS or FSIS veterinarians for their
                              observation and identification of clinical signs exhibited ante mortem.
                              Although these animals may be sampled later at other collection sites, the
                              animals are provided post mortem without information as to relevant clinical
                              signs exhibited ante mortem. For these reasons, we believe APHIS needs to


39
  APHIS noted that sites with agreements do not necessarily reflect the entire universe of collection sites and at some sites
APHIS collects samples with no payment involved and no agreement in place. OIG agrees that not all collection sites are
reflected in our presentation of the 123 sites with reimbursable agreements. OIG believes obtaining sampling agreements is
one of the primary methods available to increase sample numbers in areas with sampling gaps.
USDA/OIG-A/50601-10-KC                                                                                              Page 26
                   observe these animals ante mortem when possible to assure the animals from
                   the target population are ultimately sampled and the clinical signs evaluated.

Recommendation 3

                   Determine whether FSIS and/or APHIS need additional authorities to
                   perform inspection and BSE sampling activities in pre-screening areas
                   immediately adjacent, or contiguous to, official slaughter establishments.

                   Agency Response.

                   The question as to whether FSIS has jurisdiction is not determinable merely
                   on the basis of proximity of where certain activities take place. FSIS' ability
                   to conduct activities in pre-screening areas is related to the relationship
                   between the activities the establishment performs in the pre-screening areas
                   and the slaughter process. The closer and more exclusively those activities
                   are related to the slaughter process, the more likely it is that FSIS would be
                   able to exercise jurisdiction in the pre-screening area. The available
                   information, however, does not allow a judgment on the concern raised by
                   OIG. FSIS will, however, remain open to learning more about the situations
                   raised by OIG and pursue any leads that indicate that such activities directly
                   relate to slaughter and are under the control of the establishment.

                   APHIS does not believe that additional authorities are needed to perform
                   inspection and BSE sampling in pre-screening areas immediately adjacent, or
                   contiguous to, official slaughter establishments. As stated in the report, OIG
                   observed animals that were down or dead in those areas that were to be
                   picked up by renderers. OIG also states that they observed that animals that
                   arrived at a sale barn that were sick/down/dead or would die or go down
                   while at the sale barn were also left for the renderer to collect. APHIS
                   utilized the knowledge of industry practices regarding the disposition of
                   animals presented at these facilities and then rerouted, and designed the
                   surveillance system to collect at renderers where these animals were
                   ultimately destined. OIG visited a renderer in the area of a slaughter facility
                   and found the renderer had a contract with APHIS to collect samples for BSE
                   testing. OIG also states that "...there was a financial incentive for transport
                   drivers to dispose of their dead animals at this renderer.” The goal of the
                   enhanced surveillance program is to test a sufficient number of animals to
                   draw conclusions about the level of BSE in the American herd, not to test
                   every animal in the target population. APHIS does not think it would be a
                   prudent use of taxpayer dollars to seek and use new authorities to seize and
                   test these few animals. Credible, scientifically valid conclusions can be
                   drawn without spending the taxpayers' money to comply with this
                   recommendation.



USDA/OIG-A/50601-10-KC                                                                   Page 27
                   APHIS is also concerned with OIG’s analysis and presentation of sampling
                   gaps in two large areas of the United States where APHIS did not have
                   contracts with collection sites, and the chart referencing that point. The
                   commentary and the chart purport to make the case that APHIS failed to meet
                   State by State surveillance goals. APHIS believes that this is inaccurate and
                   unnecessarily and unfairly questions the overall validity of the program.
                   Again, APHIS was not trying to meet particular levels in particular States.
                   APHIS worked to meet regional goals, and those are the goals that should be
                   evaluated.

                   In addition, agreements do not necessarily reflect the entire universe of
                   collection sites we work with. For a collection site where there is no payment
                   involved, there is no agreement in place. Attempting to determine
                   distribution of sampling by plotting only collection sites with agreements is
                   misleading, since it is an incomplete list of collection sites. In fact, the
                   random tool used to develop allocations for maintenance surveillance
                   planning drew from approximately 165 large sites and more than 260 small
                   ones, far more than the 123 with which we had reimbursement agreements.

                   Further, exhibit F is an inaccurate representation of collection sites. In
                   summary, based on our knowledge of the industry, APHIS focused collection
                   efforts at animal disposal facilities such as rendering facilities, and salvage
                   and slaughter facilities. In many areas of the country, such facilities do not
                   exist. APHIS worked with existing facilities and entered into agreements
                   with those facilities. Those States without agreements are States without
                   animal disposal facilities of the sort that are crucial in the BSE surveillance
                   program. In those cases, samples were collected through other mechanisms,
                   which resulted in approximately 5,000 collection sites without agreements
                   referenced above (see exhibit G for APHIS’ response in its entirety).

                   OIG Position.

                   Both APHIS and FSIS do not believe they need additional authorities to
                   perform inspection and BSE sampling activities in pre-screening areas
                   immediately adjacent, or contiguous to, those areas at slaughter plants
                   designated as the official slaughter establishment. We accept the management
                   decision that such authorities are not needed.

                   However, we remain concerned that the FSIS and APHIS personnel
                   interviewed during the audit were not aware such authorities exist. FSIS, in
                   their response, states that the information provided by OIG does not allow a
                   judgment on the concerns raised; FSIS’ ability to conduct activities in
                   pre-screening areas depends on whether such activities are directly related to
                   slaughter. As the report discusses, the animals pre-screened by the
                   establishments were not accepted for slaughter. FSIS directives clearly
                   discuss their, and APHIS’ authorities, for sampling cattle off-loaded onto
USDA/OIG-A/50601-10-KC                                                                   Page 28
                   plant-owned property that is not considered part of the “official premises.”
                   The directive states that animals offloaded in those areas are not subject to
                   sampling by FSIS.

                   We did not recommend that APHIS seek additional authority to “seize”
                   animals for testing in the pre-screening areas. In our view, the pre-screening
                   areas are points of concentration that would likely already fall under APHIS’
                   existing authority for sample collection. Also, APHIS stated they utilized the
                   knowledge of industry practices regarding the disposition of animals
                   presented at these facilities (and then re-routed) and designed the surveillance
                   system to collect at renderers where these animals were ultimately destined.
                   However, during the audit, we requested that both APHIS and FSIS provide
                   us those slaughter locations where these pre-screening activities occur and
                   information to demonstrate that the agencies confirmed there was a high
                   likelihood that high-risk animals were tested at other collection sites. In a
                   June 14, 2005, letter, the Administrators of APHIS and FSIS informed us that
                   they did not believe specific actions were necessary or appropriate to obtain
                   reasonable assurance that animals not presented for slaughter are being tested
                   for BSE. We disagree since those animals that were not allowed in those
                   areas designated as the official slaughter establishment are the target animals
                   at highest risk for BSE.

                   As discussed in the report, 90 percent of the samples collected were obtained
                   from the 123 collection sites with agreements. In those two large areas with
                   sampling gaps, there were about 930 of the 5,000 collection sites referenced
                   by APHIS that did not have sampling agreements. OIG continues to believe
                   formal agreements offer the best source to increase targeted samples in
                   underrepresented areas.

Recommendation 4

                   Consult with technical experts and determine what ages of animals of rabies
                   negative cattle should be tested for BSE. Perform additional outreach and
                   personal contacts to emphasize the age of the target animals and to ensure
                   laboratory personnel understand procedures for submitting the desired
                   samples. Provide periodic monitoring of laboratory submissions and
                   followup with laboratories that appear to be providing an insufficient number
                   of samples.

                   Agency Response.

                   APHIS concurs with the recommendation. Once the final analysis of the
                   BSE surveillance effort is completed, APHIS will make a final determination
                   on the ages of rabies negative animals that should be tested for BSE, and will
                   notify laboratories within 30 days of that determination, no later than
                   April 15, 2006. Veterinary Services personnel at NVSL and in the field will
USDA/OIG-A/50601-10-KC                                                                    Page 29
                   personally contact all involved laboratories by June 1, 2006, to ensure that
                   the laboratories have received and understood the procedures for submitting
                   samples. By April 30, 2006, APHIS will establish a monitoring process that
                   includes a threshold on the number of samples expected from laboratories
                   based on those laboratories' particular situation. That process will include an
                   action step to contact any laboratory not meeting reasonable expectations
                   given their circumstances.

                   OIG Position.

                   We accept management decision.




USDA/OIG-A/50601-10-KC                                                                   Page 30
Section 2. Testing Protocols and Quality Assurance Controls

                                In November 2004, USDA announced that its rapid screening test, Bio-Rad
                                Enzyme Linked Immunosorbent Assay (ELISA), produced an inconclusive
                                BSE test result as part of its enhanced BSE surveillance program. The
                                ELISA rapid screening test performed at a BSE contract laboratory produced
                                three high positive reactive results. 40 As required, 41 the contract laboratory
                                forwarded the inconclusive sample to the APHIS National Veterinary
                                Services Laboratories (NVSL) for confirmatory testing. NVSL repeated the
                                ELISA testing and again produced three high positive reactive results. 42 In
                                accordance with its established protocol, NVSL ran its confirmatory test, an
                                immunohistochemistry (IHC) test, which was interpreted as negative for
                                BSE. In addition, NVSL performed a histological 43 examination of the tissue
                                and did not detect lesions 44 consistent with BSE.

                                Faced with conflicting results, NVSL scientists recommended additional
                                testing to resolve the discrepancy but APHIS headquarters officials
                                concluded no further testing was necessary because testing protocols were
                                followed. In our discussions with APHIS officials, they justified their
                                decision not to do additional testing because the IHC is internationally
                                recognized as the “gold standard.” Also, they believed that conducting
                                additional tests would undermine confidence in USDA’s established testing
                                protocols.

                                However, OIG obtained evidence that indicated additional testing was
                                prudent to ensure that USDA’s testing protocols were effective in detecting
                                BSE and that confidence in USDA’s testing procedures was maintained.
                                OIG came to this conclusion because the rapid tests produced six high
                                positive reactive results, confirmatory testing conflicted with the rapid test
                                results, and various standard operating procedures were not followed. Also,
                                our review of scientific literature, other country protocols, as well as
                                discussions with internationally recognized experts led us to conclude that
                                confirmatory testing should not be limited when conflicting test results are
                                obtained. To maintain objectivity and independence in our assessment, we
                                requested the USDA Agricultural Research Service (ARS) perform the Office
                                International des Epizooties (OIE) Scrapie-Associated Fibrils (SAF)


40
   ELISA test procedures require two additional (duplicate) tests if the initial test is reactive, before final interpretation. If
either of the duplicate tests is reactive, the test is deemed inconclusive.
41
   Protocol for BSE Contract Laboratories to Receive and Test Bovine Brain Samples and Report Results for BSE
Surveillance Standard Operating Procedure (SOP), dated October 26, 2004.
42
   The NVSL conducted an ELISA test on the original material tested at the contract laboratory and on two new cuts from
the sample tissue.
43
   A visual examination of brain tissue by a microscope.
44
   A localized pathological change in a bodily organ or tissue.
USDA/OIG-A/50601-10-KC                                                                                                 Page 31
                                  immunoblot. 45 ARS performed the test at the National Animal Disease
                                  Center because NVSL did not have the necessary equipment 46
                                  (ultracentrifuge) to do the test. APHIS scientists observed and participated,
                                  as appropriate, in this effort.

                                  The additional tests conducted by ARS produced positive results. To confirm
                                  this finding, the Secretary requested the internationally recognized BSE
                                  reference laboratory in Weybridge, England, (Weybridge) to perform
                                  additional confirmatory testing.      Weybridge conducted various tests,
                                  including their own IHC methods, as well as three Western blot methods.
                                  The tests confirmed that the suspect cow was infected with BSE. Also,
                                  Weybridge confirmed this case as an unequivocal positive case of BSE on the
                                  basis of IHC. As a result of this finding, the Secretary immediately directed
                                  USDA scientists to work with international experts to develop a new protocol
                                  that includes performing dual confirmatory tests in the event of another
                                  inconclusive BSE screening test.


   Finding 3                      Rigid Protocols Reduced the Likelihood BSE Could be Detected

                                  APHIS relied on a single test method, as well as a histological examination of
APHIS Declares                    tissue for lesions consistent with BSE, to confirm the presence of BSE even
BSE Sample                        though discrepant test results indicated further testing may be prudent. When
Negative Despite                  IHC test results were interpreted as negative, APHIS concluded the sample
Conflicting Results               tested negative for BSE. Subsequent independent tests initiated by OIG
                                  using a different testing method, as well as confirmatory testing by
                                  Weybridge, determined that the suspect sample was a positive case of BSE.

                                  When the tissue sample originally arrived at NVSL in November 2004 from
                                  the contract lab, NVSL scientists repeated the ELISA screening test and
                                  again produced three high positive reactive results. NVSL scientists cut out
                                  two sections of the brain sample for IHC testing. One section was used for
                                  an experimental procedure that was not part of the confirmatory testing
                                  protocol, and the other cut was for normal IHC testing using scrapie for a
                                  positive control. 47 According to NVSL scientists, the experimental test
                                  results were inconclusive but the IHC test was interpreted as negative. The
                                  NVSL scientists were concerned with the inconsistencies and conducted


   45
      The OIE SAF immunoblot is an internationally recognized confirmatory test, often referred to as a Western blot test.
   There are different types of Western blots; the OIE SAF immunoblot includes enrichment steps taken with the sample prior
   to the standard Western blot steps.
   46
      APHIS has now ordered the necessary equipment for NVSL.
   47
      A positive control is a sample that is known to contain a given disease or react in the test. The sample then can be used
   to make sure that the test for that disease works properly. In the case of BSE, tissue infected with either scrapie or BSE can
   serve as a positive control for an IHC test for BSE since both are different forms of the same disease (transmissible
   spongiform encephalopathy or TSE).
   USDA/OIG-A/50601-10-KC                                                                                              Page 32
                                  another IHC test using BSE as a positive control. 48 The test result was also
                                  interpreted as negative. Also, according to the NVSL scientists, the
                                  histological examination of the tissue did not detect lesions consistent with
                                  BSE.

                                  After the second negative IHC test, NVSL scientists supported doing
                                  additional testing. They prepared a plan for additional tests; if those tests had
                                  been conducted, BSE may have been detected in the sample. The additional
                                  tests recommended by NVSL scientists, but not approved by APHIS
                                  Headquarters officials, were the IHC using other antibodies (IHC testing
                                  using different antibodies ultimately produced positive results); IHC testing
                                  of additional regions of the brain (the cerebellum tested positive); regular and
                                  enriched (OIE-like) Western blots (the obex and cerebellum tested positive);
                                  and variable rapid tests (the obex and cerebellum tested positive with two
                                  different rapid tests). NVSL officials also recommended that the sample be
                                  sent to Weybridge for confirmatory testing (to conduct IHC and OIE Western
                                  blot tests). In June 2005, Weybridge conducted IHC testing with three
                                  different antibodies, including the antibody used in the United States (tested
                                  positive), the OIE Western blot (tested positive), a modified commercial kit
                                  Western blot (negative) and the NaPTA 49 Western blot (tested positive).

Evidence Indicated                We obtained information as to the differing protocols used by other countries.
Additional Testing                We found that while APHIS determined that additional testing was
Would Be Prudent                  unnecessary after the IHC test, other countries have used multiple tests to
                                  confirm positives. In Japan, for example, all reactive screening test samples
                                  are examined by both IHC and a Western blot (different from the OIE SAF
                                  immunoblot). In the United Kingdom (U.K.), IHC and Western blot
                                  (different from the OIE SAF immunoblot) tests are used for all animals that
                                  test positive with a screening test. When IHC and the Western blot fail to
                                  confirm a positive rapid test, the U.K. resorts to a third test, the OIE SAF
                                  immunoblot. With these procedures in place, both Japan and the U.K. have
                                  found BSE cases that were rapid test reactive, IHC negative, and finally
                                  confirmed positive with a Western blot.

                                  We also spoke with an internationally recognized BSE expert regarding the
                                  advisability of limiting confirmatory testing when conflicting results are
                                  obtained. This official expressed concern about limiting confirmatory tests to
                                  the IHC despite its status as one of the “gold standard” tests. He advised that
                                  the IHC is not one test; it is a test method that can vary significantly in
                                  sensitivity from laboratory to laboratory. New antibodies can improve or


    48
       The NVSL uses scrapie as the positive control as part of its normal IHC testing procedures. Due to the conflicting results
    between the ELISA and IHC tests, the NVSL conducted another IHC test with BSE as the positive control. Subsequently,
    the NVSL modified the Confirming Inconclusive Results from BSE Testing Laboratories at the NVSL SOP to show that all
    IHC tested BSE inconclusive samples from contract laboratories will use BSE as the positive control.
    49
       Sodium phosphotungstic acid.
    USDA/OIG-A/50601-10-KC                                                                                             Page 33
                              reduce sensitivity, as can variations in many of the reagents 50 used. He
                              explained that his laboratory had experienced cases where an initial
                              confirmatory IHC test was challenged by either a more extensive IHC test or
                              “…applying a more sensitive immunoblot.” He emphasized the importance
                              of having additional confirmatory testing to resolve discrepant results since
                              there are many variables, and most of the variability appears to be due to test
                              performance of the laboratory.

                              OIG became concerned that APHIS relied on its confirmatory test methods
                              when rapid screening tests produced high positive reactive results six times. 51
                              Also, we found that APHIS did not pursue and/or investigate why the ELISA
                              produced high reactive positives. An official from the manufacturer of the
                              ELISA test kit told us that they requested, but did not receive, information on
                              the inconclusive reported by USDA in November 2004. These officials
                              requested this information in order to understand the reasons for the
                              discrepant results. The Bio-Rad ELISA rapid screening test is internationally
                              recognized as a highly reliable test and is the rapid screening test used for
                              USDA’s surveillance effort. According to APHIS officials, they felt it would
                              be inappropriate to collaborate on the one sample because Bio-Rad is a
                              USDA-APHIS regulated biologics company and only one of several
                              competing manufacturers. To maintain confidence in USDA’s test protocols,
                              it would have been a prudent course of action for USDA to determine why
                              such significant differing results were obtained. The fact that they did not
                              pursue this matter caused concerns relating to testing quality assurance
                              procedures. In this regard, we found lack of compliance with SOPs relating
                              to laboratory proficiency and quality assurance (see Finding 4), and, in this
                              case, the storage of sampled material and reporting of test results.

                              We found that the NVSL did not prepare a report to document its
                              confirmatory testing of the November 2004 sample. The SOP 52 states that
                              the BSE network laboratory initiating the inconclusive will receive a report of
                              the case. NVSL officials could not explain why a final report had not been
                              prepared. We also found that the inconclusive sample was frozen prior to
                              IHC confirmatory testing. APHIS protocols state that samples are not to be
                              frozen prior to laboratory submission. The OIE Manual of Diagnostic Tests
                              and Vaccines for Terrestrial Animals states that the tissues for histological or
                              IHC examination are not to be frozen as this will provide artefactual 53 lesions
                              that may compromise the identification of vacuolation, 54 and/or target site
                              location. Although the sample was frozen, APHIS did not conduct a Western

50
   A substance used in a chemical reaction to detect, measure, examine, or produce other substances.
51
   The six high positive reactive results were from three tests of the submitted sample (multiple runs of the same test).
52
   Confirming Inconclusive Results from Bovine Spongiform Encephalopathy Testing Laboratories at the NVSL SOP,
dated August 13, 2004.
53
   A structure or feature not normally present but visible as a result of an external agent or action, such as one seen in a
microscopic specimen after fixation.
54
   A small space or cavity in a tissue.
USDA/OIG-A/50601-10-KC                                                                                            Page 34
                   blot test on the sample. An NVSL official said freezing the sample does not
                   make it unsuitable for IHC. APHIS determined that the sample was suitable
                   for IHC and therefore, in accordance with its SOP, did not conduct a Western
                   blot test.

                   APHIS also handled the December 2003 BSE positive differently than the
                   November 2004 sample. For the December 2003 BSE positive sample,
                   APHIS conducted several confirmatory tests in addition to the IHC testing
                   and histological examination (unlike the November 2004 sample tests, both
                   of these were interpreted as positive). ARS performed two Western blots
                   (Prionics Check Western blot and an ARS developed Western blot). When
                   we questioned why the samples were handled differently, APHIS officials
                   stated that the Western blots were done because the IHC in December 2003
                   was positive. The additional testing was done to further characterize the
                   case, because it was the first U.S. case; the additional testing was not done to
                   decide whether the case was positive or negative.

                   We discussed our concerns with limiting confirmatory testing, particularly
                   given conflicting results, with the APHIS Administrator and staff in
                   May 2005. He explained that international standards recognized more than
                   one “gold standard” test. In setting up its testing protocols, USDA had
                   chosen one as the confirming test, the IHC test, and stayed with it. APHIS
                   protocols only allow a Western blot in cases where the sample has become
                   unsuitable for IHC tests (e.g., in cases where the brainstem architecture is not
                   evident).

                   International standards, he continued, accept a tissue sample as negative for
                   BSE if its IHC test is negative. Once the test is run in accordance with
                   protocols, additional tests undermine the USDA testing protocol and the
                   surveillance program. He concluded that since APHIS’ protocols accepted
                   the IHC test as confirming the presence or absence of BSE, no further testing
                   was necessary. According to protocol, the tissue sample was determined to
                   have tested negative for BSE.

                   On June 24, 2005, USDA announced that the additional testing by the BSE
                   reference laboratory in England confirmed the presence of BSE in the tissue
                   sample. To obviate the possibility that a future sample would be declared
                   negative and then found positive, the Secretary of Agriculture announced a
                   change to APHIS’ testing protocols that same day. He called for “dual
                   confirmatory tests in the event of another ‘inconclusive’ [reactive] BSE
                   screening test.” He also indicated that he would reinforce proper procedures
                   so that samples will not be frozen, and to spot-check the laboratories to see
                   that they complete reports as required. APHIS issued a SOP on the new
                   confirmatory testing protocols on November 30, 2005.



USDA/OIG-A/50601-10-KC                                                                    Page 35
Recommendation 5

                   Continuously re-evaluate, and adjust, testing protocols based on emerging
                   science.

                   Agency Response.

                   APHIS concurs with the recommendation. The NVSL has in the past
                   re-evaluated and adjusted its testing protocols based on emerging science,
                   and will continue to do so. For example, NVSL has revised laboratory
                   standard operating procedures (SOPs) to include the use of the OIE scrapie
                   associated fibril (SAF) immunoblot procedure as a mandatory confirmatory
                   test (in addition to IHC already required) for confirmation testing with
                   inconclusive results. Additionally, based on the recommendations of OIG,
                   NVSL scientists, and other internationally recognized experts, NVSL will
                   incorporate additional language into the IHC SOP so that NVSL scientists
                   may incorporate the flexibility of adding additional antibodies, chromagens,
                   and variations in specific tissue treatments (including fixation methods) as
                   needed to further clarify interpretation of the IHC results. These changes will
                   be considered normal variations of the SOP and not considered research
                   procedures. Additional tests and flexibility will be utilized when conflicting
                   or unexplained anomalies in test results occur, and will only be performed
                   after consultation with appropriate Agency and Department officials. If such
                   further testing is requested and approved, NVSL will provide the Deputy
                   Administrator with a specific testing protocol together with a written
                   explanation of that protocol. APHIS will implement the new SOP when we
                   move from the enhanced surveillance program level of testing to a level
                   commensurate with the OIE guidelines. APHIS estimates that will occur
                   during the spring of 2006.

                   OIG Position.

                   We accept management decision.

Recommendation 6

                   Strengthen controls over contract laboratories to ensure that the samples are
                   not frozen and that laboratory testing results are properly documented and
                   reported by NVSL.

                   Agency Response.

                   APHIS agrees with the recommendation and has issued NVSL standard
                   operating procedure GPPISOP0032.06, which contains the following
                   instructions to the BSE contract laboratory personnel: "Do not freeze the
                   obex or place it in formalin. The obex will be shipped refrigerated.” An
USDA/OIG-A/50601-10-KC                                                                   Page 36
                               additional footnote states: "Note: If it is not possible to ship the obex in order
                               for it to be received at NVSL within 48 hours, the entire sample should be
                               frozen. Every effort should be made, however, to insure that refrigerated
                               obex will arrive at NVSL within 48 hours.” APHIS added this language in
                               late June 2005, after the initial OIG inquiry on this matter. APHIS also
                               emphasized the instructions in an e-mail to and a conference call with the
                               BSE network laboratory Directors. By March 15, 2006, APHIS will establish
                               further procedures for ensuring test results are properly documented and
                               reported by NVSL.

                               OIG Position.

                               We accept management decision.


   Finding 4                   Laboratory Proficiency and Quality Assurance Procedures
                               Should be Reviewed and Strengthened

                               The NVSL had not established and/or implemented adequate controls and
                               procedures to ensure the quality or capability of its BSE testing program. We
                               found noncompliance with established quality assurance SOPs designed to
                               ensure the accuracy and reliability of results. Also, NVSL had not
                               implemented an adequate quality assurance program for its own laboratory
                               testing procedures, nor had they obtained internationally recognized
                               accreditation for its BSE testing program. While the NVSL considered OIG,
                               Government Accountability Office (GAO), and Agricultural Marketing
                               Service (AMS) 55 audits to fulfill the need for management reviews of the
                               NVSL, these audits and/or reviews are not technical reviews that evaluate the
                               testing procedures and proficiency of the laboratory. We attribute the failure
                               to identify the BSE positive sample to be caused, in part, by the lack of
                               adequate quality assurance controls over its testing program. As a result,
                               there is reduced confidence in the reliability of reported test results.

                               Although APHIS established an ELISA proficiency-testing program for the
Laboratory                     seven contract laboratories that participated in the BSE surveillance program,
Proficiency Testing            they did not establish such controls for NVSL’s IHC testing procedure.
Was Not in Place at            Confirmatory testing of the November 2004 sample as BSE positive by ARS,
NVSL                           as well as the BSE reference laboratory in Weybridge, demonstrates the need
                               for a formal and regular laboratory proficiency-testing program at the NVSL.



   55
      In response to OIG’s prior audit recommendations to establish management controls over its sampling and testing
   program, APHIS requested AMS to perform compliance reviews. As part of its assessment, AMS reviewed the processing
   of BSE samples and observed and interviewed NVSL personnel relative to how packaging, materials, shipping, and/or
   records are handled at the laboratory.
   USDA/OIG-A/50601-10-KC                                                                                   Page 37
                                  OIE guidelines 56 emphasize the need for proficiency testing. Proficiency
                                  testing is an interlaboratory test comparison conducted for the express
                                  purpose of determining a laboratory’s capability to conduct specific
                                  diagnostic tests. Optimally, OIE recommends that proficiency testing be
                                  done on a twice-yearly basis. Twice yearly provides sufficient time between
                                  proficiency tests to undertake any corrective actions which might prevent a
                                  participating laboratory from losing its recognition status. The laboratory
                                  shall have policy and procedures that ensure that nonconforming testing
                                  (conditions that exist that have or could adversely affect the reliability of test
                                  results) is detected and promptly corrected.

                                  According to APHIS officials and information provided by the Secretary of
                                  Agriculture on June 24, 2005, there is no single commercially available
                                  off-the-shelf IHC test at the moment, and laboratories do not use identical
                                  methods. Attempts have been made to do so, but even variations in quality of
                                  reagents, such as water, can make a difference in the performance of the tests.

                                  In June 2005, Weybridge conducted confirmatory testing of the
                                  November 2004 sample. Weybridge noted that there was a marked
                                  difference in the sensitivity of the immunostaining (for IHC testing) when the
                                  sections prepared at Weybridge are compared with the NVSL submitted
                                  sections indicating that the NVSL’s immunostaining protocol may be
                                  suboptimal, and should be critically reviewed. Weybridge, therefore,
                                  encouraged the USDA to enable the NVSL to participate in interlaboratory
                                  proficiency testing.

                                  NVSL officials have discussed the possibility of interlaboratory proficiency
                                  testing with Canada but, to date, this process has not been put in place due to
                                  other priorities. Between the period June 1, 2004, and May 31, 2005, NVSL
                                  conducted about 18,000 BSE tests. Over 8,000 samples were fixed in
                                  formalin, for which only an IHC test could be performed. 57 APHIS needs to
                                  expedite establishing a program of interlaboratory proficiency testing for the
                                  NVSL so that confidence in its IHC tests is assured.

                                  International standards for laboratory accreditation establish a formal process
NVSL
                                  for the review and recognition of any organization that wants to assure its
Accreditation
                                  customers of the precision, accuracy, and repeatability of results. To attain
Should be Actively
                                  and maintain laboratory accreditation, internal reviews are necessary to
Pursued
                                  ensure quality standards are in place. Although APHIS has recognized the
                                  need to obtain accreditation for international recognition as a leader in animal
                                  disease testing programs, it has not established and/or implemented adequate
                                  quality assurance processes to demonstrate it can meet internationally
                                  recognized standards.

 56
      OIE Quality Standard and Guidelines for Veterinary Laboratories: Infectious Diseases.
 57
      The rapid screening test cannot be conducted on a sample that has been preserved in formalin.
 USDA/OIG-A/50601-10-KC                                                                                    Page 38
                              The USDA Quality Assurance and Laboratory Accreditation Action Plan
                              states that in order to be internationally recognized as a leader in animal
                              health, NVSL needs to achieve International Organization for
                              Standardization/International Electrotechnical Commission (ISO/IEC)
                              17025 accreditation. 58 Also, the Action Plan recognizes that NVSL needs to
                              assume a leadership role in supporting appropriate quality assurance
                              improvement programs consistent with the ISO/IEC Standard 17025 for
                              laboratories. The plan includes a recommendation to develop and implement
                              a quality assurance and control system for both federal and State laboratories
                              that meets or exceeds international standards and to maintain and disseminate
                              an active database of laboratories meeting these standards. The plan states
                              that NVSL does not have any external accreditation status, even though this
                              has been a longstanding goal for over 5 years.

                              According to APHIS’ Strategic Plan, dated February 2001, the NVSL is
                              striving towards ISO 17025 accreditation. Although the Transmissible
                              Spongiform Encephalopathy (TSE) 59 testing program was reviewed in
                              1998 by external parties, there have been no further external assessments
                              made. The strategic plan calls for repeat reviews over the next 5 years to
                              determine what, if any, improvements have been made and to target areas
                              that may still need work. The NVSL Director advised that the NVSL hired a
                              contractor to begin the ISO accreditation process starting June 2005, with a
                              target completion date of FY 2006 or 2007.

                              In contrast, all four FSIS laboratories are accredited under ISO Standard
                              17025. Also, all seven BSE contract laboratories (as well as four of
                              five additional laboratories approved for BSE testing) are accredited by the
                              American Association of Veterinary Laboratory Diagnosticians. The
                              additional laboratory approved for BSE testing that has not been accredited is
                              the APHIS Federal Diagnostic Laboratory in Frankfort, Kentucky.




58
   The International Organization for Standardization (ISO) has issued standards that apply to any organization that wants to
assure its customers of precision, accuracy, and repeatability of results. An accreditation program is a formal process for
recognition of laboratory quality and capability by an independent authority. It requires that laboratories successfully
participate in such a program on an ongoing basis in order to maintain their recognition status. The independent authority
awards or denies recognition based on stipulated requirements for quality and capability. However, it is recognized that in
some laboratories, this level of compliance may be difficult to achieve for a variety of reasons. Lack of formal
accreditation should not necessarily preclude participation in proficiency testing schemes.
59
   BSE is a TSE along with scrapie and chronic wasting disease.
USDA/OIG-A/50601-10-KC                                                                                             Page 39
                               In our Phase I report, we discussed our concerns that the last external peer
External Peer                  review of the TSE section of the NVSL was conducted in 1998. 60 The
Review Not                     1998 peer review was conducted 6 years prior to the expanded BSE
Conducted                      surveillance program. We did not identify any internal NVSL procedures
                               specifying how frequently a peer review should be performed. An NVSL
                               official stated a peer review has been delayed because of animal health
                               emergencies and other priorities. The review of the TSE section is now
                               scheduled for 2006.

                               We noted a 2000 procedure 61 covering NVSL that provided some guidance
                               on establishing a peer review process for validation of laboratory services
                               against international standards for high-impact foreign animal disease threats
                               and endemic diseases. However, neither the 2000 document nor a 1998 SOP
                               specified timeframes for conducting peer reviews.

                               APHIS has not conducted an internal review of the NVSL BSE laboratory
Periodic Quality               since 2002. The 2002 review found that 1) current laboratory documents did
Assurance Reviews              not reflect the current process or procedure the laboratory was following,
Have Not Been                  2) critical processes performed in the laboratory were not formally
Conducted                      documented, and 3) data corrections were not made according to the process
                               approved in the SOP.          NVSL could not provide documentation to
                               demonstrate these issues were corrected. To attain and maintain laboratory
                               accreditation, internal reviews are necessary to ensure quality standards are in
                               place. According to NVSL officials, management reviews had not been
                               performed because the NVSL did not have a quality assurance manager.
                               Also, the priorities have been placed on emergency program operations.

                               OIE 62 guidelines provide that the laboratory shall periodically conduct
                               internal audits of its activities to verify that its operations continue to comply
                               with the requirements of its quality system and this Standard. Such audits
                               shall be carried out by trained and qualified personnel who are, wherever
                               resources permit, independent of the activity to be audited. The quality
                               system and test related activities shall be reviewed by management at least
                               once per year.

                               An NVSL official stated that the NVSL recently hired five quality assurance
                               managers.




    60
       The review document we were provided was dated 1995 but NVSL later informed us that the review was actually
    conducted in 1998.
    61
       Validation of Laboratory Activities through Peer Review SOP, dated October 16, 2000.
    62
       OIE Quality Standard and Guidelines for Veterinary Laboratories: Infectious Diseases.
    USDA/OIG-A/50601-10-KC                                                                               Page 40
                                  The SOP for oversight of contract laboratories states that peer
 Contract                         reviews/inspections of the contract laboratories would be conducted.
 Laboratory                       However, the SOP does not mention the frequency of inspections. NVSL
 Monitoring Could                 and APHIS headquarters officials stated that the inspections would be
 Be Improved                      conducted annually. In comparison, the U.K. reviews its testing laboratories
                                  as they come online, after they have been testing for a few months, and
                                  thereafter, on an annual basis. The NVSL conducted the first round of
                                  contract laboratory peer reviews in August – October 2004.

                                  The NVSL did not have a followup process in place to ensure that problems
                                  found during the inspections were corrected. An NVSL official stated that
                                  the original plan was for the reviewers to ensure corrective actions were
                                  taken on any deficiencies during the following review (1 year later).
                                  However, the plan has been revised, starting with the second round of
                                  reviews, to send the contract laboratories a letter 2 weeks after the review to
                                  request evidence of corrective actions on any deficiencies. He also stated that
                                  there were no major deficiencies identified during the first reviews. On
                                  August 24, 2005, NVSL officials said they were in the process of scheduling
                                  the second round of contract laboratory reviews.

                                  Written procedures 63 are in place for APHIS personnel to use during the
                                  review of the compliance of contract laboratories. We obtained the testing
                                  checklist (laboratory inspection worksheet) 64 for seven laboratories. Issues
                                  noted by the review teams included confidentiality statements not signed by
                                  all TSE laboratory staff, no record of BSE laboratory temperature and
                                  humidity, the need for SOP changes, and the lack of seals for inconclusive
                                  samples to be submitted to NVSL. 65

Contract                          NVSL conducted proficiency testing at the contract laboratories prior to the
Laboratory                        expanded surveillance effort. The NVSL did not conduct any further
Proficiency Testing               proficiency testing at the contract laboratories until 9 months into the
                                  expanded surveillance program. AMS, in its compliance reviews dated
                                  September 2004 and March 2005, questioned the lack of proficiency testing
                                  at BSE contract laboratories.

                                  The Quality Assurance: Proficiency Testing of BSE Testing Laboratories by
                                  NVSL SOP, dated August 13, 2004, states that APHIS will use two major
    63
       Audit of NVSL Contract Laboratories Conducting BSE ELISA Tests Standard Operating Procedure (SOP), dated
    August 11, 2004.
    64
       The testing checklist covers such areas as receipt and login, sample tracking and handling, cut-in, ELISA test procedure,
    sample storage, laboratory equipment and environment, quality assurance, test records, reporting results, and understanding
    of USDA expectations and procedures. Upon completion of the review, the APHIS reviewer is to discuss findings with the
    laboratory contact person and leave a copy of the laboratory inspection worksheet with the laboratory. If there are
    noncompliant issues, followup correspondence in the form of a report will be sent back to the laboratory after discussion
    has been held and agreements made with the laboratory regarding compliance.
    65
       One laboratory we visited in February 2005 still did not have seals for inconclusive samples.
    USDA/OIG-A/50601-10-KC                                                                                            Page 41
                                 methods to evaluate the quality of the testing at the contract laboratories:
                                 1) evaluation of an initial proficiency test and continued passing performance
                                 on the proficiency test every 6 months and 2) weekly monitoring of test
                                 performance and comparison of this performance to other laboratories in the
                                 network and to previous performance of the contract laboratory (see
                                 discussion on sample controls).

                                 The contract laboratories were given 20 samples (check tests) from the NVSL
                                 before the laboratories began BSE testing in June 2004. The NVSL did not
                                 conduct any subsequent proficiency testing at the contract laboratories until
                                 March 2005 (9 months later). An NVSL official stated that the NVSL
                                 originally intended to provide the contract laboratories with a sample of
                                 20 check tests annually. However, the NVSL reevaluated the frequency of
                                 check tests and determined check tests should be performed more frequently.
                                 NVSL officials explained that the proficiency tests would be performed twice
                                 a year at the contract laboratories, not necessarily every 6 months. On
                                 August 24, 2005, NVSL officials said they were in the process of conducting
                                 the next round of contract laboratory proficiency testing.

                                 In the U.K., proficiency testing panels consisting of 10 homogenized samples
                                 are issued to rapid testing laboratories three or four times a year. USDA
                                 needs to consider more frequent proficiency testing so that confidence in its
                                 testing program is assured.

Sample Controls for              The NVSL discontinued its requirement for contract laboratories to submit
ELISA Tests Were                 sample optical density (OD) values (raw test data) to NVSL after
Discontinued                     December 2004. The OD value is used to define the sample as positive or
                                 negative relative to a cutoff value predetermined by the manufacturer. AMS
                                 reported noncompliance with this NVSL SOP in their March 2005
                                 compliance report. Contrary to the SOP, 66 NVSL officials determined it was
                                 unnecessary to continue reviewing OD values, because they concluded that
                                 the data through December 2004 was “very strong.” As a result, there was
                                 reduced assurance that contract laboratory performance problems and
                                 equipment failures could be identified in a timely fashion.

                                 Other countries, however, require the submission of, and evaluate raw test
                                 data from each laboratory in their network. The U.K. periodically requires
                                 the submission of raw test data from each laboratory so that evidence of
                                 variability in test performance can be detected. In Canada, part of the
                                 National BSE Reference Laboratory’s Quality Assurance responsibility is to

    66
       The Quality Assurance: Proficiency Testing of BSE Testing Laboratories by NVSL SOP, dated August 13, 2004, states
    that each laboratory will provide NVSL with the Excel spreadsheet output from all runs to cover testing for the previous
    7 days. All laboratories will provide the output on the same day. NVSL will collate the data and provide mean OD values
    from each laboratory to all of the network laboratories. This data will allow both NVSL and the partner laboratories to
    observe the ODs on control and surveillance samples, which can indicate technical proficiency and allow problems to be
    identified before they affect program integrity. It will also allow validation of numbers of samples run in the network.
    USDA/OIG-A/50601-10-KC                                                                                        Page 42
                              monitor, monthly, the median OD values of the screening laboratories.
                              Canadian officials advised that this process provides a good understanding of
                              how the individual laboratories perform and how to interpret higher negative
                              OD values, if they occur.

                              According to the OIE Quality Standard and Guidelines for Veterinary
                              Laboratories: Infectious Diseases, interlaboratory test comparisons may be
                              undertaken for a variety of reasons, which may include:

                              1.   Determining a laboratory’s capability to conduct specific diagnostic tests.
                              2.   Checking or certifying the performance of individual operators.
                              3.   Checking or certifying the calibration of instrumentation.
                              4.   Harmonizing existing test methods.
                              5.   Evaluating new test methods.
                              6.   Assigning values and ranges to standard materials.
                              7.   Resolving interlaboratory differences.

                              The OIE guidelines also provide that the laboratory shall have policy and
                              procedures that ensure that nonconforming testing (conditions that exist that
                              have or could adversely affect the reliability of test results) is detected and
                              promptly corrected.

                              After December 2004 data were submitted, the NVSL instructed the contract
                              laboratories to no longer forward the OD values to the NVSL for their review
                              because the NVSL concluded that it was not necessary to continue the
                              analysis of the OD data. However, NVSL decided that it would be prudent
                              for all laboratories to continue to collect and save the OD data should
                              analysis be required in the future. We concluded that NVSL should continue
                              to obtain and evaluate OD test values on an ongoing basis to evaluate
                              laboratory performance and identify possible equipment problems. 67 This
                              review should also include NVSL’s own test data.

                              We obtained the OD summary report prepared by NVSL based on BSE OD
                              data from the weeks of September 21 - December 18, 2004. The report
                              stated:

                                   Overall findings indicate that OD values are very consistent and have
                                   very low Standard Deviations. Higher mean ODs and Standard
                                   Deviations trend towards having negative samples outside the expected
                                   population range of the negative ODs. Previous data from Europe

67
   Three laboratories had problems with the New Sample Pr(p)eparator machine, such as plugged tips and the robotic arm
sticking. According to the manufacturer’s web site, the new Sample Pr(p)eparator is a robotic system that automates the
purification portion of the manufacturer’s second-generation test. In addition, one laboratory had problems with the plate
washers. From October 13, 2004, to January 31, 2005, this laboratory had seven positives on the first rapid test that were
negative on the two repeat rapid tests. In response to those seven occurrences, the laboratory cleaned the deep plate washer
and flush washer, and called the manufacturer for washer service.
USDA/OIG-A/50601-10-KC                                                                                            Page 43
                         indicated an association of higher ODs and larger Standard Deviations
                         with an increased number of false positives (initial reactors), but this
                         does not appear to be the case with our data.

                   When asked about this information, an NVSL official said:

                         There did appear to be a trend towards laboratories with higher ODs
                         resulting in more ODs outside the expected range, but these OD
                         warnings are just an indicator that the OD is higher than would normally
                         be expected in a statistical population, but there did not seem to be any
                         significant correlation to this finding and incidence of initial reactors.

                   The report also noted “…A few interesting trends...in some laboratories and
                   these findings will be pursued on an individual laboratory basis.” We
                   questioned NVSL officials about the trends found with the raw test data. An
                   NVSL official said one laboratory consistently had higher OD values, but this
                   did not result in any initial reactors. NVSL discussed this finding with the
                   laboratory including several possible explanations; NVSL suggested that the
                   laboratory discuss this with the kit manufacturer.

                   We contacted the manufacturer and learned that some contract laboratories
                   contacted them because they were getting low OD value for positive controls.
                   The manufacturer determined it was caused by various problems, depending
                   on the situation in the laboratories. In one laboratory, it was due to hot and
                   humid conditions in the laboratory (air conditioning was installed); another
                   laboratory was not letting their controls warm up to room temperature.
                   Another laboratory was experiencing higher OD values for samples; the
                   manufacturer determined their plate washer was not being cleaned well; they
                   visited the laboratory, replaced the manifold and tubing on the washer, and
                   showed them how to clean it to give maximum efficiency.

                   Because NVSL discontinued obtaining and analyzing OD data shortly after
                   they determined the November 2004 sample to be negative, we determined it
                   was necessary to confirm that there were no further positive reactive samples.
                   We requested APHIS obtain the OD values for the BSE tests conducted by
                   laboratories through June 2005. We reviewed this data to determine if there
                   were any samples above the positive cutoff. We found 28 instances at the
                   7 contract laboratories where BSE sample OD values were above the positive
                   cutoff. We contacted the laboratories and obtained documentation that
                   showed, in each of the 28 cases, the 2 required repeat tests were conducted
                   and produced negative results. APHIS should continuously review and
                   analyze this data to identify any trends needing followup or corrective
                   actions.

                   Our interviews with BSE contract laboratory officials disclosed that they
                   found the OD value report from the NVSL helpful because they could
USDA/OIG-A/50601-10-KC                                                                    Page 44
                   compare their OD values to those at the other laboratories; it provided an
                   indication of how well their laboratory was performing compared to other
                   laboratories.

Recommendation 7

                   Expedite the process for the NVSL, and other APHIS laboratories, to become
                   ISO 17025 accredited. Establish the necessary management control review
                   processes, including external peer reviews, to achieve and maintain
                   accreditation.

                   Agency Response.

                   NVSL is implementing its 2003 Plan for Quality Assurance. The plan
                   includes full-time quality managers in each laboratory (and one for common
                   services) and a contract consultant, which are all in place. The laboratory
                   system and a variety of high-consequence tests across all laboratories and
                   multiple technologies, including BSE testing, will be accredited to the
                   ISO/IEC 17025 standard by December 31, 2006. Internal audits of the
                   high-consequence testing areas have been accomplished, corrective actions
                   are being formulated, and management reviews are scheduled. In the case of
                   the transmissible spongiform encephalopathy (TSE) testing internal audit, the
                   results of the 2003 internal audit were incorporated and corrective actions for
                   all findings written. NVSL plans to assist other APHIS (e.g., State-Federal)
                   and network laboratories in improving their quality assurance systems using
                   established international guidelines as it progresses in its accreditation.

                   To ensure the most appropriate technical methods are being followed within
                   the quality system, the external, international peer review process will
                   continue, with reviews of high-impact program areas being reviewed
                   approximately annually, on a 5-year cycle. Its findings will be incorporated
                   into the NVSL corrective action and management review system. NVSL
                   scientists will continue to participate in international conferences and
                   collaborations to stay abreast of the latest techniques.

                   OIG Position.

                   We accept management decision.

Recommendation 8

                   Develop and implement a formal and regular laboratory proficiency testing
                   program at the NVSL and any APHIS laboratory that will participate in
                   future animal disease surveillance and/or testing programs.



USDA/OIG-A/50601-10-KC                                                                   Page 45
                    Agency Response.

                    APHIS concurs with this recommendation and will review all current
                    proficiency testing programs and revise them as appropriate by
                    December 31, 2006. NVSL will ensure that formal and regular laboratory
                    proficiency testing programs are in place for all future animal disease
                    surveillance and/or testing programs.

                    OIG Position.

                    We accept management decision.

Recommendation 9

                    Develop controls to ensure that all established laboratory quality assurance
                    processes are followed and any conditions noted are reviewed for followup
                    and action, as appropriate.

                    Agency Response.

                    APHIS concurs with this recommendation. By December 31, 2006, APHIS
                    will develop controls to ensure that all current laboratory quality assurance
                    processes are followed and to ensure that any necessary follow-up action is
                    taken.

                    OIG Position.

                    We accept management decision.

Recommendation 10

                    Review and analyze continuously, OD values for contract laboratories and
                    resolve any trends that warrant further evaluation or corrective actions.

                    Agency Response.

                    APHIS concurs with this recommendation. NVSL has an SOP in place that
                    describes how it will review and analyze OD values. The SOP “Quality
                    Assurance: Proficiency Testing of BSE Testing Laboratories by NVSL,”
                    (GPPISOP0033.03) states that weekly monitoring will be performed by
                    NVSL until no longer deemed necessary by the Chief of the Pathobiology
                    Laboratory, NVSL. Each laboratory will provide NVSL with the Excel
                    spreadsheet output from all runs to cover testing for the previous 7 days.
                    NVSL will collate the data and provide mean OD values from each
                    laboratory to all of the network laboratories. This will be coded so as not to
                    reveal laboratory identity of other laboratories. This data will allow both
USDA/OIG-A/50601-10-KC                                                                   Page 46
                   NVSL and the partner laboratories to observe the ODs on control and
                   surveillance samples, which can indicate technical proficiency and allow
                   problems to be identified before they affect program integrity. It will also
                   allow validation of numbers of samples run in the network. NVSL will also
                   review data as deemed scientifically justified such as on special request, upon
                   inspection, and during the review of proficiency data. It should be noted that
                   there are no methods recognized by the test manufacturer or by international
                   standards to determine how BSE ELISA OD data should be analyzed.
                   Accordingly, NVSL will, by March 1, 2006, begin to analyze the weekly OD
                   values by laboratory to determine what seems to be a normal range of values.
                   After looking at this data for two months, NVSL will establish an acceptable
                   range of OD values that do not of themselves raise concerns. After
                   establishing that range, NVSL will contact any laboratory which submits
                   samples for a week which do not fall within the range to determine if there
                   are important concerns.

                   OIG Position.

                   We accept management decision.




USDA/OIG-A/50601-10-KC                                                                   Page 47
Section 3. Controls (Firewalls) to Prevent BSE in the Food Supply

                               On January 12, 2004, FSIS promulgated a series of regulations designed to
                               protect the human food supply from contamination by BSE. 68 These
                               regulations identified certain beef tissues and products that could possibly
                               contain the infective agent for BSE and established controls 69 to require
                               segregation and destruction of such materials so they do not enter the food
                               supply; FSIS declared these beef tissues and products to be specified risk
                               materials (SRM). Also, FSIS’ ongoing inspection processes at slaughter and
                               processing establishments are a critical control to ensure proper sanitation
                               procedures, and prevents high-risk animals, nonambulatory cattle and cattle
                               with clinical signs consistent with BSE, from being slaughtered and entering
                               the food supply.

                               FSIS conducts ante mortem inspection of cattle prior to slaughter. Ante
                               mortem inspection involves the observance of cattle at rest and in motion
                               from both sides to identify any abnormal or diseased cattle. This process is
                               critical to identify any cattle exhibiting clinical signs consistent with BSE.
                               Such cattle must be condemned.

                               Beef slaughter and processing establishments are required to incorporate
                               controls and procedures for handling SRMs into one of three types of
                               preexisting operational plans: Hazard Analysis and Critical Control Point
                               (HACCP), 70 Sanitation Standard Operating Procedures (SSOP), 71 or
                               prerequisite programs. 72 Establishments are required to develop, implement,
                               and maintain written procedures for the removal, segregation, and disposition
                               of SRMs. FSIS inspectors verify that the plant’s procedures for handling
                               SRMs are adequately described in its operating plans and that the
                               establishment has complied with Federal requirements for handling SRMs. 73

                               We reviewed the SRM plans of 12 establishments visited, observed FSIS
                               inspection procedures designed to evaluate, monitor, and ensure compliance
                               with the firewalls, and observed controls in operation. We found that
                               improvements can be made in the following areas:



68
   Federal Register, Vol. 69, No. 7 (Docket No. 03-025IF), 9 CFR Parts 309, 310, 311, 318, and 319.
69
   USDA has used the term “firewall” to describe the controls put in place to prevent BSE from entering the food supply.
70
   HACCP is a systematic preventative approach to food safety that addresses physical, chemical, and biological hazards as
a means of prevention rather than finished product inspection. To address food safety hazards, key actions, known as
Critical Control Points, can be taken to reduce or eliminate the risk of the hazards being realized.
71
   SSOPs are to describe all procedures an official establishment will conduct daily, before and during operations, sufficient
to prevent direct contamination or adulteration of product(s).
72
   Prerequisite programs provide the basic environmental and operating conditions that are necessary for the production of
safe, wholesome food.
73
   FSIS Notice 4-04, dated January 9, 2004, and FSIS Notice 9-04, dated January 23, 2004.
USDA/OIG-A/50601-10-KC                                                                                              Page 48
                                 •   FSIS approved an alternate ante mortem inspection procedure that
                                     limited the process and the number of cattle subject to an ante mortem
                                     inspection. During the audit, FSIS took action to discontinue this
                                     procedure.
                                 •   FSIS does not have a management information system capable of
                                     readily identifying the scope and trends of noncompliance violations
                                     relating to SRMs.
                                 •   Nine of 12 establishments reviewed, did not prepare adequate SRM
                                     plans and/or records documenting establishment compliance and FSIS
                                     process validation.
                                 •   Six establishments reviewed did not comply with their SRM plans
                                     and/or maintain records to support the process followed.
                                 •   FSIS does not maintain documentation of their reviews of
                                     establishment compliance with its SRM procedures.
                                 •   FSIS did not always follow pre-operational sanitation inspection
                                     procedures.

                             We also identified, in 2 of 12 establishments reviewed, that FSIS did not
                             follow consistent policy in condemning nonambulatory cattle.

                             FSIS has already taken action to strengthen its ante mortem inspection
                             procedures and has addressed the specific cases identified during the audit.


Finding 5                    FSIS’ Alternative Ante Mortem Inspection Procedures Reduced
                             the Likelihood of Detecting Targeted Animals

                             Alternative ante mortem inspection procedures followed at some slaughter
                             and processing establishments reduced assurance that abnormal and diseased
                             animals, including cattle exhibiting CNS symptoms, were identified and
                             condemned. The alternative ante mortem inspection procedure had been in
                             place for over 10 years and its effectiveness and risks had not been
                             reassessed. During this period, there have been significant changes to FSIS
                             inspection processes, its organizational structure, as well as the emergence of
                             international animal diseases, such as BSE. During the audit, FSIS took
                             action to discontinue the alternative ante mortem inspection process.

                             International guidelines 74 recommend that all cattle slaughtered for food be
                             subject to ante mortem inspection. APHIS posted information on its web site
                             that did not fully disclose the ante mortem procedures used. The information
                             posted on the web site states:



74
 Office International des Epizooties (OIE) Animal Health Code Chapter 2.3.13 recommends that all slaughtered cattle and
meat offered for export should be from cattle that were subjected to ante mortem examination.
USDA/OIG-A/50601-10-KC                                                                                       Page 49
                                    All cattle slaughtered in federally inspected establishments in the United
                                    States are subject to inspection by USDA’s FSIS inspectors. Cattle are
                                    carefully examined to identify any symptoms of disease, including signs
                                    of CNS impairment. Cattle that are suspect for any reason are then
                                    reexamined by an FSIS veterinarian to determine whether the animal is
                                    eligible for slaughter. No animal that shows signs of systemic illness
                                    and disease is allowed into the human food supply.

                              Under alternative inspection procedures, only 5-10 percent of the cattle were
                              subject to the traditional ante mortem examination, which involves observing
                              the cattle at rest and in motion from both sides. The remaining 90-95 percent
                              was observed only at rest in holding pens. 75 This procedure was generally to
                              be used only at establishments that slaughtered young animals coming from
                              feedlots or other sources considered unlikely to supply older or diseased
                              cattle. However, our review disclosed that establishments following the
                              alternative procedure did receive cattle 30 months old and older; these cattle
                              now fall under SRMs restrictions.

                              At the time of our fieldwork, the most recent procedure 76 for the alternative
                              ante mortem inspection program became effective in June 1995, and it had
                              not been reassessed since its implementation. The Notice provided that
                              establishments that have a good history of regulatory compliance, have
                              suitable facilities and volume of operations, have condemnation rates within
                              the national average for fat cattle, apply the alternative ante mortem
                              inspection procedures only to domestic livestock (animals fed out in the
                              United States 77 ), and segregate abnormal animals, and hold animals (normal
                              and abnormal) for examination by FSIS personnel may obtain approval for
                              alternative ante mortem inspection procedures. The notice also required that
                              the approval to use the alternative ante mortem inspection procedure was to
                              be re-evaluated and approved by FSIS every 5 years.

                              FSIS could not provide us with a list of establishments approved for the
                              alternative inspection procedure without doing a special data call to each
                              FSIS district office. At our request, FSIS identified 33 establishments using
                              the alternative ante mortem inspection procedure. During FY 2004, these
                              establishments slaughtered 23.5 million head; approximately 650,000 were
                              identified in inspection records as bulls and cows (most likely 30 months of
                              age or older). FSIS stated they expected that older animals would be
                              presented in separate lots so that the traditional inspection could be provided
                              for these animals while the remainder of the younger cattle could receive the
                              alternative procedure. During the data call, FSIS inspectors at 3 of the
                              33 establishments reported they used the alternative ante mortem inspection
75
   We observed holding pens with 50-100 cattle at the establishments visited.
76
   FSIS Notice 37-95, dated June 2, 1995, Alternative Ante Mortem Inspection Procedures.
77
   Before the ban on imported live cattle from Canada, this applied to imported Canadian cattle fed out in the United States.
FSIS Notice 37-95 states that animals fed out in the United States are considered to be domestic livestock.
USDA/OIG-A/50601-10-KC                                                                                             Page 50
                               procedure on all cattle presented for slaughter, including bulls and cows.
                               These three slaughter plants reported slaughtering over 93,000 bulls and cows
                               during FY 2004. FSIS instructed the inspection staff at the three plants to
                               modify the ante mortem procedures used at these plants, although one of the
                               three plants had already discontinued the procedure for cows and bulls. Also,
                               our field visits to plants using the alternative inspection procedure noted that
                               cattle over 30 months of age were not always presented for ante mortem
                               inspection in separate lots as envisioned by FSIS. As a result, the alternative
                               procedures were applied to these older animals.

                               Two FSIS district offices did not have documentation on file justifying the
                               use of the alternative procedures for 8 of the 33 plants. Also, three FSIS
                               district offices had not updated the slaughter establishment approvals for
                               using the alternative ante mortem inspection procedures within the last
                               5-years, as required.

                               Our visits to six78 establishments using the alternative ante mortem inspection
                               procedure disclosed that a significant number of cattle were determined to be
                               30 months old or older by plant personnel during detention checks. We
                               found FSIS inspection personnel could not provide any documentation as to
                               how the alternative ante mortem methodology was used at each location.
                               Specifically, there was no documentation to show which lots of cattle
                               received the traditional ante mortem inspection and which lots of cattle
                               received the alternative ante mortem inspection. Also, because of the lack of
                               records identifying the age of the animals, it was not possible for the
                               establishment to identify and segregate cattle 30 months of age or older prior
                               to ante mortem inspection. FSIS inspectors rely on the plant to segregate and
                               hold abnormal and diseased (suspect) animals for inspection.

                               FSIS issued noncompliance notices on ante mortem inspection problems at
Cattle Slaughtered             6 of the 33 plants using the alternative ante mortem inspection. During the
Without Any Ante               period October 1, 2003, through May 31, 2005, FSIS issued 8 noncompliance
Mortem Inspection              records (NR) where they identified 277 cattle slaughtered without receiving
                               any ante mortem inspection. In addition, 42 cattle at an additional 6 plants
                               using the traditional ante mortem inspection procedures were slaughtered
                               without any ante mortem inspection. In at least two cases, the cattle had been
                               identified as suspect animals by plant personnel prior to slaughter. Because
                               noncompliance was identified, FSIS did post mortem examinations of the
                               carcasses and offal. 79



 78
   The six plants included three plants in our original sample and three added plants that reported slaughtering adult cattle.
 79
    FSIS advised that the NRs identified situations where cattle had not been presented for ante mortem inspection. FSIS
 concluded that, at 4 of these 12 establishments, 224 head of cattle referenced on the NRs entered commerce. These four
 establishments slaughtered about 3.2 million head in 2004. At the other eight establishments, none of the animals
 referenced on the NRs entered commerce.
 USDA/OIG-A/50601-10-KC                                                                                             Page 51
Conclusion                   During the audit, FSIS officials agreed that the alternative ante mortem
                             policy needed to be re-evaluated.         On July 12, 2005, FSIS issued
                             Notice 46-05 that discontinued the alternative ante mortem inspection for
                             cattle, effective July 26, 2005. Also, this notice reiterated the appropriate
                             disposition of livestock failing to receive ante mortem inspection; the
                             carcasses cannot be permitted to be marked as inspected. Therefore, we are
                             making no further recommendations.


 Finding 6                   Effectiveness of SRM Slaughter Controls and FSIS Oversight
                             Could Not Always be Determined

                             Federal regulations require establishments to develop, implement, and
                             maintain written procedures regarding the removal, segregation, and disposal
                             of SRMs. The establishments were to incorporate the procedures into their
                             HACCP plans, SSOPs, or other prerequisite programs. 80 FSIS inspectors
                             were to review the SRM plans for sufficiency and ensure compliance. We
                             could not, however, determine whether SRM procedures were followed
                             and/or were adequate in 9 of 12 establishments reviewed due to the lack of
                             specificity in some SRM plans, as well as records documenting establishment
                             compliance and FSIS process validation. We did not identify SRMs entering
                             the food supply; however, in one plant, the FSIS inspector accompanying us
                             identified SRM in a product, immediately issued an NR, and held the product
                             until it was reworked to remove the SRM.

                             Without an animal identification system, APHIS and FSIS rely on meat
Reliable
                             establishments to determine the age of cattle slaughtered. While meat
Documentation
                             establishments determine the age of cattle slaughtered, FSIS inspection
of Age is
                             procedures 81 require that those determinations be periodically spot checked
Lacking
                             to determine accuracy. FSIS also provides procedures 82 for determining, by
                             dentition, whether cattle are 30 months of age and older. The guidance states
                             that veterinary medical officers (VMO) are to examine establishment records
                             that report the age of cattle (i.e., birth certificate, cattle passport, or other
                             form of identification) because cattle 30 months of age and older contain
                             additional SRMs that are prohibited from entering the food supply. If the
                             VMOs examine the records and find significant reasons for questioning their
                             validity, they are to verify the age of the cattle through dental examination.
                             We found no documentation of the verification of dentition by FSIS
                             inspectors, other than when NRs were issued for noncompliance. 83



 80
    FSIS Notice 4-04, dated January 9, 2004, FSIS Notice 5-04, dated January 12, 2004, and FSIS Notice 9-04, dated
 January 23, 2004.
 81
    FSIS Notice 9-04, dated January 23, 2004.
 82
    FSIS Notice 5-04, dated January 12, 2004.
 83
    See the discussion on the SRM verification tasks scheduled under the performance based inspection system (PBIS).
 USDA/OIG-A/50601-10-KC                                                                                    Page 52
                                During our visits to 12 plants, we found that records generally did not exist to
                                document the ages of cattle presented for slaughter. However, to ensure
                                compliance with SRM restrictions, establishments informed us that when
                                animals under 30 months of age are slaughtered with older cattle, they
                                process those animals as if they were 30 months of age and older, i.e.,
                                removing SRMs. Five of the 12 plants reviewed stated they also identify age
                                through dentition.

                                FSIS issued a notice that directed the agency’s inspection personnel at
Establishment                   establishments that slaughter cattle or process carcasses to conduct awareness
SRM Plans Were                  meetings with management. 84 These meetings were to (1) make managers
Inadequate                      aware of regulatory requirements for handling SRMs, (2) directed them to
                                incorporate the appropriate controls and procedures into one of three types of
                                preexisting operational plans (HACCP, SSOP, or program prerequisite), and
                                (3) asked them specific questions that their controls and procedures would be
                                expected to address. At a following meeting, the inspection personnel were
                                to verify that the establishments’ plans had incorporated the appropriate
                                controls and procedures. In a subsequent notice, FSIS provided a
                                methodology for inspectors to use to verify the establishments had properly
                                designed and executed their procedures. 85

                                Despite the notices, at one plant we visited, the FSIS inspector was not aware
                                of the requirements for verifying how the establishment’s controls and
                                procedures were implemented. Although inspectors at the other plants
                                indicated that they had followed the verification procedures, they did not
                                document what they did or found. Accordingly, we could not validate that
                                the verifications were done properly, or at all. This proved to be a concern
                                because in four plants reviewed, we found the procedures were not followed,
                                were general in nature, or did not include specific processes and/or
                                procedures for the removal, segregation, or disposal of SRMs. 86

                                Also, in three establishments visited, there were no written procedures in
                                place to ensure that SRMs remaining in meat shipped to a downstream
                                processing plant were removed. FSIS’ verification instructions for properly
                                executed controls, however, specify that plants must “have procedures to
                                ensure that SRMs are removed at the receiving establishment.” 87 Instead, the
                                shipping plants included notations on bills of lading that the meat product
                                contained SRMs, or marked carcasses with blue ink to identify target cattle
                                (30 months old or older) for downstream processors.



  84
     FSIS Notice 4-04, January 9, 2004.
  85
     FSIS Notice 9-04, January 23, 2004.
  86
     9 CFR 310.22 (d)(4) provides that establishments shall maintain daily records sufficient to document the implementation
  and monitoring of the procedures for the removal, segregation, and disposition SRMs and any corrective actions taken.
  87
     FSIS Notice 9-04, January 23, 2004.
  USDA/OIG-A/50601-10-KC                                                                                          Page 53
                      The four downstream plants we visited properly handled all carcasses they
Originating Plants
                      received. However, in the absence of specific SRM shipping procedures, we
Did Not Control
                      did observe control weaknesses that had the potential to be problematic. For
Downstream
                      example, we found a bill of lading at a downstream facility that identified
Processors
                      4 carcasses as being from cattle 30 months old or older; there were
                      actually 11. The plant properly handled the carcasses because they had been
                      marked with blue ink. At another downstream plant, we found that shipping
                      companies did not always mark carcasses containing SRMs and the
                      downstream processor relied only on bills of lading.

                      The downstream processors we visited responded to such potential problems
                      by processing all carcasses as if they were 30 months old or older. In spite of
                      their diligence, regulatory requirements place responsibility on the shipping
                      plants to develop appropriate procedures and controls to ensure that the
                      downstream plants properly handle SRMs. On October 6, 2005, FSIS issued
                      notice 68-05 to clarify verification activities inspection personnel are to
                      conduct at establishments that transport or receive cattle carcasses or parts
                      that contain SRMs. This notice details the requirements to be followed by
                      inspection personnel and establishments in transporting, controlling, and
                      disposing of SRMs in carcasses or carcass parts when the SRMs are not
                      removed during the slaughter process.

                      FSIS provided a methodology to VMOs and inspection personnel at each
Inspectors Did        establishment to guide them in verifying that slaughter and processing
Not Always            establishments properly designed SRM removal controls and procedures.
Identify              While the VMOs and inspectors appeared knowledgeable about the plant
Deficiencies in       inspection program they oversaw, they are not as experienced in evaluating
SRM Controls          the various types of HACCP, SSOP, and prerequisite operational plans as
                      Consumer Safety Officers, Technical Service Center, or District office
                      personnel. Consequently, they did not always identify SRM plans that did
                      not meet regulatory requirements. Since proper procedures and controls over
                      handling SRMs serve as a key BSE firewall, FSIS should ensure that
                      qualified, technical personnel review and assess the adequacy of SRM plans.

 PBIS Does Not        The inspection tasks conducted by FSIS inspectors are partly determined by
 Assign SRM           FSIS’ performance based inspection system (PBIS). Each morning, this
 Verification         system creates a list of tasks that direct the inspectors to review different
 Tasks                aspects of the plant’s operation. The system has general codes that may
                      include SRM handling procedures and practices, but nothing specifically
                      directs the inspection personnel to examine them. Instead, an inspector may
                      examine another part of the plant’s operation that falls within the general
                      inspection task category.

                      Since inspection personnel are not required to document what specifically
                      they inspected (just that they did an inspection in a given category), there is
                      no record of what specific operation is reviewed. In addition, plants that have
   USDA/OIG-A/50601-10-KC                                                                   Page 54
                                 incorporated SRM handling procedures into prerequisite programs may not
                                 be inspected since they do not have associated PBIS tasks; all 12 plants
                                 visited during the audit included SRM procedures in their prerequisite
                                 programs. As a result, we could not evaluate the effectiveness of FSIS’
                                 controls over SRMs removal and disposal.

                                 PBIS generates tasks to perform under the SSOP and HACCP programs.
                                 However, it is up to the inspector to determine what specific checks to make
                                 under each assigned task. For example, if PBIS generates an 01 or 02 task
                                 under SSOP, 88 the inspectors may review SRM controls, or they may check
                                 some other SSOP controls on that day. When they enter their task as
                                 completed in the system, the PBIS record shows only what type of procedure
                                 (e.g., an 01 or 02 procedure), but not specifically what they examined.

                                 With some general tasks, inspectors have been instructed to review SRM
                                 controls. Specifically, inspectors were instructed to verify the proper
                                 execution of prerequisite programs as one of the activities that could be
                                 selected for review when performing HACCP 01 or 02 tasks, or while
                                 verifying the effectiveness of SSOPs under 01B or 01C procedures. In other
                                 words, the SRM controls were to be treated as if they were part of the
                                 HACCP program or SSOPs, but not a separate program area for review.

                                 With one exception, inspection personnel at the plants we visited stated that
                                 they had performed the required procedures.              However, without
                                 documentation, FSIS lacks an effective means of ensuring compliance.
                                 Evidence that establishments and FSIS have followed the proper procedures
                                 for the removal, segregation, and disposal of SRMs is necessary to assure the
                                 public and U.S. trading partners that BSE controls measures are effective.

Recommendation 11

                                 Implement a review and evaluation program to be conducted by FSIS’ Office
                                 of Program Evaluation, Enforcement, and Review to verify the adequacy of
                                 SRM control programs at all beef slaughter and processing establishments.

                                 Agency Response.

                                 OPEER will conduct a review and evaluation program to verify the adequacy
                                 of SRM control programs at beef slaughter and processing establishments.
                                 OPEER will complete the review and evaluation by the end of FY06.




88
     An 01 task requires record review; 02 requires observation of plant performance of the activity being inspected.
USDA/OIG-A/50601-10-KC                                                                                                  Page 55
                    OIG Position.

                    We accept management decision.

Recommendation 12

                    Develop and incorporate tasks within PBIS specific to verify compliance
                    with SRM control procedures and to confirm procedures are followed for
                    properly aging cattle.

                    Agency Response.

                    The Performance Based Inspection System (PBIS) was originally designed as
                    a system for scheduling inspection. As FSIS has begun implementing a more
                    robust risk-based inspection, it has relied upon PBIS more and more for data
                    collection. FSIS recently has made a major enhancement to PBIS to facilitate
                    data collection, but realizes that in the future new systems for collecting
                    inspection and compliance data will be needed. FSIS is in the process of
                    developing these systems.

                    FSIS has developed an enhancement to PBIS that records noncompliance
                    related to the SRM control requirements already in the regulations, through a
                    dropdown menu of keywords and regulatory citations. It will facilitate more
                    comprehensive searches of PBIS data. The regulatory citations in NRs will
                    not only be more accurate but will provide a means by which FSIS analysts
                    can search the PBIS database for NRs relevant to a specific topic or
                    regulatory citation. Aggregate information from the revised NR database will
                    be routinely analyzed to assess trends in non-compliance nationally, by
                    district, by segment of industry, or within other categories. Results will be
                    used to identify specific areas of concern that need to be addressed through
                    enhanced policy development, guidelines for industry, or improved training
                    materials for FSIS personnel.

                    FSIS provided instructions for the use of the PBIS enhancements in FSIS
                    Notice 79-05. Training is also being prepared to reinforce instructions and
                    ensure consistent usage. Inspection personnel began using the PBIS
                    enhancements in December 2005.

                    FSIS is also implementing a multi-layered management control system. That
                    system addresses SRM controls in its performance measures for HACCP
                    procedures and control of condemned and inedible material. These
                    performance measures are overlaid with system design control functions via
                    food safety assessments, and IPPS. The IPPS system will consist of a
                    database with information on the assessment of individual employee skills in
                    using the correct inspection method, decision-making, documentation, and
USDA/OIG-A/50601-10-KC                                                                   Page 56
                    enforcement.    Standard and customized management reports will be
                    generated at all management levels. Once Phase II of AssuranceNet is
                    implemented in June 2006, as described in Recommendation 13, reporting
                    features will include flags for performance measures that are not in
                    conformance with the quantitative performance targets (see exhibit G for
                    FSIS’ response in its entirety).

                    OIG Position.

                    We accept management decision.

Recommendation 13

                    Develop a management reporting system that documents what controls and
                    records were reviewed when assigned tasks are performed by inspectors.

                    Agency Response.

                    FSIS Management Control System

                    FSIS has developed and is in the process of implementing a management
                    control system that provides multi-layered, in-depth management oversight of
                    the public health regulatory activities carried out by its Office of Field
                    Operations (OFO). As described below, full implementation of the
                    management control system is expected by June 2006. This system gives
                    OFO the ability to verify its effectiveness in protecting public health by
                    achieving and maintaining specific levels of performance in its daily food
                    safety and food defense operations. Performance measures for all public
                    health control activities are continuously monitored and any performance that
                    falls below the targeted level is flagged for supervisory intervention. Current
                    management control functions include ante mortem/postmortem,
                    HACCP/pathogen reduction (PR) execution, HACCP/PR design, Recall
                    Management, Enforcement, and Food Defense Reporting of Non-routine
                    incidents. As discussed in the response to Recommendation 12, the
                    management control system includes performance measures for HACCP
                    procedures and control of condemned and inedible material that encompass
                    verification of a plant's control of SRMs.

                    In designing this system, FSIS has included performance measures related to
                    BSE. This is achieved by closely controlling at ante-mortem all cattle with
                    central nervous system (CNS) disorders, dead and nonambulatory disabled
                    cattle and all other ante mortem condemned cattle to assure proper
                    destruction of these condemned animals. FSIS has also initiated a
                    Management Control to assure all condemned animals and products are
                    controlled and properly destroyed. Public Health Veterinarians are required

USDA/OIG-A/50601-10-KC                                                                    Page 57
                   to either sample ante-mortem condemned animals on-site or to ensure that
                   sampling is performed at an alternative off-site location.

                   Evaluating Effectiveness of Management Controls

                   Management control data entered into AssuranceNet is summarized and
                   reported to the FSIS headquarters in the District Management Control
                   Monthly Report. Senior managers review the information to ensure that
                   specific performance targets for each control activity have been met and to
                   identify problem areas. However, the primary means of assuring the
                   effectiveness of its overall management control system is through the OFO
                   In-Plant Performance System (IPPS) that monitors and assesses on-the-job
                   employee performance. Management controls are only as good as the
                   knowledge, skills and abilities of the onsite inspection program personnel.
                   For this reason, IPPS is now directly linked to OFO's public health
                   management controls and specifically assesses inspector performance in
                   carrying out those controls. The System holds supervisors at each level of
                   the organization accountable for regularly performing IPPS reviews that
                   assess the inspector skills, knowledge and abilities that are necessary to
                   effectively monitor in-plant management controls. Deficiencies and failures
                   identified in the District Management Control Monthly Report are linked to
                   inspection findings and accomplishments on a plant specific basis.

                   Implementation Schedule

                   All OFO management controls are monitored by a database system known as
                   AssuranceNet. The purpose of AssuranceNet is to provide a system for
                   recording and monitoring the performance level for each control activity.
                   This provides assurance that the food safety/food defense function, of which
                   each control activity is an integral part, is being carried out in a manner that
                   protects the public health. AssuranceNet also provides for standardized data
                   collection and reporting across the 15 District Offices by providing a
                   common format and recording procedures for all Districts. Implementation
                   of AssuranceNet is occurring in two phases.

                   Phase I

                   Phase 1 of AssuranceNet is the development and use of a SharePoint
                   application that will produce a District Management Controls Report that
                   uses an Excel spreadsheet for the reporting tool. FSIS implemented this
                   phase of AssuranceNet on December 18, 2005. This is an interim stage that
                   permits all of the District Offices to enter their information in a central
                   repository and gain experience in management control procedures. Reports
                   will be run for each District on a monthly basis shortly after the end of the
                   defined reporting period.

USDA/OIG-A/50601-10-KC                                                                    Page 58
                              Phase II

                              Phase 2 of AssuranceNet, which is under final development, will be the fully
                              mature management control application that will be used to submit data and
                              run reports. It is scheduled to be implemented in June of 2006.

                              (See exhibit G for FSIS’ response in its entirety.)

                              OIG Position.

                              We accept management decision.


Finding 7                     FSIS Management Information System Could Not Readily Identify
                              Trends in SRM Violations

                              FSIS’ management information system was not designed to allow FSIS to
                              readily monitor and identify trends or weaknesses in establishments’
                              compliance with specific regulatory requirements, such as controlling SRMs.
                              Noncompliance violations are not indexed to allow the identification of
                              specific violations. Instead, programmers must develop ad-hoc reports to
                              query the narrative (looking for words that may relate to SRMs) and relevant
                              regulation sections of each Noncompliance Record (NR). 89 Also, because
                              the total number of inspection procedures covering SRM compliance is not
                              captured, we could not evaluate the effectiveness of controls or extent of
                              compliance with SRM requirements (i.e., was a violation found for every
                              100 or 1,000 times the inspectors reviewed SRM compliance). As a result,
                              FSIS does not have timely information to monitor and determine the extent of
                              compliance with SRM removal, segregation, and disposal requirements.

                              In December 2004, allegations were made that FSIS did not properly control
                              SRMs and that some inspectors had been prevented from writing SRM
                              related NRs. 90 During our audit, we requested FSIS provide us with all NRs
                              issued and recorded in its PBIS specifically related to SRM violations. PBIS
                              was not designed to readily produce such data inquiries; therefore, ad-hoc
                              programs had to be written to search the narrative in the database to identify
                              possible SRM terms and regulatory citations. 91

89
   An NR serves as FSIS’ official record of an establishment’s noncompliance with one or more regulatory requirements.
Each time performance of an inspection procedure results in a finding of noncompliance, agency personnel are to complete
an NR and provide the establishment’s management with a copy and an opportunity to respond. The NR is considered
“open” until the establishment has brought itself into compliance with the regulatory requirement that has resulted in the
issuance of the NR. When the establishment has brought itself into compliance, the NR is considered “closed.”
90
   Interviews and observations during the audit did not disclose any evidence to support the allegation that FSIS inspectors
were prohibited from writing NRs relating to SRMs.
91
   Instructions for use of PBIS are presented in FSIS Directive 5400.5, dated November 21, 1997.
USDA/OIG-A/50601-10-KC                                                                                            Page 59
                                We requested data from January 12, 2004, through May 31, 2005, and
                                worked with FSIS to define word search queries for SRMs; over 90 different
                                queries were made because the NRs varied depending on the writing styles of
                                the FSIS employees. 92 FSIS identified 1,036 NRs relating to SRM
                                violations. FSIS categorized the violations identified as follows:

                                     •   406 NRs were written for inadequate SRM plans;
                                     •   183 NRs were for cross contamination;
                                     •   22 NRs were for head dressing 93 30 months or older;
                                     •   57 NRs were for improper age determination and dentition;
                                     •   164 NRs were for record keeping; and
                                     •   204 NRs were for SRM removal.

                                We further analyzed each NR to determine whether adequate corrective
                                actions were taken in response to the NRs (see next section). We also
                                determined the following:

                                     •   177 NRs were written at large plants;
                                     •   339 NRs were written at small plants;
                                     •   516 NRs were written at very small plants; and 94
                                     •   4 NRs were written at plants where the size was not categorized.
                                     •   In addition, 693 NRs were written at slaughter establishments and the
                                         remainder at processing establishments.

                                We also noted that between February/March 2004 and October/November
                                2004, the NRs written generally decreased; between October/November 2004
                                and February/March 2005, there was a 30 percent increase in NRs written. In
                                the next 2 months, NRs written decreased by about 30 percent. While it
                                would be reasonable to expect NR citations to steadily decrease over time
                                after implementation of controls, there is no apparent explanation for the
                                30 percent increase and subsequent 30 percent decrease in NRs written.




92
     An example of some of the queries used on the narrative and/or relevant regulation sections of the SRM NRs included:
“30 months,” “thirty months,” “30 plus,” “thirty plus,” “thirty+,” “thirty +,” “30 +,” and “over 30.”
93
   Head dressing NRs were written for violations such as knock holes on heads not plugged, brain material leaking from
knock holes, heads from cattle 30 months of age or older being processed in areas where product from younger cattle was
processed, etc.
94
   FSIS considers large establishments to have 500 or more employees, small plants to have 10 or more employees but less
than 500, and very small plants to have fewer than 10 employees.
USDA/OIG-A/50601-10-KC                                                                                            Page 60
                             The following chart show trends in NRs written as compared to cattle
                             slaughtered. 95




                             Had FSIS management been aware of what violations were occurring and
                             where, they would have been able to determine why they occurred and if
                             specific actions were necessary to correct the root causes.            OIG
                             recommended in two prior audits, 96 that FSIS needed to design a
                             management control process to allow FSIS to timely accumulate, review, and
                             analyze inspection data to monitor compliance with regulatory requirements.

                             FSIS officials advised they have developed an enhancement to its
                             Performance Based Inspection System (PBIS) that will provide the agency
                             with a tool to improve searches of PBIS data, as well as to ensure that NRs
                             accurately cite the relevant regulatory requirements. When inspectors write
                             NRs, they will be required to select from a list of specific regulatory cites that
                             describe the types of non-compliances that could be found while performing
                             a given PBIS verification procedure. The list will include key words and
                             links to regulatory text. The PBIS enhancement, scheduled for full
                             implementation by the end of calendar year 2005, will provide the capability
                             to assess trends of non-compliances, and to identify specific areas of concern
                             that will need to be addressed with enhanced policy development, guidelines
                             for industry, or improved training for FSIS personnel.




95
   Slaughter statistics were obtained from http://usda.mannlib.cornell.edu/reports/nass/livestock/pls-bb/2004/ and
http://usda.mannlib.cornell.edu/reports.nass.livestock.pls-bb/2005/. SRM NR and slaughter data for January 2004 were not
included in the chart to simplify the presentation.
96
    Audit Report No. 24601-2-KC, FSIS Oversight of ConAgra Recall, dated September 2003 and Audit Report
No. 24601-3-Ch, Use of Food Safety Information Systems, dated September 2004.
USDA/OIG-A/50601-10-KC                                                                                        Page 61
                                To verify that corrective actions had been taken on SRM violations, we
Corrective Actions
                                analyzed 385 SRM NRs that FSIS categorized as an establishment having an
on SRM Violations               inadequate plan to control the removal, segregation, and disposal of SRMs.
                                When there was insufficient information in the database, we worked with
                                FSIS to obtain evidence the establishments took sufficient actions to correct
                                the violations. We concluded that adequate corrective actions were taken in
                                response to the SRM NRs.

                                In addition, our analysis of the SRM NRs found that there were
                                253 establishments that primarily slaughter fat cattle and 143 establishments
                                that primarily slaughter adult cattle (cows/bulls) that had no SRM NRs
                                written. During the audit, we visited 2 of the 143 establishments that
                                slaughtered adult cattle and did not have any SRM NRs written by FSIS. We
                                found conditions during our visits that indicated SRM requirements had not
                                been adequately implemented.

                                Plant G

                                      •   Plant personnel were not following their SRM plan or prerequisite
                                          programs for controlling SRMs; and
                                      •   The plant’s documentation and recordkeeping related to the removal
                                          of SRMs was incomplete. 97

                                Plant L

                                      •   The plant did not adequately document their system to remove,
                                          segregate, and dispose of SRMs.

                                FSIS needs to have a management information system that provides timely
                                information to identify trends or indicators of noncompliance and/or other
                                anomalies. Also, FSIS needs to use this data to determine if corrective
                                actions have been taken on violations identified through NRs.

   Recommendation 14

                                Modify PBIS to allow for timely analyses of trends in SRM violations and
                                other food safety concerns. These modifications should also allow FSIS to
                                analyze noncompliance trends well beyond the operation of any single
                                establishment and track corrective actions.




   97
     For example, we found 20 out of 133 SRM monitoring forms were missing, improperly marked, or were not documented
   as completed. Additionally, after the plant completed an audit of their records to improve compliance with their SOPs, we
   found 23 of 57 days when SRM monitoring reviews were either not conducted or were not documented.
   USDA/OIG-A/50601-10-KC                                                                                         Page 62
                   Agency Response.

                   FSIS developed an enhancement to its PBIS that provides the agency with a
                   tool to improve searches of PBIS data as well as to ensure that
                   noncompliance reports (NRs) accurately cite the relevant regulatory
                   requirements. As a result of a change that FSIS has made in PBIS, when
                   inspectors write NRs, they will be required to select from a list of specific
                   regulatory cites that describe the types of non-compliances that could be
                   found while performing a given PBIS verification procedure. The list also
                   includes key words that describe the thrust of each regulation, and there are
                   links to the regulatory text. The regulatory citations in NRs will not only be
                   more accurate, but they will provide a means by which FSIS analysts can
                   search the PBIS database for NRs relevant to a specific topic. Information
                   from the NR database will be used to assess trends of non-compliances and to
                   identify specific areas of concern that need to be addressed through enhanced
                   policy development guidelines for industry, or improved training materials
                   for FSIS personnel.

                   Also, FSIS will be developing new approaches to measure effectiveness of
                   policy beginning in FY06. Specifically, FSIS will ensure that management
                   controls are in place describing how the Office of Policy, Program and
                   Employee Development (OPPED) will routinely assess and respond to the
                   data captured as part of IPPS and AssuranceNet. The analysis conducted by
                   OPPED will focus on nationwide trends that may reflect the need for
                   enhancements to policy, including training, in order to better ensure that the
                   policies are effectively accomplishing the intended purpose. OPPED will
                   have the management controls drafted and tested for effectiveness by the end
                   of this fiscal year 2006, with the goal of full implementation at the start of
                   fiscal year 2007.

                   Once the AssuranceNet System is deployed in June 2006, District level
                   reports will be generated on at least monthly basis. The District Analyst will
                   assess findings and inform the District Manager or Deputy District Manager
                   of the results.

                   Instructions have been provided for the use of the PBIS enhancements in
                   FSIS Notice 79-05. The agency is also preparing training, as well as
                   modifying PBIS training for field personnel to supplement and reinforce the
                   instructions in Notice 79-05 and ensure consistent usage. Inspection
                   personnel began using the PBIS enhancements in December 2005 (see
                   exhibit G for FSIS’ response in its entirety).

                   OIG Position.

                   We accept management decision.

USDA/OIG-A/50601-10-KC                                                                   Page 63
Finding 8                     Lack of Physical Pre-Operation Inspections by FSIS

                              Our review at the six slaughter establishments 98 that processed beef using
                              AMR systems disclosed that FSIS in-plant inspectors performed
                              pre-operation sanitation inspections less frequently at four plants on
                              unscheduled workdays (Saturdays) than they did during the normal
                              workweek. PBIS only schedules reviews of the plant’s sanitation procedures
                              for the plant’s predetermined schedule of operations (workweek). FSIS
                              procedures do not specifically address what unscheduled tasks the inspection
                              staff is to perform when a plant operates on unscheduled workdays (e.g.,
                              weekends).      Therefore, there is reduced assurance that plants used
                              appropriate pre-operational sanitation procedures on those days FSIS did not
                              perform inspections.

                              The plant profiles entered in the PBIS for the six plants showed they operated
                              Monday through Friday. Plants are permitted to operate on days that fall
                              outside the normal work schedule shown in PBIS with the prior approval of
                              FSIS. When plants operate outside the normal hours of operation, the
                              in-plant inspection staff determines what inspection procedures need to be
                              performed; the PBIS does not schedule tasks for work performed outside the
                              hours/days specified in the plant profile.

                              Inspected establishments must meet sanitation regulations, 99 including
                              pre-operational cleaning, operational cleaning, and sanitation of equipment
                              and surfaces that may contact product directly. When scheduled by PBIS,
                              FSIS in-plant inspectors are to verify that establishments are complying with
                              sanitation requirements. Even when PBIS does not schedule a review of the
                              establishment’s pre-operation sanitary conditions, FSIS inspectors have the
                              responsibility to perform pre-operation sanitation reviews on a basis
                              consistent with the scheduled rate and FSIS directives.

                              We performed an analysis at 6 of the 12 slaughter establishments visited to
                              determine whether the FSIS inspection staff was performing pre-operational
                              sanitation reviews on Saturdays (PBIS procedure code 01B02). We noted
                              that, normally, FSIS inspections at these six plants were scheduled to review
                              the pre-operational sanitation condition of the plant 45 percent of the time or
                              more (on scheduled workdays). 100 Occasionally, these slaughter facilities
                              found it necessary to operate a few Saturdays during the year. Whenever the

98
   Allegations regarding how FSIS conducts pre-operation sanitation inspections were raised during the course of the audit.
This coincided with work in process at six slaughter facilities that used AMR processing; therefore, we looked into this
allegation at these six establishments.
99
   FSIS regulations in 9 CFR 416.2 to 416.5 set forth more specific performance standards that each official establishment
must meet to prevent the creation of unsanitary conditions that could cause the adulteration of meat products.
100
    For the six plants reviewed, the 01B02, pre-operational sanitation inspection, was scheduled at a rate of between 45 and
54 percent on weekdays the plant operated.
USDA/OIG-A/50601-10-KC                                                                                            Page 64
                             plant is in operation, FSIS inspectors must be on duty to monitor their
                             production activities. Since Saturday was not a normal day for plant
                             operations, PBIS did not schedule tasks for the FSIS inspection staff to
                             perform. We looked at FSIS pre-operation physical inspection activities for
                             70 weeks (starting in January 2004) at these six plants. We found the
                             following.

                                                                            Number of
                                                                         Saturdays where
                                                          Number of           Pre-Op             Average
                                              Plant       Saturdays      Inspections Were         Daily
                                              Code        Worked            Performed           Slaughter
                                                  A            10                  0               4,446
                                                  I             9                  0               1,050*
                                                  J            12                  4                 500*
                                                  F             1                  0               1,200*
                                                  H            16                 16               4,000
                                                  E            17                 17               4,000

                                           *All cattle slaughtered at plants I, J, and F were considered
                                           30 months of age or older.

                             FSIS National Office officials explained that:

                                  “PBIS procedures are scheduled based on the approved hours of
                                  operation. During an overtime situation, PBIS procedures should be
                                  performed, on an unscheduled basis, in a manner consistent with the
                                  scheduled rate, and consistent with the procedure substitution concepts
                                  described in FSIS Directive 5400.5. 101 Inspection personnel at the
                                  establishment would make a decision on whether to perform hands on
                                  (01B02) pre-op sanitation for that particular Saturday. Currently, PBIS
                                  procedures are scheduled approximately 3 weeks in advance. Any PBIS
                                  task at any time can be performed as an unscheduled task… FSIS
                                  expects that the Inspector in Charge would make the decision to perform
                                  a hands-on or records review based on the history of pre-op inspections
                                  performed at the establishment.”

                             FSIS needs to clarify its guidance for conducting pre-operational sanitation
                             inspections for unscheduled workdays. The six plants we reviewed processed
                             between 500 and 4,400 head of cattle everyday; FSIS inspectors did not
                             conduct pre-operational sanitation inspections at three plants on any
                             Saturday. These three plants averaged between 1,050 and 4,400 cattle
                             slaughtered each day. Two of the three plants operated on nine or more


101
   FSIS Directive 5400.5 part X.B.3 (Procedure Priorities and Substitutions), states that, “Inspection program personnel
may use professional judgment in substituting unscheduled procedures for ones specified…consistent with the Agency’s
food safety priorities, and for the purpose of achieving FSIS’ regulatory objectives.”
USDA/OIG-A/50601-10-KC                                                                                        Page 65
                    Saturdays in our 70-week timeframe without any pre-operational sanitation
                    inspections.

                    Establishments are required to control SRMs from entering the slaughter
                    process; plants that process both young cattle and cattle 30 months of age and
                    older must segregate banned material and ensure that the slaughter line is
                    properly cleaned after older animals are processed. Thus, FSIS needs to
                    confirm that SRM procedures are being followed.

Recommendation 15

                    Clarify guidance for conducting pre-operational sanitation inspections and
                    SRM verification activities on workdays that fall outside the normal work
                    schedule. Develop a process to confirm the inspections are done in
                    accordance with established procedures.

                    Agency Response.

                    FSIS will provide guidance to inspection program personnel for conducting
                    pre-operational sanitation inspections and other HACCP and SSOP
                    verification activities on workdays that fall outside the normal work schedule,
                    through revision to FSIS Directive 5000.1. The revisions will instruct
                    inspection personnel to perform PBIS procedures, on an unscheduled basis,
                    in a manner consistent with the scheduled rate and to use their professional
                    judgment to decide which procedures to perform based on the Agency's food
                    safety priorities. Inspection procedures, when performed outside of the
                    normal work schedule, will be entered into PBIS as unscheduled procedures.
                    These revisions are expected to be completed by March 2006. The District
                    Analyst will have primary responsibility for correlating, on at least a
                    quarterly basis, that the rate of procedures performed outside of the normal
                    work schedule is consistent with the rate of scheduled procedures for that
                    establishment. Supervisory personnel will use this PBIS data along with
                    several other data sources to help prepare for IPPS reviews of inspection
                    program personnel. PBIS data regarding performance of pre-operational
                    sanitation inspections during both normal work schedules and workdays
                    outside of the normal work schedule would be examined to provide context
                    for an IPPS review.

                    OIG Position.

                    We accept management decision.




USDA/OIG-A/50601-10-KC                                                                    Page 66
Finding 9                   Inconsistent Application of Procedures                        for    Slaughter       of
                            Nonambulatory Cattle (Downers)

                            FSIS issued a policy that allows cattle that become nonambulatory due to an
                            acute 102 injury after it passes ante mortem policy to proceed to slaughter.
                            This policy is inconsistent with both published regulations and public policy
                            announcements, and is not consistently interpreted and applied by FSIS
                            inspectors. At 2 of the 12 slaughter establishments reviewed, plant
                            records/auditor observations found that for the period June 17, 2004, to
                            April 12, 2005, 29 nonambulatory animals were slaughtered; 20 of them were
                            identified as downers with no documentation of any acute injury. FSIS
                            officials do not believe its policy is contrary to published regulations
                            prohibiting downers from entering the food supply because, in the opinion of
                            the professional VMOs, these animals were healthy and suitable for slaughter
                            after they passed ante mortem inspection.103 We could find no records, other
                            than the plant daily disposition records, documenting the condition of the
                            animals. Stated public policy must be clear and transparent.

                            The policy stated in the preamble to 9 CFR 309.2(b) 104 states that FSIS has
                            excluded all nonambulatory disabled cattle from the human food supply,
                            regardless of the reason for their nonambulatory status or the time at
                            which they became nonambulatory (emphasis added). If an animal becomes
                            nonambulatory in route to the establishment due to an acute injury, it must be
                            humanely removed from the truck, humanely euthanized, and the carcass
                            properly disposed of. Likewise, cattle that become nonambulatory on the
                            establishment premises, such as an animal that breaks its leg as it is unloaded
                            from the truck, are also required to be humanely moved, humanely
                            euthanized, and the carcass disposed of properly.

                            However, an FSIS notice 105 states that if cattle are ambulatory at ante mortem
                            inspection and become nonambulatory disabled prior to slaughter, the VMO
                            should verify that the animal suffered an acute injury and allow the animal to
                            proceed to slaughter and post mortem inspection. FSIS would expect such
                            situations to be extremely rare because cattle, when handled and moved
                            under proper humane handling conditions, should not be injured while being
                            moved in pens. For cattle that become nonambulatory disabled after ante

102
    Acute is defined as brief and severe as opposed to chronic.
103
    Nothing came to our attention that unfit animals were improperly passed for slaughter at the initial ante mortem
inspection. Our concerns involve the animals that went down after the ante mortem inspection but before entering the
slaughter facility.
104
    Federal Register / Vol. 69, No. 7, Monday, January 12, 2004, / Rules and Regulations Page 1870.
105
     FSIS Notice 5-04, Interim Guidance for Nonambulatory Disabled Cattle and Age Determination, dated
January 12, 2004.
USDA/OIG-A/50601-10-KC                                                                                     Page 67
                               mortem inspection, if the VMO cannot determine that a specific, acute injury
                               occurred that caused the animal to become nonambulatory disabled, the
                               animal is to be condemned and cannot enter the slaughter establishment.

                               There appears to be inconsistent USDA policies related to slaughtering
                               downers/nonambulatory cattle. Regarding animals for slaughter, it is clear
                               that downers will not be slaughtered. In fact, one report 106 states: “The U.S.
                               Policy is to condemn all cattle that are nonambulatory or disabled when
                               presented for slaughter." The Department has widely publicized that one of
                               the firewalls put in place to prevent the spread of BSE is the prevention of
                               downers from entering the food supply.

                               Our review at the 12 plants visited showed the following variations in
                               application of the policy for condemning or passing nonambulatory cattle for
                               slaughter.

                                                                  Inspectors
                                                                 Stated Non-                         Number of
                                                   Inspectors    Ambulatory       Confirmed             Non-
                                                   Stated All    Cattle Could     Number of          Ambulatory
                                                      Non-         Pass for          Non-              Cattle
                                                  Ambulatory     Slaughter If     Ambulatory         Condemned
                                                  Cattle Were     Caused By      Cattle Passed       During FY
                                        Plant     Condemned      Acute Injury    For Slaughter          2004
                                          A                           X                0                 40
                                          B            X                               0                126
                                          C            X                               0                306
                                          D            X                               0                  4
                                          E                            X               0                 11
                                          F            X                               0                108
                                          G            X                               0                 41
                                          H                            X               0                  2
                                          I            X                               0                190
                                          J            X                               0                122
                                          K                            X              27                 41
                                          L                            X               2                  1

                               The daily disposition sheets and State inspection records at Plants K and L
                               (June 17, 2004, to April 12, 2005) showed the following cattle were passed
                               for slaughter.

                               •    downer or down                      - 20
                               •    down due to the disease of mastitis - 1
                               •    splitter (legs have splayed)        - 5
                               •    injury                              - 3



106
      North Americans Chief Veterinary Officers on Harmonizing a BSE Strategy – Minimum Standards.
USDA/OIG-A/50601-10-KC                                                                                       Page 68
                                 This was the only documentation of the condition of the cattle available at the
                                 plants. Plant inspection personnel believed that FSIS Notice 5-04 allowed
                                 the slaughter of nonambulatory cattle if the cattle had passed ante mortem
                                 inspection and then went down as the result of an acute injury. Therefore,
                                 they had allowed the plant to slaughter these cattle for human consumption.
                                 We observed use of a forklift and a rail above the pens to transport
                                 nonambulatory cattle to the slaughter area.

                                 We advised FSIS of the high number of downers being slaughtered at Plant
                                 K. FSIS reviewed the situation and offered the following comments.

                                       The 26 animals 107 were deemed, in the professional judgment of the
                                       public health veterinarian performing the reassessment of each animal’s
                                       condition following the acute injury, fit to continue to slaughter. All
                                       evidence indicates that they were reassessed in accordance with FSIS
                                       Notice 5-04. During the 9-month period examined by OIG, 26 cattle
                                       becoming nonambulatory after passing ante mortem inspection because
                                       of acute injury is not remarkable for an establishment that slaughters
                                       13,000 head per month, and, that receives distressed cull cattle. The
                                       district veterinary medical specialist, following a site-visit on
                                       March 29, 2005, was of the opinion that these 26 acute injuries were
                                       related to the underlying condition of each animal, and not related to
                                       any humane handling non-compliance.

                                 We question what evidence FSIS reviewed to make their determination since
                                 only plant daily disposition records were available showing the condition of
                                 the animals. For Plant L in the same district as plant K, documentation for
                                 one cow that became nonambulatory after passing ante mortem inspection
                                 showed the cow had bilateral rear foot cellulites lesions associated with foot
                                 rot. The diagnosis was shown as local foot cellulites. This diagnosis raises a
                                 question as to whether the cow suffered an acute injury after ante mortem
                                 inspection.

Recommendation 16

                                 USDA should clarify its policy for slaughtering nonambulatory cattle.
                                 Documentation should be kept to support any decisions for passing such
                                 animals for slaughter. FSIS should develop controls to ensure that USDA
                                 policy is consistently applied.

                                 Agency Response.

                                 FSIS will clarify its policy for slaughtering nonambulatory cattle by
                                 providing inspection program personnel with clarification instructions related

107
      OIG actually identified a total of 27 animals before audit field work was completed at the plant.
USDA/OIG-A/50601-10-KC                                                                                    Page 69
                   to FSIS Notice 5-05, “Interim Guidance for Non-Ambulatory Disabled Cattle
                   and Age Determination.” The guidance will provide instructions for tagging
                   animals and for documenting observations to better ensure the accountability
                   of such situations. FSIS expects to issue guidance by February 2006.

                   OIG Position.

                   We accept management decision.




USDA/OIG-A/50601-10-KC                                                                 Page 70
   Section 4. Advanced Meat Recovery Systems



   Finding 10                   AMR Has Processing and Process Verification Vulnerabilities

                                FSIS cannot demonstrate there are adequate controls in place to minimize the
                                risk that SRMs do not enter the food supply when meat is processed by
                                AMR. Over time, FSIS has added testing and product content requirements;
                                meat establishments have had difficulty complying with those requirements.
                                Although product testing is required, and FSIS conducts verification testing
                                to detect CNS tissue, neither process has been designed to provide an overall
                                assessment of compliance with the SRM ban or other product requirements.
                                Therefore, there is reduced assurance controls are adequate to prevent SRMs
                                from entering the food supply. FSIS verification tests in 2004 showed a
                                6 percent noncompliance rate for CNS tissue in AMR.

                                The number of companies processing meat products through AMR systems
                                has decreased from over 30 to about a dozen since FY 2003. FSIS does not
                                maintain records of the amount of product processed by AMR, but there are
                                estimates that about 45 million pounds of product is produced. AMR has
                                been banned in Europe 108 and many other countries due to risks associated
                                with the product. USDA does not permit the use of AMR in product for the
                                school lunch and other food programs. 109 FSIS assumes there is a risk that
                                AMR product will contain the dorsal root ganglia (DRG) where backbones
                                are used; this assumption is also supported by the Harvard Risk
                                Assessment. 110

                                AMR technology was first introduced in 1994. AMR systems emulate the
History of AMR                  physical action of hand-held high-speed knives for the removal of skeletal
                                muscle tissue from bone through the use of hydraulic pressure. Some of the
                                bones used in AMR systems may have fragments of kidney, liver, or other
                                organ tissues attached due to incomplete removal of the organ tissues. As
                                FSIS gained experience with the product, they recognized there was a risk of

   108
       EC Regulations 999/2001. European Union member countries are Austria, Belgium, Denmark, Finland, France,
   Germany, Greece, Italy, Ireland, Luxembourg, the Netherlands, Portugal, Spain, Sweden, the United Kingdom, Cyprus,
   Czech Republic, Estonia, Hungary, Latvia, Lithuania, Malta, Poland, Slovak Republic, and Slovenia. Other countries
   banning AMR include Barbados, Cayman Islands, Chile, Dominican Republic, Jamaica, Mexico (all ground meat), St. Kitts
   and Nevis, and Trinidad.
   109
       “Technical Requirements Schedule – GB – 2005, For USDA Purchases of Ground Beef Items, Frozen, III.B.2.”
   Boneless Beef Requirements, April 2005.
   110
       Evaluation of the Potential for Bovine Spongiform Encephalopathy in the United States, dated November 26, 2001,
   states if the spinal column is processed using AMR, the DRG are likely to contaminate the AMR product. For young
   animals, only a fraction of the vertebral column and DRG will be processed using AMR because parts of the backbone are
   contained in high value bone-in cuts of meat. For older animals, such as bulls or cows, all vertebrae are likely to be
   processed using AMR.
   USDA/OIG-A/50601-10-KC                                                                                      Page 71
                             excessive calcium content if the recovery systems were not properly
                             operated; bone shavings could be removed along the meat.

                             In 1996, FSIS established a limit for calcium content and plants were
                             required to conduct AMR product testing to verify compliance with calcium
                             limits. 111 The next year, FSIS required complete removal of the spinal cord
                             from bones processed in AMR systems 112 and initiated a sampling program to
                             determine if spinal cord was present in finished product. Additional
                             restrictions were added in 1998, when FSIS established a limit for iron in
                             AMR. 113 Due to continuing concerns about spinal cord in the product, FSIS
                             initiated a regulatory testing program for spinal cord in 2003 and added
                             enforcement procedures to require additional testing when spinal cord was
                             detected. 114 The FSIS program was initiated because a survey of AMR
                             testing in 2002 showed the presence of spinal cord tissue in about 35 percent
                             of the samples.

                             In 2004, plants were required to test for CNS tissue on a daily basis. If FSIS
                             finds a sample testing positive for CNS tissue, plants are required to
                             demonstrate, through testing, that CNS tissue is no longer in the product. If
                             spinal cord is found in a sample, FSIS confiscates the product labels and does
                             not permit sales of AMR product until the company can demonstrate their
                             system is under control and spinal cord is removed.

                             In early 2004, following the discovery of the first BSE infected cow, FSIS
                             required meat establishments to test for calcium, iron, and CNS tissue and to
                             maintain daily records of the testing. 115 The iron limit was also changed and
                             FSIS specifically stated that AMR product could not contain any amount of
                             CNS tissue. The vertebral bones from cattle 30 months of age or older were
                             also banned from AMR systems. 116 FSIS stopped testing for CNS tissue at
                             plants where no vertebral bones were processed. Most recently, in 2005,
                             FSIS reduced the calcium content limit for AMR product. 117




111
    FSIS Directive 7160.1, Attachment, dated September 13, 1996. Calcium not to exceed 0.15 percent or 150 milligrams
/100 grams of product.
112
    FSIS Directive 7160.2, VI, dated April 14, 1997.
113
    9 CFR Parts 301, 318, and 320, dated April 13, 1998. “Iron content [(protein content x 0.067)] > 1.80 milligrams per
100 grams of beef product.”
114
    FSIS Directive 7160.3, Revision 1, VI. B, C, and D, dated August 25, 2003.
115
    9 CFR Part 318.24(b), dated January 12, 2004.
116
    9 CFR Part 318.24(a), dated January 12, 2004.
117
    9 CFR Part 318.24, dated January 1, 2005. The product would not be considered meat if calcium “…measured by
individual samples and rounded to the nearest 10th, is more than 130.0 milligrams per 100 grams.”
USDA/OIG-A/50601-10-KC                                                                                        Page 72
                         AMR testing is conducted to determine if the product meets the definition of
  Inherent               meat 118 and is properly labeled, i.e., does not contain CNS or offal tissues and
  Limitations of         does not exceed the limits for calcium and iron content. The AMR product is
  the Sampling           considered to be mislabeled if testing shows that it contains CNS tissue, offal
  and Testing            tissue, or exceeds the iron and calcium limits. However, establishment
  Programs               testing programs for CNS tissue are generally not as specific or sensitive as
                         the FSIS testing program. 119 Establishments use a rapid screening test that
                         cannot confirm the type of CNS present (e.g., spinal cord or DRG). Usually,
                         an ELISA test is used to detect the presence of Glial Fibrillary Acidic
                         Protein, a cellular marker for CNS. Also, this test cannot detect the presence
                         of other non-meat tissues such as organ meat. FSIS, however, uses a
                         validated histological procedure that can specifically identify spinal cord,
                         DRG, and other tissues. According to FSIS officials, FSIS does not test
                         AMR to verify compliance with the calcium or iron limits due to resource
                         limitations; they consider noncompliance in this area as a labeling issue, not a
                         health issue.

                         FSIS officials said its monitoring program for CNS tissue in AMR product
                         tests product at a higher rate than pathogen testing programs (about every
                         3 weeks for AMR testing compared to three times a year for pathogens).
                         Unlike the pathogen testing program, however, the AMR/CNS monitoring
                         program is not statistically designed and only 2 pounds 120 are collected for
                         testing, regardless of the lot size. This level of sampling is not representative
                         of the production being tested; also FSIS does not specify how the grab
                         sample is to be collected. FSIS officials recognize the limitations of the
                         AMR verification test and acknowledge that its testing program provides
                         reduced compliance confidence.

                         When testing is performed, the establishments hold the product until test
                         results are known. In-plant inspectors monitor the company testing program
                         and verify that no product is released for sale that does not comply with
                         requirements. Consequently, according to FSIS officials, there have not been
                         any voluntary recalls of the product to date. FSIS officials believed that there
                         would not be a BSE hazard associated with AMR because the vertebral
                         columns from animals 30 months of age and older were banned from AMR
                         processing; any CNS tissue found in AMR product would come from
                         younger animals and would not present a health risk.

                         If an AMR sample tests positive for CNS tissue, five followup samples are
                         collected and tested from one lot according to FSIS procedures. If these
                         sample test results are confirmed to be negative, then five more followup
                         samples are collected and tested from another lot. The purpose of this testing
118
    9 CFR Part 318.24(b), dated January 12, 2004.
119
    Docket No. 03-038IF, Meat Produced by Advanced Meat/Bone Separation Machinery and Meat Recovery (AMR)
Systems.
120
    FSIS Directive 7160.3, Revision 1, VI.A, dated August 25, 2003.
USDA/OIG-A/50601-10-KC                                                                           Page 73
                            is to determine if the AMR system is under control. 121 FSIS officials said
                            followup AMR samples after an initial positive are sometimes tested by
                            FSIS, or sometimes by the establishment or private laboratories. According
                            to FSIS instructions, establishments can use whatever testing procedure they
                            choose to verify that CNS tissue is not present in the product. After company
                            testing has demonstrated the AMR system is under control, FSIS takes one
                            additional followup sample and tests it to verify CNS tissue is not in AMR
                            product. 122

                            FSIS officials said there are no requirements for accreditation or FSIS
                            approval of the laboratories conducting AMR testing. Also, FSIS officials
                            acknowledged that the rapid tests used by meat establishments are not as
                            comprehensive as the testing by FSIS; specific CNS tissues present in AMR
                            product cannot be identified. FSIS does not want to discourage plants from
                            using rapid tests because they can indicate that CNS tissue may be present in
                            AMR product.

                            Many plants have had difficulty meeting the product specifications for meat
Production                  and preventing spinal cord, CNS tissue, and other unacceptable tissues from
Problems                    contaminating the product. Consequently, the number of plants producing
                            beef AMR has significantly declined since 1996. In 1996, when FSIS did the
                            first survey of AMR testing results, about 50 or 60 establishments used
                            advanced meat and bone separation (includes beef and pork processors). By
                            2002, 34 beef plants produced AMR product. In 2003, there were 31 beef
                            AMR establishments. When we started our review in the fall of 2004, the
                            number of plants producing beef AMR had declined to 20. Two plants we
                            visited discontinued AMR production because company officials did not
                            consider it to be economically viable.

                            Product testing has shown problems with compliance with product
                            specifications:

                            •   1996 FSIS survey of AMR found spinal cord tissue in some samples of
                                AMR.
                            •   2002 FSIS survey 123 of AMR found 35 percent of finished product
                                samples contained unacceptable nervous system tissues – 29 percent
                                contained spinal cord tissue and 10 percent contained DRG.
                            •   2003 FSIS survey 124 of AMR regulatory testing results showed
                                6.7 percent of the samples were positive for spinal cord tissue. Followup
                                verification tests at plants with initial positive tests resulted in a



121
    FSIS Directive 7160.3, Revision 1, VI.B,C, and D dated August 25, 2003.
122
    FSIS Directive 7160.3, Revision 1, VI.D.6, dated August 25, 2003.
123
    Analysis of 2002 FSIS Bovine AMR Products Survey Results, dated February 2003.
124
    Summary of Calendar Year 2003 AMR Testing, dated January 2004, pages 2 and 3.
USDA/OIG-A/50601-10-KC                                                                           Page 74
                                  13.8 percent positive test rate indicating plants with initial positive tests
                                  were having difficulty eliminating spinal cord from the product.
                            •     2004 FSIS survey of AMR testing results (unpublished) showed 6 percent
                                  of samples contained nerve tissue (4 percent were positive for CNS and
                                  2 percent were positive for DRG). Followup verification tests resulted in
                                  5 percent of samples containing nerve tissue (3 percent positive for CNS
                                  and 2 percent positive for DRG).

                            Our review at the six plants visited that produced AMR showed frequent
                            unacceptable test results for at least one of the test criteria. We verified that
                            all non-conforming lots of AMR product were destroyed.

                                         CNS 125     CNS         Calcium        Calcium       Iron        Iron
                                         No. of     No. of                                    No. of      No. >
                                Plant                           No. of Tests   No. > Limit
                                         Tests     Positives                                  Tests       Limit
                                  A           98           14            98             19           98           0
                                  E         170             1           170             15        170         12
                                  I         330             0           578             26        323         47
                                  F         418             0           418               1       418         82
                                  J         318             0           598               0       318             3
                                  H         327             0           327               0       327             2
                                Totals     1,661           15         2,189             61      1,654        146


                            Plant A had difficulty meeting product requirements for about a year. On
                            April 12, 2004, Plant A had a positive test for DRG. A followup test was
                            negative and the plant resumed product sales on April 28, 2004. On
                            July 26, 2004, the plant had another positive DRG test and could not pass the
                            verification testing until February 22, 2005. Plant testing records 126 showed
                            34 test failures (14 for CNS or DRG tissue) on the followup verification
                            testing. On February 22, 2005, after passing the verification test series, FSIS
                            returned the product labels and permitted sale of the product. The following
                            day, a random FSIS test sample was positive for CNS. FSIS immediately
                            “tagged” the AMR system and took action to prevent the company from
                            selling AMR. Since FSIS has issued a Notice of Intended Enforcement, we
                            are not making any further recommendations concerning the oversight of this
                            plant’s AMR production.




125
   Test results shown for CNS and iron are for 2004 and through May 18, 2005. Tests were not required in 2003.
126
   Test records were reviewed for the period April through September 2004 and January 2005. No testing was done for
iron or calcium for the last 3 months of 2004 because of continuing CNS test failures.
USDA/OIG-A/50601-10-KC                                                                                     Page 75
                             Plants were required to develop process controls to prevent vertebral bones
  Processing                 from cattle 30 months of age or older from entering AMR systems 127 because
  Controls -                 these bones were determined to be SRMs. 128 FSIS discontinued testing for
  Cattle 30                  CNS tissue in AMR at plants that reported they do not process any vertebral
  Months of Age              bones in the AMR system. FSIS officials said they do not sample AMR for
                             CNS tissue when the vertebral columns are not used because it would be
                             scientifically unsound and wasteful.

                             In the plants visited, we observed that process controls usually involved
                             directing all prohibited bones to inedible rendering; eligible bones were
                             selected by hand for AMR processing. Although the process controls were to
                             provide a “fail safe” procedure, there is a risk for human error in selecting
                             bones eligible for AMR processing. For example, FSIS inspectors at
                             two plants we visited had written noncompliance records (NR) for
                             adulterated AMR product when they observed vertebral bones from cattle
                             30 months of age or older in the AMR systems.

  Mislabeled                 AMR product does not require a label identifying it as AMR product because
  AMR                        the product is required to meet the definition of meat.129 The product is tested
                             to determine if it contains banned and unacceptable tissues (CNS tissue,
                             organ or offal tissue, bone, etc) and to verify it meets the requirements for
                             iron and calcium content. We found that inspectors at one plant (Plant J) did
                             not understand the test results and allowed one lot 130 of product containing
                             organ tissue to enter commerce. The inspectors stated they did not recognize
                             the test results showed the presence of organ tissue because this
                             noncompliance is found so infrequently (3 of approximately 550 AMR
                             samples tested).

                             A laboratory test of an AMR sample taken at Plant J on March 25, 2004,
                             indicated that the product contained excessive amounts of liver. The AMR
                             product was allowed to enter commerce. The FSIS inspectors at the plant
                             stated that they had not been given any information on the laboratory codes
                             and may have been confused by the form showing “SATISFACTORY”
                             under condition on receipt.

                             Since organ tissues would not be expected components of boneless meat,
                             FSIS advised it would assess such situations on a case-by-case basis to
                             determine whether to take further action, including asking for product to be
127
    FSIS Notice 4-04, dated January 9, 2004, Checklist and FSIS Notice 9-04, dated January 23, 2004, III.D.5.
128
    Interim final rule and request for comment (Docket No. 03-038IF) dated January 12, 2004, states that skulls and
vertebral column bones from cattle 30 months of age and older are inedible and cannot be used for human food. Therefore,
if skulls or vertebral column bones from cattle 30 months of age and older are used in AMR systems, the product exiting
the AMR system is adulterated, and the product and spent bone materials are inedible and cannot be used for human food.
For AMR product derived from the bones of cattle younger than 30 months, the presence of CNS-type tissues will render
the product misbranded.
129
    9 CFR 301.2, Federal Register Vol. 69, No. 7, page 1876, dated January 12, 2004, and 9 CFR 318.24 (a) and (b).
130
    A lot is a day’s production. This plant produced an average of about 4,000 pounds of AMR per day.
USDA/OIG-A/50601-10-KC                                                                                        Page 76
                    removed from commerce. FSIS plans to address this issue when it updates its
                    policy issuance on AMR systems.

Recommendation 17

                    Reassess the risk associated with processing meat by AMR systems and
                    determine whether banned SRMs can be effectively controlled and prevented
                    from entering commerce.

                    Agency Response.

                    The agency has extensively modeled the risk of AMR as a vehicle for the
                    spread of BSE and issued an interim final rule that explicitly prohibits the use
                    of SRMs in the manufacture of AMR. There is international agreement that
                    the definitions for SRMs applied by FSIS in its interim final rule are
                    appropriate for the U.S., and that properly produced AMR from cattle
                    younger than 30 months of age is safe. However, FSIS agrees that an
                    essential factor in proper production of AMR from cattle is to ensure that
                    SRMs are not used. Consequently, FSIS has taken a number of steps, as
                    described in the earlier response to recommendation 13, to enhance the
                    Agency's management controls through IPPS and AssuranceNet to increase
                    our confidence that regulated products are not adulterated or misbranded.
                    Regarding testing for CNS tissue, testing AMR for CNS-type tissue would
                    not be appropriate or practical in ascertaining whether the source materials
                    were from prohibited sources. Verification testing for CNS-like tissues in
                    AMR meat is a useful measure to ascertain compliance with the regulatory
                    requirements regarding whether the resulting product is misbranded.

                    As noted in the response to recommendation 13, the IPPS process, when
                    integrated with other management control information, will be utilized to
                    ensure that inspection personnel are using the appropriate inspection method,
                    decision-making, recordkeeping and enforcement process when conducting
                    AMR verification procedures. IPPS results will be reported into the
                    AssuranceNet database, for tracking and reporting of inspection outcomes.

                    OIG Position.

                    We accept management decision.

Recommendation 18

                    Develop a supportable sampling and testing program to provide assurance
                    that the SRM ban and other regulatory requirements are met.




USDA/OIG-A/50601-10-KC                                                                     Page 77
                     Agency Response.

                     Through the management control systems and IPPS system described in
                     response to recommendations 13 and 17, FSIS believes that it has provided
                     an effective alternative to the recommendations provided by OIG in order to
                     enhance the Agency's confidence that beef AMR is being properly produced
                     and is not adulterated or misbranded. This alternative solution offered by
                     FSIS does not affect the current testing program by FSIS or testing that is
                     conducted by industry as part of the regulatory requirements. Rather, this
                     alternative solution focuses on better ensuring that the segregation procedures
                     used to ensure that SRMs are not being used as source materials are in place
                     and effectively working.

                     FSIS will be developing new approaches to measure effectiveness of policy
                     beginning in FY06. This effort is separate from establishment of the OFO
                     management controls. Specifically, FSIS will ensure that management
                     controls are in place describing how the Office of Policy, Program and
                     Employee Development (OPPED) will routinely assess and respond to the
                     data captured as part of IPPS and AssuranceNet. The analysis conducted by
                     OPPED will focus on nationwide trends that may reflect the need for
                     enhancements to policy, including training, in order to better ensure that the
                     policies are effectively accomplishing the intended purpose. OPPED will
                     have the management controls drafted and tested for effectiveness by the end
                     of this fiscal year 2006, with the goal of full implementation at the start of
                     fiscal year 2007. OPPED will use this approach to measure the effectiveness
                     of various policies, including the effectiveness of SRM segregation
                     procedures to ensure SRMs are not being used as source material for AMR.

                     OIG Position.

                     We accept management decision.

Recommendation 19

                     Develop and issue guidance to inspectors on how to interpret laboratory test
                     results and actions that should be taken when AMR product does not meet
                     requirements.

                     Agency Response.

                     FSIS will clarify laboratory test results sent to in-plant personnel, and outline
                     actions that should be taken if test results show the presence of organ tissue
                     via a new FSIS notice or directive by July 2006.

                     OIG Position.
                    We accept management decision.
USDA/OIG-A/50601-10-KC                                                                       Page 78
 Section 5. Program Management and Administration



Finding 11                    Meat Industry Registration Requirement Was Not Adequately
                              Implemented

                              FSIS and APHIS did not maintain current and comprehensive listings of
                              renderers 131 and related businesses because this requirement was considered a
                              low priority. These entities are required to register with FSIS as a condition
                              of engaging in business. 132        We found incomplete and inconsistent
                              information maintained by APHIS and FSIS; as well as within divisions of
                              FSIS. As a result, should serious animal diseases be detected in the United
                              States, USDA’s ability to quickly determine and trace the source of infections
                              to prevent the spread of the disease could be impaired. Also, APHIS could
                              not use the registrations to identify potential sources to mitigate geographical
                              gaps in BSE testing.

                              FSIS issued a notice 133 pointing out the need for it to have registration
                              information and required all businesses subject to the Federal Meat
                              Inspection Act, including those previously registered, to complete a new
                              registration form and submit it to FSIS by May 24, 2004. APHIS also issued
                              a final rule providing that any persons who move livestock or poultry
                              interstate for slaughter or rendering may only move the animals to a slaughter
                              or rendering establishment listed by the Administrator [of APHIS]. 134

                              We found that the FSIS and APHIS renderer listings were incomplete and
                              inconsistent, internally and to other sources as shown in the following chart.



131
    For purposes of this report, the term renderers also includes pet food manufacturers and plants that handle dead, dying,
disabled, or diseased livestock.
132
    9 CFR 320.5, states that every person that engages in business in or for commerce, as a meat broker, renderer, or animal
food manufacturer … shall register with the Administrator [of FSIS].
133
    Federal Register Notice, Volume 68, Number 122, dated June 25, 2003, states essentially that since 1970, FSIS has
required registration by meat brokers, renderers, animal food manufacturers, wholesalers, warehousemen, and persons that
engage in the business of buying, selling, transporting in commerce, or importing, any dead, dying, disabled, or diseased
livestock or parts of the carcasses of livestock that have died otherwise than by slaughter. Registration information is
critical in any FSIS investigation related to public health, food safety, or misbranding of meat or poultry products. For
example, should BSE or hoof and mouth disease be introduced into the United States, registration information could be
crucial in tracing the source of an infection and in preventing its spread. FSIS intends to increase its enforcement of the
registration requirements to ensure that all businesses subject to the Federal Meat Inspection Act that are required to be
registered with FSIS are doing so. In this notice, FSIS also informed the public that the Agency had developed a new
registration form. Because this form required that registrants provide certain information that was not required on the
previous form, all parties, including those that were currently registered, were to complete the new form and submit it to
FSIS by March 22, 2004, (extended to May 24, 2004).
134
    9 CFR 71.21, dated March 4, 2004.
USDA/OIG-A/50601-10-KC                                                                                            Page 79
                                                                            Number of Rendering
                                            Agency/Group                    and Similar Businesses
                                                                                  (Rounded)
                               FDA                                                              570
                               National Renderers Association                                   220
                                                        135
                               FSIS Renderers Listing                                         1,050
                               FSIS OPEER* 136                                                  100
                               APHIS                                                            140


                             * Office of Program Evaluation, Enforcement, and Review
                             FSIS’ list of renderers omitted important contact information including a
  FSIS’
                             complete address, phone number, e-mail address, and hours of operation. In
  Renderers
                             addition to having incomplete data, these lists also included numerous
  List
                             establishments that closed or that had been combined with other businesses.
                             FSIS supplied us with a listing of rendering firms 137 generated from its prior
                             registration system. Using this information, we attempted to determine the
                             differences between information maintained by APHIS and FSIS. To
                             illustrate, in one State, APHIS information differed from FSIS information
                             for 37 firms listed on FSIS records as follows:
                                 •   19 firms were no longer operating (51 percent were out of business).
                                 •   35 firms (95 percent) did not have a complete mailing address.

                             We also found that two other APHIS area offices we visited had similar
                             discrepancies with the FSIS rendering lists related to their States.

                             FSIS officials advised that they did not have a process in place to update its
                             records when registration information changed. At one time, FSIS planned to
                             put the registration form on-line, but that did not materialize. Instead, FSIS
                             has been working on a new version of its registration database, called
                             Registration Activity Management System, which is undergoing development
                             and testing. FSIS estimated that it has hundreds, perhaps a thousand or so
                             registration forms that need to be entered into the new system. FSIS intends
                             to have the Registration Activity Management System available for program
                             investigators to use by October 1, 2005. 138 FSIS is also working on a
                             protocol for program investigators to follow to alert agency officials when
                             firms close or change names, etc., so adjustments can be made.

135
    Previous Registration Database – Renderer, 4D, and Animal Foods Operators.
136
    Registration Data on Renderers, Animal Food Manufacturers, and Buying, Selling, Transporting, or Importing Product
maintained by FSIS compliance for the Planned Compliance Program.
137
    The list was dated October 28, 2004.
138
    While the RAMS database contains information on only those firms that have registered with the Agency and was not
designed to handle the requirements for OPEER’s compliance program database, we believe there are advantages to linking
the systems to allow both groups to more effectively accomplish their missions.
USDA/OIG-A/50601-10-KC                                                                                       Page 80
                            In addition to the Registration Activity Management System, the FSIS Office
FSIS                        of Program Evaluation, Enforcement, and Review (OPEER) maintains its
Maintains                   own automated list of renderers. 139 OPEER’s database contains pertinent
Several Lists               information on the firms to be monitored in its compliance program, as well
of Renderers                as in accordance with FSIS Notice 33-04, dated June 14, 2004, Protocol for
                            Off-Site Collection of Brain Samples for BSE Testing. FSIS officials stated
                            that the Registration Activity Management System database was not designed
                            to handle the requirements for OPEER’s compliance program. The two
                            databases have different objectives that require different information; in the
                            future, FSIS hopes to link the two systems.

                            APHIS area offices did not obtain FSIS’ listings of renderers to assist in
APHIS’                      identifying those firms that deal in dead/dying/disabled/diseased livestock.
Renderer                    In 11 States where APHIS did not have a sampling agreement and where
List                        sampling goals were not obtained, FSIS’ records showed 81 possible entities
                            that may have been able to participate in the surveillance program. Also,
                            APHIS is not maintaining its list of slaughter and rendering firms that receive
                            livestock. An APHIS notice 140 stated that to facilitate the collection of blood
                            and tissue samples, any firms that accept livestock for slaughter or rendering
                            would have to be listed with APHIS. We requested and reviewed APHIS’
                            listing dated April 1, 2005; their listing identified only about 140 firms even
                            though the numbers of renderers and related business were shown by other
                            sources as being significantly higher. They attached an explanation showing
                            that:

                                 “…we do not claim this to be a complete list. We are in the process of
                                 revising the policy memo relative to this regulation, as there was some
                                 confusion about the initial implementation issues. Therefore, this has
                                 not been assigned a high priority for our field personnel.”

                            FSIS and APHIS need to maintain accurate and current registration
                            information relating to their regulatory responsibilities. This information is
                            necessary to be able to promptly investigate incidents related to public health,
                            food safety, or misbranding meat or poultry products. Also, these lists could
                            be beneficial to future surveillance programs by sharing/linking the database
                            systems.




139
    OPEER maintains a system to produce a listing entitled “Registration Data on Renderers, Animal Food Manufactures,
and Buying, Selling, Transporting or Importing Product” to assist in their Planned Compliance Program.
140
    Federal Register Notice, Volume 69, Number 43, dated March 4, 2004.
USDA/OIG-A/50601-10-KC                                                                                     Page 81
Recommendation 20

                    Coordinate data gathering and sharing to improve accuracy and prevent
                    duplication of effort. Expeditiously implement planned computer systems,
                    and timely obtain and enter information into the systems from any backlog of
                    registration forms. Conduct periodic reviews to ensure complete, accurate,
                    and comprehensive lists of renderers are immediately available for use when
                    required.

                    Agency Response.

                    APHIS concurs with this recommendation. APHIS and FSIS will share lists
                    and cross-check them regularly but APHIS believes that the various lists
                    reflect different purposes, and therefore they should not necessarily be
                    identical. APHIS also expressed concern regarding the number of “rendering
                    and similar businesses” shown in the report since not every renderer on each
                    list is relevant to the BSE surveillance program (see exhibit G for APHIS’
                    response in its entirety).

                    The Registration Activity Management System (RAMS) was released for use
                    to OPEER Evaluation and Enforcement Division (EED) headquarters
                    personnel in October 2005, and will be made available to field users by June
                    2006. Since the time of the audit, OPEER has caught up with the backlog of
                    registration forms and now has approximately 1800 to 2000 firms entered
                    into the registration database. Additionally, the agency plans to implement
                    an online registration form. Development of an “on-line” system would
                    expedite the registration of those firms with access to the Web and would
                    allow the agency to allocate resources in other areas.

                    As a result of emerging food safety events, OPEER has focused greater
                    attention on high risk firms, such as renderers, by visiting them on a more
                    frequent basis and collecting more comprehensive information during those
                    visits. Investigators currently inquire about each firm’s registration status,
                    provide needed registration forms, and proactively educate industry on food
                    safety and food security issues. In addition, OPEER will conduct reviews to
                    ensure the completeness and accuracy of renderers data.

                    FSIS supports the development and implementation of new systems to carry
                    out our food safety and food security mission. The development of new
                    systems that link to other systems and share information will help coordinate
                    data gathering and sharing, improve accuracy, and prevent duplication of
                    effort. The RAMS database would be linked to such a system. These new
                    systems are being developed and will be operational in calendar year 2007.



USDA/OIG-A/50601-10-KC                                                                    Page 82
                              OIG Position.

                              We accept management decision.


Finding 12                    BSE Program Costs Inconsistently Determined and Reported

                              One of the five APHIS area offices reviewed paid costs for sampling and
                              carcass transportation, storage, and disposal that exceeded national cost
                              recovery guidelines and/or that were ineligible for reimbursement. The State
                              area office entered into 10 reimbursable agreements before national office
                              cost recovery guidelines had been issued. Rather than adjusting the
                              reimbursable agreements, as instructed by the national office, the
                              Veterinarian-in-Charge (AVIC) included the questionable costs in amounts
                              proposed (by third parties) and approved in other allowable cost categories.
                              The State AVIC stated he changed supporting records because he believed he
                              should honor the prior negotiated costs. Although the APHIS regional office
                              reviewed the reimbursable agreements, they identified only questionable
                              disposal costs 141 because the AVIC submitted adjusted documents for their
                              review. Further, the regional office did not followup to ensure that
                              appropriate changes were made to the agreements for those costs that were
                              questioned. As a result, at least $1.2 million of about $11,158,000 142 paid
                              were unsupported program costs. We also found inconsistent accounting for
                              program costs in two States.

                              In August 4, 2004, APHIS issued final cost recovery guidelines as follows:
  Cost Guidelines
  Not Followed                                     Activity                                    Fees Paid
                                 Identification and storage of carcasses        Up to $100 per carcass
                                 awaiting laboratory results
                                 Transportation of carcasses for BSE            Up to $2 per loaded mile
                                 sampling
                                 Sample collection – includes collection of     Up to $40 per sample
                                 the brainstem, data processing, and
                                 submission of samples
                                 Removal/presentation of the head               Up to $10 per sample
                                 Disposal of carcasses                          Up to $100 per carcass for on-farm burial,
                                                                                composting, or in approved landfill.
                                                                                Up to $500 per carcass for incineration.




141
    Disposal costs can be an eligible cost for those firms that are not equipped to perform such operations (such as a firm
that only removes hides); however, firms whose primary business is the disposal of carcasses are not eligible for this
reimbursement.
142
    State expenditures include $6,959,000 identified as Identification/Storage costs, $3,476,000 in transportation costs, and
$723,000 in head removal costs. As of May 31, 2005, the total cost for the national program was about $54 million.
USDA/OIG-A/50601-10-KC                                                                                             Page 83
                                   The guidelines stated, “Every effort should be made to pay only the costs
                                   associated with the particular transaction and to stay within these BSE cost
                                   recovery fees guidelines.” Those proposed costs that were not eligible or
                                   exceeded the maximum reimbursement rate were to be reduced or eliminated
                                   or were to be properly documented, justified, and approved by the APHIS
                                   regional office. Also, APHIS established a general policy that the regional
                                   office should examine all agreements.

                                   In May 2004, when APHIS announced its intention to implement an
                                   expanded BSE sampling program, the area office contacted firms that might
                                   be interested in participating and asked them to submit a detailed estimate of
                                   anticipated costs to obtain BSE samples. Based on these estimates, the area
                                   office entered into 10 reimbursable agreements.

                                   Reimbursements for sampling were initially approved by the AVIC based on
                                   the third parties’ original proposal. 143 In about mid August 2004, the area
                                   office re-categorized the itemized costs before submitting the agreements to
                                   the regional office for review. Regional office officials noted in their reviews
                                   that the proposed disposal costs were not eligible for reimbursement. In
                                   mid-September, the AVIC adjusted the proposed costs with the intention of
                                   compensating the third parties for the elimination of disposal costs 144 and
                                   retained the same reimbursement rate, as initially agreed at the start of the
                                   program. The allocation of ineligible costs to other eligible categories was
                                   documented on a “BSE Sampling Agreement Cost Recovery Worksheet”
                                   maintained in the area office. With the exception of one agreement, the area
                                   office was not able to provide documentation supporting the final cost
                                   determination.

Unsupported                        Transportation costs in this area office were not supported by estimates of, or
Transportation                     reimbursements paid for, actual loaded miles driven. Cost recovery
Costs                              guidelines provide for reimbursement of up to $2 per loaded mile for
                                   transporting carcasses. In some cases, the third parties estimated the number
                                   of loaded miles they expected to drive and in other cases, the cost per loaded
                                   mile was not specified. The AVIC adjusted the costs without documentation
                                   to support the changes; the AVIC agreed that transportation costs were not
                                   paid on the cost per loaded mile actually driven.

                                   Two area offices used inconsistent accounting codes for BSE program costs.
Inconsistent Use of
                                   This occurred because of the lack of clear and specific guidance on how BSE
Budget Object
                                   costs were to be recorded in the agency accounting records. The regional
Codes
                                   offices did not detect the accounting errors. As a result, APHIS’ accounting
                                   records do not consistently and accurately reflect its BSE related
                                   expenditures.

 143
       The itemized costs in the proposals did not always fit precisely within the agency’s six cost categories.
 144
       One sample did not show disposal cost; however, the firm’s proposed cost was still re-categorized.
 USDA/OIG-A/50601-10-KC                                                                                            Page 84
                    Area offices were provided a memo that addressed the Budget Object Codes
                    to be used in the National Surveillance Plan. The APHIS memo does not
                    provide any specific direction or examples on how area office personnel are
                    to record cost associated with the sampling program (i.e. Transportation,
                    Disposal, Storage, etc.).

                         •   One area office correctly recorded payments as lump sums in Budget
                             Object Code 2550.
                         •   A second area office recorded payments as lump sums in Budget
                             Object Code 2540 (Contractual Services - Other).
                         •   A third area office divided payments into Budget Object Codes 2540,
                             2222 (Local Transportation), and 2570 (Miscellaneous Services).

                    APHIS regional and national office officials agreed that the State area office
                    did not properly record costs. During our review, the regional offices
                    instructed the area offices to correct accounting errors.

Recommendation 21

                    Review the questioned financial transactions and supporting documentation
                    and determine if improper payments have been made. Initiate recovery as
                    appropriate.

                    Agency Response.

                    APHIS concurs with the recommendation and is in the process of reviewing
                    results. Preliminary results found concerns about the agreements with BSE
                    collection facilities, including the way they were entered into and the way
                    they were managed. APHIS’ investigation found that due to a lack of
                    documents maintained by the cooperators, it was not possible to determine
                    the actual amount of unsupported payments.

                    On September 29, 2005, the Veterinary Services Regional Office contacted
                    the Area Office and instructed them to terminate all agreements for collection
                    of targeted animals for enhanced BSE surveillance. To bring samplers back
                    on line for the enhanced program, APHIS will institute a contracting process
                    consistent with proper contracting standards. APHIS will continue to review
                    the investigation results and finish all appropriate action by March 31, 2006.

                    OIG Position.

                    We accept management decision.




USDA/OIG-A/50601-10-KC                                                                    Page 85
Recommendation 22

                    Reinforce the proper accounting for BSE program costs.

                    Agency Response.

                    APHIS concurs with this recommendation. By January 15, 2006, APHIS will
                    provide written communication to all appropriate offices to refine and direct
                    program accounting for the BSE program.

                    OIG Position.

                    We accept management decision.




USDA/OIG-A/50601-10-KC                                                                   Page 86
Scope and Methodology
                   We performed our reviews at APHIS and FSIS Headquarters, and made field
                   visits to:

                   •     The APHIS regional office and Centers for Epidemiology and Animal
                         Health in Fort Collins, Colorado; the National Veterinary Services
                         Laboratories (NVSL) and Center for Veterinary Biologics (CVB) in
                         Ames, Iowa; five APHIS area offices; and four State diagnostic
                         laboratories.

                   •     FSIS district offices in Boulder, Colorado; Dallas, Texas; Des Moines,
                         Iowa; Lawrence, Kansas; and Minneapolis, Minnesota, and Compliance
                         and Investigations Division regional offices in Lawrence, Kansas, and
                         Dallas, Texas.

                   •     12 Federally inspected slaughter establishments (including
                         2 Talmadge-Aiken plants.)     (We also visited three other federally
                         inspected slaughter plants solely to review ante mortem inspection
                         procedures).

                   •     Five rendering/pet food companies that collect brain tissue samples for
                         BSE testing.

                   •     Four processing facilities that receive and process carcasses containing
                         SRMs (including one slaughter plant listed above).

                   See exhibit B for a complete list of locations visited.

                   FSIS provided review officers from its technical service center in Omaha,
                   Nebraska, to assist in our reviews at the slaughter plants and provide
                   technical advice on FSIS regulations, procedures, and instructions.
                   Fieldwork     was     performed    from      October 27, 2004,     through
                   September 2, 2005.

                   To accomplish our audit objectives, we performed the following audit
                   procedures:

                   •     Interviewed responsible FSIS and APHIS program officials.

                   •     Reviewed written policies and procedures relating to the BSE
                         surveillance program, as well as regulatory functions associated with
                         SRMs and AMR.

USDA/OIG-A/50601-10-KC                                                                   Page 87
                              •   Interviewed plant personnel concerning the surveillance program and
                                  actions to address the new food safety initiatives announced by the
                                  Department immediately after the BSE positive was identified.

                              •   Observed establishment and FSIS activities related to ante mortem
                                  inspection of cattle, condemnation of suspect animals, euthanizing
                                  condemned cattle, obtaining brain tissue samples, and disposition of
                                  carcasses after BSE sampling.

                              •   Observed the transfer of carcasses to off-site BSE sampling locations and
                                  BSE sampling activities at these locations at establishments where BSE
                                  testing of ante mortem condemned cattle was not done at the official
                                  premises.

                              •   Reviewed establishments’ written procedures          for   the   removal,
                                  segregation, disposition, and disposal of SRMs.

                              •   Reviewed FSIS and establishments’ procedures for preventing processing
                                  of vertebral bones for cattle 30 months of age and older in AMR systems
                                  and testing programs for CNS tissue in AMR meat. Reviewed FSIS
                                  testing records at the FSIS Eastern Laboratory and at the local plants
                                  visited for AMR product produced during the period of review.

                              •   Observed operations of the AMR systems and CNS tissue testing
                                  programs at six establishments with AMR systems.

                              •   Evaluated two assessment reviews performed by AMS of BSE
                                  surveillance program operations, as well as, corrective actions APHIS
                                  took on recommendations made in our BSE surveillance program Phase I
                                  audit report. 145

                              •   Interviewed three complainants regarding allegations related to FSIS’
                                  monitoring of SRM regulations and procedures and APHIS’ BSE
                                  surveillance program activities.

                              •   Reviewed APHIS National Office BSE program management and
                                  monitoring operations relating to sample collection, testing, and program
                                  payments.

                              •   Reviewed individual APHIS BSE sampling agreements and selected
                                  payments associated with these agreements.

                              •   Evaluated the role and responsibilities of the NVSL and BSE contract
                                  laboratories regarding the BSE surveillance program.
145
      OIG Audit Report No. 50601-9-KC, dated August 2004.
USDA/OIG-A/50601-10-KC                                                                             Page 88
                   •     Interviewed contract laboratory officials regarding BSE testing policies
                         and laboratory procedures, observed sample processing at the contract
                         laboratories, and determined if the BSE contract laboratories were
                         meeting APHIS and NVSL requirements.

                   •     Contacted various international experts and knowledgeable individuals.

                   •     Interviewed Centers for Epidemiology and Animal Health officials
                         regarding the design and implementation of the BSE database.

                   In addition to the above audit procedures, the audit team performed various
                   types of data analysis during the audit. We obtained database information
                   from FSIS and APHIS related to animal condemnations, slaughter volume,
                   inspection system activities including Noncompliance Records (NR) issued
                   by FSIS inspectors, BSE sample collection and testing, and payments for
                   BSE samples. We performed the following:

                   •     Reconciled sample counts from the BSE database to APHIS’ BSE
                         Weekly Surveillance Report.

                   •     Analyzed critical fields of the BSE database for errors, omissions, and
                         inconsistencies.

                   •     Analyzed the BSE database to determine the location of animals sampled
                         by region and State.

                   •     Reviewed the recorded identification information.

                   •     Reviewed the samples of animals too young to count in the target
                         population according to the surveillance guide.

                   •     Verified APHIS sample data to FSIS ante mortem condemned data.

                   •     Analyzed the FSIS NR database from October 2003 through May 2005.
                         By running search term queries of the database, we isolated those NRs
                         that related to SRM violations.

                   •     Performed an analysis of 1,036 SRM NRs to show the number of NRs by
                         establishment, NRs by size, and whether the NRs were a food safety or
                         non-food safety related item by date.

                   •     Used slaughter data to identify slaughter facilities and establishments that
                         predominately slaughter old cattle and compared this information to the


USDA/OIG-A/50601-10-KC                                                                      Page 89
                         number of SRM NRs by the size of the establishment versus the class of
                         animals they slaughter.

                   •     Analyzed NRs issued for BSE surveillance, SRM and AMR issues.
                         Reconciled NRs identified by FSIS as SRM/BSE related to those
                         identified by OIG.

                   The audit was performed in accordance with Government Auditing
                   Standards.




USDA/OIG-A/50601-10-KC                                                                 Page 90
Exhibit A – Summary of Monetary Results
                                                                           Exhibit A – Page 1 of 1



Finding No.              Description             Amount         Category
              Area Office Improperly Supported
    12        Payments                           $1.2 million      1/


1/ Unsupported Costs - Recovery Recommended




USDA/OIG-A/50601-10-KC                                                                  Page 91
Exhibit B – Sites Visited
                                                                                 Exhibit B – Page 1 of 2

APHIS National Office – Washington, DC
FSIS National Office – Washington, DC
AMS National Office – Washington, DC
APHIS Western Regional Office – Fort Collins, Colorado
APHIS Centers for Epidemiology and Animal Health – Fort Collins, Colorado
APHIS National Veterinary Services Laboratories (NVSL) – Ames, Iowa
APHIS Center for Veterinary Biologics (CVB) – Ames, Iowa
APHIS Area Office – Madison, Wisconsin
APHIS Area Office –Topeka, Kansas
APHIS Area Office – Sacramento, California
APHIS Area Office – Des Moines, Iowa
APHIS Area Office – Austin, Texas
ARS Meat Animal Research Center – Clay Center, Nebraska
ARS National Animal Disease Center – Ames, Iowa
Texas Veterinary Medical Diagnostic Laboratories - College Station, Texas
California Animal Health and Food Safety Laboratory System - Davis, California
Washington Animal Disease Diagnostic Laboratory - Pullman, Washington
Athens Diagnostic Laboratory (University of Georgia) - Athens, Georgia
FSIS Eastern Laboratory - Athens, Georgia
FSIS District Office – Boulder, Colorado
FSIS District Office – Dallas, Texas
FSIS District Office – Des Moines, Iowa
FSIS District Office – Lawrence, Kansas
FSIS District Office – Minneapolis, Minnesota
FSIS Compliance and Investigation Division Regional Office – Lawrence, Kansas
FSIS Compliance and Investigation Division Regional Office – Dallas, Texas
Very Large Slaughter Plant A – Colorado
Large Slaughter Plant B – Idaho
Large Slaughter Plant C – Texas
Small Slaughter Plant D – Texas
Very Large Slaughter Plant E – Nebraska
Large Slaughter Plant F – Nebraska
Very Small Slaughter Plant G – Nebraska
Very Large Slaughter and Processing Plant H – Kansas
Large Slaughter Plant I – Minnesota
Very Small Slaughter Plant J – South Dakota
Small Slaughter Plant K – North Carolina
Very Small Slaughter Plant L – North Carolina
Large Slaughter Plant M – Wisconsin
Large Slaughter Plant N – Wisconsin
Small Slaughter Plant O - Kansas
Beef Processing Plant P – Colorado
USDA/OIG-A/50601-10-KC                                                                        Page 92
Exhibit B – Sites Visited
                                     Exhibit B – Page 2 of 2

Beef Processing Plant Q – Illinois
Beef Processing Plant R – New York
Rendering Plant – Nebraska
Rendering Plant – Minnesota
Rendering Plant – Minnesota
Rendering Plant – North Carolina
Pet Food Manufacturer – Colorado




USDA/OIG-A/50601-10-KC                                   Page 93
Exhibit C – Implementation of the Expanded Surveillance Program and Food
Safety Measures
                                                                                                     Exhibit C – Page 1 of 2

                                              APHIS Implementation Actions
Worked with industry and State personnel to estimate the number of samples that could likely be obtained in the State.
Worked with industries (rendering facilities, 3D/4D or salvage slaughter operations, and other disposal options such as
deadstock facilities) to encourage participation and allowed access to not only non-ambulatory animals but all other
categories in the targeted population.
Provided for financial reimbursements. For entities that provide samples on a regular basis, to enter into written agreements
or contracts. The written agreements or contracts specify the specific responsibilities of each party and the agreed amount
of financial reimbursement.
Developed written instructions in the BSE Surveillance Guide.
Developed Veterinary Services Memorandum 580.16, which outlined the policy for the entire BSE surveillance program,
including the expectations for obtaining samples from all cattle condemned for non-CNS reasons.
Created a database to capture data to allow for ongoing analysis throughout the surveillance effort. The database would
provide the capability to analyze data at all levels – State, regional and national. The database contains specific fields to
identify both the location of sample collection and the location of the last place of residence of the animal. This database
will allow APHIS to monitor the number of samples received on a State and regional basis.
Designated an epidemiologist at the Centers for Epidemiology and Animal Health responsible for performing the routine
program analysis. This person would work closely with the BSE surveillance program manager and the APHIS TSE
Working Group in conducting and reporting the analyses to APHIS BSE surveillance program managers.
Conducted outreach campaigns in advertisements, radio spots and other marketing efforts.
Entered into an agreement with AMS, which has experience in establishing and evaluating quality assurance programs, to
review compliance with the BSE surveillance plan.
Provided training on the sampling process. Instructed sample collectors on the use of electronic forms and how to
accurately record the relevant information necessary to classify samples into the various aspects of the targeted population.
Distributed compact disk copies of the entire training sessions to all stakeholders.
Developed Standard Operating Procedures (SOPs) to address all laboratory responsibilities and performance expectations.
There are five SOPs: 1) conducting the specified test procedures; 2) addressing all laboratory responsibilities, performance
expectations, and communication or reporting requirements; 3) documenting the chain of custody of forwarded tissues from
inconclusive tests; 4) proficiency testing; and 5) reimbursement through standard purchase order, which is linked to
performance and contingent on proper procedures.



                                                FSIS Implementation Actions
Banned non-ambulatory (downer) animals from the human food supply.
Defined SRMs and prohibiting their use in the human food supply: skull, brain, trigeminal ganglia, eyes, vertebral column,
spinal cord and dorsal root ganglia of cattle 30 months of age and older, and the small intestine for cattle of all ages.
Expanded the prohibition that spinal cord in AMR product cannot be labeled as “meat” if it includes dorsal root ganglia
and/or clusters of nerve cells connected to the spinal column. In addition, prohibited the use of spinal columns and skulls
from cattle 30 months of age and older in AMR product.
Banned the use of air-injection stunning.
Provided training to FSIS personnel on the sample collection process. The personnel trained then provided training to
additional FSIS personnel, as necessary, with assistance from local APHIS personnel.
Implemented various Notices including procedures for 1) sample collection, documentation and shipping of samples by
inspection program personnel; 2) expectations regarding APHIS arrangements with establishments for sampling condemned
cattle at an alternative central location.




USDA/OIG-A/50601-10-KC                                                                                            Page 94
Exhibit C – Implementation of the Expanded Surveillance Program and Food
Safety Measures
                                                                                                     Exhibit C – Page 2 of 2

                                                FSIS Implementation Actions
Required in-plant inspectors to provide plant management at beef slaughter and bone-in beef processing plants with written
documentation of the requirements of the SRM regulations. Inspectors also met with plant management during the first
week after the regulations were published (January 9, 2004) to ensure plant personnel understood: 1) the requirements of the
SRM regulations; 2) that plants needed to reassess their hazard analysis and 3) that plants needed to develop controls for
removing, segregating, and disposing of SRMs.
Required in-plant inspection staff to verify that beef slaughter and bone-in beef processing plants had developed and
implemented the required SRM control measures during the second week after the regulations were published (regulations
became effective January 12, 2004).
Established inspection procedures for verifying that the requirements for removing, segregating, and disposing of SRMs
were implemented at each plant.
Established a program for Compliance and Investigations Division program investigators to visit each off-site location
where BSE brain tissue samples were collected from cattle condemned on ante mortem inspection at slaughter plants. The
program investigators were to verify that all condemned cattle were received at the off-site location, tissue samples were
obtained, and all other program and record keeping requirements were met.
Established a policy requiring inspectors to notify district office and Compliance and Investigations Division personnel each
time an animal was condemned that exhibited CNS symptoms. Program investigators were required to visit the sample
collection sites and confirm that all cattle condemned at slaughter plants that exhibited CNS symptoms were sampled for
BSE testing.




USDA/OIG-A/50601-10-KC                                                                                            Page 95
Exhibit D – Point-Based Evaluation Methods
                                                                                                     Exhibit D – Page 1 of 2

2005 OIE TAHC METHOD
In May 2005, the OIE General Assembly revised international standards for BSE surveillance by
approving changes to related articles of the 2005 OIE Terrestrial Animal Health Code (TAHC).
Article 3.8.4.3 recommends an approach that assigns ‘point values’ to each sample based on the
animal’s age and its “surveillance stream” (or subpopulation) as shown below in Table 2 of Article
3.8.4.4.2 of the TAHC. 146

                                           OIE SURVEILLANCE POINTS
                                    (Source: 2005 OIE TAHC Appendix 3.8.4 Table 2)
                                              Surveillance subpopulation
                                 Routine         Fallen       Casualty
                                slaughter         stock       slaughter    Clinical suspect
                                                Age ≥1 year and < 2 years
                                   0.01            0.2           0.4             N/A
                                        Age ≥2 years and < 4 years (young adult)
                                   0.1             0.2           0.4               260
                                         Age ≥4 years and < 7 years (middle adult)
                                   0.2            0.9           1.6               750
                                         Age ≥7 years and < 9 years (older adult)
                                   0.1             0.4           0.7               220
                                                   Age ≥9 years (aged)
                                   0.0              0.1           0.2               45

The four “surveillance subpopulations” are described in article 3.8.4.2 as follows: 147

      •   clinical suspects: “cattle … displaying behavioral or clinical signs consistent with BSE”
      •   casualty slaughter: “condemned at ante-mortem inspection … or downer cattle”
      •   fallen stock: “cattle … found dead on farm, during transport or at an abattoir”
      •   routine slaughter: “apparently healthy cattle presented for slaughter”
The above table reveals the enormous difference between the number of surveillance points assigned to
animals classified as clinical suspects compared to those classified as casualty slaughter, fallen stock,
routine slaughter. For example, if a 5-year old cow is classified as a “clinical suspect,” it is assigned
750 points, instead only 0.9 or 1.6 points if classified as either “fallen stock” or “casualty slaughter,”



146
    The United States is a member of the international community represented by the OIE; USDA provided input into this
new point system.
147
    The 2005 OIE TAHC describes the first three subpopulations as cattle “over 30 months of age” in article 3.8.4.2 and
routine slaughter as “over 36 months of age,” yet Table 2 assigns point values for all “age ≥ 1 year,” with the exception of
clinical suspects, have point values for all “age ≥ 2 years.”
USDA/OIG-A/50601-10-KC                                                                                            Page 96
Exhibit D – Point-Based Evaluation Methods
                                                                                                    Exhibit D – Page 2 of 2

respectively. 148 Therefore, misclassifying the surveillance stream and inaccurate aging of the cattle
tested can significantly impact the surveillance points used to estimate the prevalence of BSE.
The OIE TAHC represents a simplified version of the point-based system encoded in BSurvE.




148
   Because surveillance point values are so high for “clinical suspects,” the rest of the 2005 OIE TAHC article 3.8.4.2.1
description of “clinical suspects” is quoted below.
        Cattle affected by illnesses that are refractory to treatment, and displaying progressive behavioral changes such as
        excitability, persistent kicking when milked, changes in herd hierarchical status, hesitation at doors, gates and
        barriers, as well as those displaying progressive neurological signs without signs of infectious illness are
        candidates for examination. These behavioral changes, being very subtle, are best identified by those who handle
        animals on a daily basis. Since BSE causes no pathognomonic clinical signs, all countries with cattle populations
        will observe individual animals displaying clinical signs consistent with BSE. It should be recognized that cases
        may display only some of these signs, which may also vary in severity, and such animals should still be
        investigated as potential BSE affected animals. The rate at which such suspicious cases are likely to occur will
        differ among epidemiological situations and cannot therefore be predicted reliably.
        This subpopulation, particularly cattle over 30 months of age, is the one exhibiting the highest prevalence. The
        recognition greatly depends on the owner’s awareness and observation of suspect animals. The reporting of these
        suspect animals when at the farm will depend on the owner’s motivation based on cost and socio-economic
        repercussions.
USDA/OIG-A/50601-10-KC                                                                                            Page 97
Exhibit E – Geographic Distribution of Samples
                                                                  Exhibit E – Page 1 of 2




                          Samples as a Percentage
                             of Goals by State
                         based on Target Population




                                            Pct of Goal
                                                   Under 25%
                                                   25% to 49%
                                                   50% to 74%
                                                   75% to 99%
                                                   100% to 149%
                                                   150% to 199%
                                                   200% and Up

USDA/OIG-A/50601-10-KC                                                         Page 98
Exhibit E – Geographic Distribution of Samples
E



                                                         Exhibit E – Page 2 of 2
                           Samples as a Percentage
                              of Goals by Region
                          based on Target Population


                                           NC (247.0%)    NE (138.2%)
             NW (76.5%)




           SW (154.4%)




                                                           SE (85.2%)
                                    SC (90.8%)




USDA/OIG-A/50601-10-KC                                                Page 99
Exhibit F – Location (by County) of Sampling Sites with Agreements in the
Expanded BSE Surveillance Program 149                     150

                                                                                                      Exhibit F – Page 1 of 1




149
   Different shading is used to differentiate the counties on the map.
150
   APHIS noted that agreements do not necessarily reflect the entire universe of collection sites and that the presentation in
exhibit F was incomplete because there were many collection sites without a payment involved or without a formal
agreement. We note that over 90 percent of the samples collected were obtained from the 123 collection sites with
agreements and; therefore, we believe agreements offer the best source to increase targeted samples in underrepresented
areas.
USDA/OIG-A/50601-10-KC                                                                                            Page 100
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 1 of 17




USDA/OIG-A/50601-10-KC                                         Page 101
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 2 of 17




USDA/OIG-A/50601-10-KC                                                Page 102
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 3 of 17




USDA/OIG-A/50601-10-KC                                                Page 103
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 4 of 17




USDA/OIG-A/50601-10-KC                                                Page 104
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 5 of 17




USDA/OIG-A/50601-10-KC                                                Page 105
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 6 of 17




USDA/OIG-A/50601-10-KC                                                Page 106
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 7 of 17




USDA/OIG-A/50601-10-KC                                                Page 107
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 8 of 17




USDA/OIG-A/50601-10-KC                                                Page 108
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 9 of 17




USDA/OIG-A/50601-10-KC                                                Page 109
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 10 of 17




USDA/OIG-A/50601-10-KC                                                 Page 110
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 11 of 17




USDA/OIG-A/50601-10-KC                                                 Page 111
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 12 of 17




USDA/OIG-A/50601-10-KC                                                 Page 112
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 13 of 17




USDA/OIG-A/50601-10-KC                                                 Page 113
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 14 of 17




USDA/OIG-A/50601-10-KC                                                 Page 114
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 15 of 17




USDA/OIG-A/50601-10-KC                                                 Page 115
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 16 of 17




USDA/OIG-A/50601-10-KC                                                 Page 116
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 17 of 17




USDA/OIG-A/50601-10-KC                                                 Page 117
Informational copies of this report have been distributed to:


Administrator, FSIS
ATTN: Assistant Administrator for OPEER,                                        (20)
Administrator, APHIS
ATTN: Deputy Administrator for Marketing Regulatory Program Business Services   (9)
Government Accountability Office                                                (1)
Office of Management and Budget                                                 (1)
Office of the Chief Financial Officer                                           (1)
